<html>
<title> - CONFIRMATION HEARINGS ON FEDEAL APPOINTMENTS, PART 2</title>
<body><pre>[Senate Hearing 112-72, Part 2]
[From the U.S. Government Publishing Office]






                                                   S. Hrg. 112-72, Pt.2

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                   APRIL 13, MAY 4, and MAY 24, 2011

                               ----------                              

                           Serial No. J-112-4

                               ----------                              

                                 PART 2

                               ----------                              

         Printed for the use of the Committee on the Judiciary











                                                   S. Hrg. 112-72, Pt.2

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                   APRIL 13, MAY 4, and MAY 24, 2011

                               __________

                           Serial No. J-112-4

                               __________

                                 PART 2

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE

75-307 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director














                            C O N T E N T S

                              ----------                              

                             April 13, 2011
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     1
Grassley, Hon. Charles, a U.S. Senator from the State of Iowa....     2
    prepared statement...........................................   358

                               PRESENTERS

Bennet, Hon. Michael, a U.S. Senator from the State of Colorado, 
  presenting Richard B. Jackson, Nominee to be U.S. District 
  Judge for the District of Colorado.............................     8
Brown, Hon. Scott P. (of Massachusetts), a U.S. Senator from the 
  State of Massachusetts presenting Lisa O. Monaco, Nominee to be 
  Assistant Attorney General, National Security, U.S. Department 
  of Justice.....................................................    10
Clyburn, Jame E., a Representative in Congress from the State of 
  South Carolina, presenting Henry F. Floyd, Nominee to be U.S. 
  Circuit Judge for the Fourth Circuit...........................    11
Cornyn, Hon. John, a U.S. Senator from the State of Texas 
  presenting Nelva G. Ramos, Nominee to be U.S. District Judge 
  for the Southern District of Texas.............................     4
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois 
  presenting Sara L. Darrow, Nominee to be U.S. District Judge 
  for the Central District of Illinois...........................     5
Graham, Hon. Lindsey, a U.S. Senator from the State of Southern 
  Carolina presenting Henry F. Floyd, Nominee to be U.S. Circuit 
  Judge for the Fourth Circuit...................................     6
Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas presenting Nelva G. Ramos, Nominee to be U.S. District 
  Judge for the Southern District of Texas.......................     3
Udall, Hon. Mark (of Colorado), a U.S. Senator from the State of 
  Colorado presenting Richard B. Jackson, Nominee to be U.S. 
  District Judge for the District of Colorado....................     7

                       STATEMENTS OF THE NOMINEES

Darrow, Sara L., Nominee to be U.S. District Judge for the 
  Central District of Illinois...................................   265
    Biographical Information.....................................   267
Floyd, Henry F., Nominee to be U.S. Circuit Judge for the Fourth 
  Circuit........................................................    12
    Biographical Information.....................................    17
Jackson, Richard B., Nominee to be U.S. District Judge for the 
  District of Colorado...........................................   156
    Biographical Information.....................................   157
Monaco, Lisa O., Nominee to be Assistant Attorney General, 
  National Security Division, U.S. Department of Justice.........    77
    Biographical Information.....................................    83
Ramos, Nelva G., Nominee to be U.S. District Judge for the 
  Southern District of Texas.....................................   107
    Biographical Information.....................................   108

                         QUESTIONS AND ANSWERS

Responses of Sara L. Darrow to questions submitted by Senator 
  Grassley.......................................................   314
Responses of Henry F. Floyd to questions submitted by Senator 
  Grassley.......................................................   317
Responses of Richard B. Jackson to questions submitted by Senator 
  Grassley.......................................................   320
Responses of Lisa O. Monaco to questions submitted by Senator 
  Grassley.......................................................   326
Responses of Nelva G. Ramos to questions submitted by Senator 
  Grassley.......................................................   340

                       SUBMISSION FOR THE RECORD

Anderson, Norma V., Senator, Retired, Lakewood, Colorado, letter.   343
Austin, H. Gregory, Denver, Colorado, March 18, 2011, letter.....   344
Beatty, Michael L., Attorneys at Law, Beatty & Wozniak, P.C., 
  Denver, Colorado, March 21, 2011, letter.......................   346
Billy, Joseph, Jr., former Assistant Director of the FBI's 
  Counter Terrorism Division, April 5, 2011, letter..............   347
Brennan, Daniel G., Chief of Police, City of Police Department, 
  Wheat Ridge, Colorado, April 8, 2011, letter...................   348
Campbell, Benton J., former Interim U.S. Attorney, Eastern 
  District of New York; Wan J. Kim, former Assistant Attorney 
  General, Civil Rights Division; Jeffrey A. Taylor, former U.S. 
  Attorney, District of Columbia; Matthew W. Fredrich, former 
  Acting Assistant Attorney General, Criminal Division; Chuck 
  Rosenberg, former U.S. Attorney, Eastern District of Virginia; 
  Ronald J. Tenpas, former Assistant Attorney General, 
  Environment and Natural Resources Division, April 4, 2011, 
  joint letter...................................................   349
Coors, Peter H., Golden, Colorado, March 21, 2011, letter........   350
Davidson, Janice B., Chief Judge, Colorado Court of Appeals, 
  Denver, Colorado, March 29, 2011, letter.......................   351
Donoghue Elizabeth, Chair, Committee on the Judiciary of the New 
  York City Bar, New York, New York, June 14, 2011, letter.......   353
Enquist, Margie L., Judge, District Court, Golden, Colorado, 
  March 18, 2011, letter.........................................   354
Feeley, Michael F., Attorney at Law, Brownstein, Hyatt, Farber, 
  Schreck, Denver, Colorado, March 23, 2011, letter..............   355
Gleen, Marcy G., Holland & Hart, Denver, Colorado, March 31, 
  2011, letter...................................................   356
Haddon, Harold A., Haddon, Morgan and Foreman, P.C., Denver, 
  Colorado, March 29, 2011, letter...............................   364
Hulon, Willie T., April 8, 2011, letter..........................   366
Hutchison, Kay Bailey, a U.S. Senator from the State of Texas, 
  prepared statement.............................................   367
Kerry, John F., a U.S. Senator from the State of Massachusetts, 
  prepared statement.............................................   368
Lindsay, Sue, Golden, Colorado, March 25, 2011, letter...........   369
Maxfield, John R., P.C., Holland & Hart, Denver, Colorado, March 
  18, 2011, letter...............................................   370
Menendez, MJ, Deputy Chief-OCDETF, U.S. Attorney, Denver 
  Colorado, March 28, 2011, letter...............................   372
Michaels, Jane, Holland & Hart, Denver, Colorado, March 18, 2011, 
  letter.........................................................   375
Mink, Ted, Jefferson County Sheriff, Golden, Colorado, March 30, 
  2011, letter...................................................   376
Mudd, Philip, George Washington University, Homeland Security 
  Policy Institute, Washington, DC, statement....................   377
Mukasey, Michael B., Debevoise & Plimpton, LLP, New York, New 
  York, April 5, 2011, letter....................................   378
Munch, Christopher J., Judge, Golden, Colorado, March 17, 2011, 
  letter.........................................................   379
Nieto, Henry E., Judge, Court of Appeals, Denver, Colorado, March 
  29, 2011, letter...............................................   381
O'Donnell, Michael L., Wheeler Trigg O'Donnell LLP, Denver, 
  Colorado, March 24, 2011, letter...............................   382
Oeffler, Lily W., District Court Judge, Golden, Colorado, letter.   383
Paletta, Kevin, Chief of Police, Lakewood Police Department, 
  Lakewood, Colorado, March 30, 2011, letter.....................   384
Pautler, Mark C., Senior Chief Deputy District Attorney, 
  Jefferson County, Colorado, March 28, 2011, letter.............   385
Perlmutter, Ed, a Representatives in Congress from the State of 
  Colorado, March 30, 2011, letter...............................   387
Phillips, Paul D., Holland & Hart LLP, Denver, Colorado, March 
  22, 2011, letter...............................................   388
Polk, Dennis B., Attorneys at Law, Holley, Albertson & Polk, PC, 
  Golden, Colorado, March 30, 2011, letter.......................   389
Polidori, Tuthanne, Senior Judge, Morrison, Colorado, letter.....   391
Ritter, Bill, Jr., Denver, Colorado, April 1, 2011, letter.......   393
Storey, Scott W., District Attorney, Jefferson County, Colorado, 
  March 28, 2011, letter.........................................   395
Stuart, Ryan, Magistrate, State of Colorado, Golden Colorado, 
  March 25, 2011, letter.........................................   397
Suthers, John W., Attorney General, Denver Colorado, March 24, 
  2011, letter...................................................   399
Terwilliger, George J., III, White & Case, Washington, DC, April 
  12, 2011 letter................................................   400
Thomas, David J., Attorneys at Law, O'Brien & Thomas, LLC, 
  Lakewood Colorado, March 31, 2011, letter......................   402
Toll, Christopher H., P.C., Holland & Hart, Greenwood Village, 
  Colorado, March 28, 2011, letter...............................   403
Wainstein, Kenneth L., O'Melveny & Myers LLP, Washington, DC, 
  April 11, 2011, letter.........................................   405
Walsh, John F., U.S. Attorney, District of Colorado, U.S. 
  Department of Justice, Denver, Colorado, April 1, 2011, letter.   407
Weir, Peter A., Senior Chief Deputy District Attorney, Jefferson 
  County, Colorado, March 31, 2011, letter.......................   409
Wheeler, Malcolm E., Wheeler Trigg O'Donnell LLP, Denver, 
  Colorado, March 21, 2011, letter...............................   410
Witt, Maureen Reidy, Holland & Hart LLP., Greenwood Village, 
  Colorado, March 21, 2011, letter...............................   411

                              May 4, 2011

                    STATEMENTS OF COMMITTEE MEMBERS

Coons, Christopher A., a U.S. Senator from the State of Delaware.   423
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   424
    prepared statement...........................................   724
Schumer, Hon. Chuck, a U.S. Senator from the State of New York, 
  prepared statement.............................................   727

                               PRESENTERS

Collins, Hon. Susan M., a U.S. Senator from the State of Maine 
  presenting Nancy Torresen of Maine, Nominee to be District 
  Judge for the District of Maine................................   416
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina presenting Timothy M. Cain, of South Carolina, Nominee 
  to be District Judge for the District of South Carolina........   422
Landrieu, Hon. Mary L., a U.S. Senator from the State of 
  Louisiana presenting Nannettee Jolivette Brown, of Louisiana, 
  Nominee to be District Judge for the Eastern District of 
  Louisiana......................................................   418
McCaskill, Hon. Claire, a U.S. Senator from the State of Missouri 
  presenting John A. Ross, of Missouri, Nominee to be District 
  Judge for the Eastern District of Missouri.....................   420
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York presenting William F. Kuntz II, of New York, Nominee to be 
  District Judge for the Eastern District of New York............   417
Snowe, Hon. Olympia J., a U.S. Senator from the State of Maine 
  presenting Nancy Torresen of Maine, Nominee to be District 
  Judge for the District of Maine................................   414
Vitter, Hon. David, a U.S. Senator from the State of Louisiana 
  presenting Nannettee Jolivette Brown, of Louisiana, Nominee to 
  be District Judge for the Eastern District of Louisiana........   419

                       STATEMENT OF THE NOMINEES

Brown, Nannette Jolivette, of Louisiana, Nominee to be District 
  Judge for the Eastern District of Louisiana....................   464
Cain, Judge Timothy M., of South Carolina, Nominee to be District 
  Judge for the District of South Carolina.......................   557
    biographical information.....................................   558
    biographical information.....................................   465
Kuntz, William F., II, of New York, Nominee to be District Judge 
  for the Eastern District of New York...........................   514
    biographical information.....................................   515
Ross, Judge John A., of Missouri, Nominee to be District Judge 
  for the Eastern District of Missouri...........................   612
    biographical information.....................................   613
Torresen, Nancy, of Maine, Nominee to be District Judge for the 
  District of Maine..............................................   424
    biographical information.....................................   426

                         QUESTIONS AND ANSWERS

Responses of Nannette Jolivette Brown to questions submitted by 
  Senators Grassley and Klobuchar................................   688
Responses of Timothy M. Cain to questions submitted by Senators 
  Grassley and Klobuchar.........................................   694
Responses of William F. Kuntz, II to questions submitted by 
  Senators Grassley and Klobuchar................................   698
Responses of John A. Ross to questions submitted by Senators 
  Grassley and Klobuchar.........................................   702
Responses of Nancy Torresen to questions submitted by Senators 
  Grassley and Klobuchar.........................................   706

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Hill, Benjamin H., III, Chair, 
  Washington, DC:
    March 3, 2011, letter........................................   711
    February 17, 2011, letter....................................   713
    March 10, 2011, letter.......................................   715
    December 1, 2010, letter.....................................   717
    March 3, 2011, letter........................................   719
Collins, Hon. Susan M., a U.S. Senator from the State of Maine, 
  prepared statement.............................................   721
Donoghue, Elizabeth, Chair, New York City Bar, April 27, 2011, 
  letter.........................................................   723

                              May 24, 2011

                    STATEMENTS OF COMMITTEE MEMBERS

Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..   729
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   733
    prepared statement...........................................  1421
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................  1439
Schumer, Hon. Charles, a U.S. Senator from the State of New York, 
  prepared statement.............................................  1445

                               PRESENTERS

Cornyn, Hon. John, a U.S. Senator from the State of Texas 
  presenting Marina Garcia Marmolyo, Nominee to be U.S. District 
  Judge for the Southern District of Texas.......................   730
Christensen, Hon. Donna, a Representatives in Congress from the 
  State of Virgin Islands presenting Wilma Antoinette Lewis 
  Nominee to be Judge for the District Court of the Virgin 
  Islands........................................................   731
Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas, presenting Marina Garcia Marmolejo, Nominee to be U.S. 
  District Judge for the Southern District of Texas..............   735

                       STATEMENT OF THE NOMINEES

Green, Michael C., Nominee to be U.S. District Judge for the 
  Western District of New York...................................   905
    biographical information.....................................   906
Lewis, Wilma Antionette, Nominee to be U.S. District Court of the 
  Virgin Islands.................................................  1006
    biographical information.....................................  1008
Marmolejo, Marina Garcia, Nominee to be U.S. District Judge for 
  the Southern District of Texas of Texas........................   865
    biographical information.....................................   867
Quagliotti, Major General Marilyn A., USA (ret.), Nominee to be 
  Deputy Director for Supply Reduction, Office of National Drug 
  Control Policy.................................................  1108
    biographical information.....................................  1114
Six, Steve, Nominee to be U.S. Circuit Judge for the Tenth 
  Circuit........................................................   734
    biographical information.....................................   745

                         QUESTIONS AND ANSWERS

Responses of Michael C. Green to questions submitted by Senators 
  Grassley and Coburn............................................  1126
    People v. Abdallah Cases.....................................  1139
    People v. Mateo Cases........................................  1147
    People v. Owens Cases........................................  1269
Responses of Wilma A. Lewis to questions submitted by Senator 
  Grassley.......................................................  1361
Responses of Marina Garcia Marmolejo to questions submitted by 
  Senators Grassley and Coburn...................................  1372
Responses of Marilyn A. Quagliotti to questions submitted by 
  Senators Grassley and Coburn...................................  1375
Responses of Stephen N. Six to questions submitted by Senators 
  Grassley and Coburn............................................  1388

                       SUBMISSIONS FOR THE RECORD

Christensen, Hon. Donna, a Representatives in Congress from the 
  State of Virgin Islands........................................  1416
Croom, Charles E., Lt. Gen (USAF, Retired), Falls Church, 
  Virginia, letter...............................................  1421
District Attorneys Association of the State of New York, Derek P. 
  Champagne, President, Malone, New York, April 27, 2011, letter.  1423
Gilliband, Hon. Kirsten E., a U.S. Senator from the State of New 
  York, prepared statement.......................................  1425
Keeton, Douglas W., Small Business Owner, Veteran, Silver Spring, 
  Maryland, March 21, 2011, letter...............................  1438
McCaffrey, Barry R., General, (Retired) U.S. Army, March 2, 2011, 
  letter.........................................................  1442
Malone, Shawn-Michael, Senator of the Virgin Islands, St. Thomas, 
  Virgin Islands, May 23, 2011, letter...........................  1443
Speer, Gary D., Lieutenant General, U.S. Army (Retired), 
  Springfield, Virginia, March 21, 2011, letter..................  1446
State Attorneys General, under-signed, John Suthers, Attorney 
  General of Colorado; Dustin McDaniel, Attorney General of 
  Arkansas; Tom Miller, Attorney General of Iowa; George Jepsen, 
  Attorney General of Connecticut; Joseph R. ``Beau'' Biden, III, 
  Attorney General of Delaware; Lawrence G. Wasden, Attorney 
  General of Idaho; Jack Conway, Attorney General of Kentucky; 
  Douglas F. Gansler, Attorney General of Maryland; Jim Hood, 
  Attorney General of Mississippi; Steve Bullock, Attorney 
  General of Montana; Michael A Delaney, Attorney Genera of New 
  Hampshire; Leonardo M. Rapadas, Attorney general of Guam; Greg 
  Zoeller, Attorney General of Idiana; James D.``Budy'' Cadwell, 
  Attorney General of Louisiana; Martha Coakley, Attorney General 
  of Massachusetts; Chris Koster, Attorney General of Missouri; 
  Catherine Cortez Masto, Attorney General of Nevada; Gary K. 
  King, Attorney General of New Mexico; Roy Cooper, Attorney 
  General of North Carolina; Kohn Kroger, Attorney General of 
  Oregon; Marty J. Jackley, Attorney General of South Dakota; 
  Mark L. Shurtleff, Attorney General of Utah; Rob McKenna, 
  Attorney General of Washington; Gregory A. Phillips, Attorney 
  General of Wyoming; Wayne K. Stenehjem, Attorney General of 
  North Dakota; Peter Kilmartin Attorney General of Rhode Island; 
  Robert E. Cooper, Jr., Attorney General of Tennessee; William 
  H. Sorrell, Attorney General of Vermont, and Darrell V. McGraw, 
  Jr., Attorney General of West Virginia, June 8, 2011, joint 
  letter.........................................................  1448
Stephan, Robert T., Attorney at Law, Overland Park, Kansas, June 
  20, 2011, letter...............................................  1452
Tacha, Deanell Reece, Duane and Kelly Roberts Dean and Professor 
  of Law, Pepperdine University School of Law, Malibu, 
  California, June 24, 2011, letter..............................  1453
Turnbull, Charles W., former Governor, May 23, 2011, letter......  1454
University of Kansas, School of Law, Stephen W. Mazza, Dean and 
  Professor of Law; James K. Logan, former Dean; Martin W. 
  Dickinson, former Dean; Michael J. Davis, former Dean, and 
  Michael H. Hoefich, former Dean, Lawrence, Kansas, June 27, 
  2011, joint letter.............................................  1455
Vaught Wilma L., Brigadier General, USAF, retired, President, 
  Women in Military Service for America Memorial Foundation, 
  Inc., Washington, DC, March 25, 2011, letter...................  1457
Warner, Hon. Mark, a U.S. Senator for the State of Virginia, 
  prepared statement.............................................  1458

                     ALPHABETICAL LIST OF NOMINEES

Brown, Nannette Jolivette, of Louisiana, Nominee to be District 
  Judge for the Eastern istrict of Louisiana.....................   464
Cain, Judge Timothy M., of South Carolina, Nominee to be District 
  Judge for the District of South Carolina.......................   557
Darrow, Sara L., Nominee to be U.S. District Judge for the 
  Central District of Illinois...................................   265
Floyd, Henry F., Nominee to be U.S. Circuit Judge for the Fourth 
  Circuit........................................................    12
Green, Michael C., Nominee to be U.S. District Judge for the 
  Western District of New York...................................   905
Jackson, Richard B., Nominee to be U.S. District Judge for the 
  District of Colorado...........................................   156
Kuntz, William F., II, of New York Nominee to be District Judge 
  for the Eastern District of New York...........................   514
Lewis, Wilma Antionette, Nominee to be U.S. District Court of th 
  Virgin Islands.................................................  1006
Marmolejo, Marina Garcia, Nominee to be U.S. District Judge for 
  the Southern District of Texas of Texas........................   865
Monaco, Lisa O., Nominee to be Assistant Attorney General, 
  National Security Division, U.S. Department of Justice.........    77
Quagliotti, Major General Marilyn A., USA (ret.), Nominee to be 
  Deputy Director for Supply Reduction, Office of National Drug 
  Control Policy.................................................  1108
Ramos, Nelva G., Nominee to be U.S. District Judge for the 
  Southern District of Texas.....................................   107
Ross, Judge John A., of Missouri, Nominee to be District Judge 
  for the Easter District of Missouri............................   612
Six, Steve, Nominee to be U.S. Circuit Judge for the Tenth 
  Circuit........................................................   734
Torresen, Nancy, of Maine, Nominee to be District Judge for the 
  District of Maine..............................................   424

 
  NOMINATIONS OF HENRY F. FLOYD, NOMINEE TO BE UNITED STATES CIRCUIT 
 JUDGE FOR THE FOURTH CIRCUIT; LISA O. MONACO, NOMINEE TO BE ASSISTANT 
 ATTORNEY GENERAL, NATIONAL SECURITY DIVISION; NELVA G. RAMOS, NOMINEE 
TO BE UNITED STATES DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; 
RICHARD B. JACKSON, NOMINEE TO BE UNITED STATES DISTRICT JUDGE FOR THE 
DISTRICT OF COLORADO; AND, SARA L. DARROW, NOMINEE TO BE UNITED STATES 
          DISTRICT JUDGE FOR THE CENTRAL DISTRICT OF ILLINOIS

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:02 p.m., Room 
SD-226, Dirksen Senate Office Building, Hon. Al Franken, 
presiding.
    Present: Senators Durbin, Grassley, and Graham.

 OPENING STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Franken. This hearing is called to order.
    Before we begin, I would like to welcome all of you here 
today to the Senate Judiciary Committee. Providing the 
President our advice and consent on judicial and executive 
nominations is one of the most important jobs we have as 
Senators, and it is a special responsibility for the Judiciary 
Committee.
    Today we will consider five nominations: Judge Henry F. 
Floyd, for United States Circuit Judge for the Fourth Circuit; 
Lisa O. Monaco, for the Assistant Attorney General of the 
Department of Justice's National Security Division; Judge Nelva 
G. Ramos, for United States District Judge for the Southern 
District of Texas; Judge Richard B. Jackson, for United States 
District Judge for the District of Colorado; Sara L. Darrow, 
for United States District Judge for the Central District of 
Illinois.
    We are fortunate to have some of the nominees' home State 
Senators and Representatives here to introduce them, and we 
will turn to them shortly.
    But before we do, I will turn the floor over to my friend, 
the Ranking Member, Senator Grassley, for his opening remarks.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Mr. Chairman.
    We have a nominee to be a Circuit Judge, and three to be 
District Court Judges. In addition, we will hear from the 
nominee to be Assistant Attorney General heading the National 
Security Division, with the Department of Justice.
    I join you all, as the Chairman has, in welcoming all of 
you.
    Ms. Lisa Monaco--Monaco, like the city of Monaco or the 
state of Monaco, right?
    Senator Franken. I believe it is a nation.
    Senator Grassley. Nation.
    Senator Franken. Municipality.
    Senator Grassley. You do not have to convince them.
    Senator Franken. It is a principality? OK. Thank you. Well, 
Senator Graham is a huge gambler.
    [Laughter.]
    Senator Grassley. The National Security Division's mission 
is to carry out the department's highest priority, combating 
terrorism and other threats to national security. The division 
was created in 2006 as part of the PATRIOT Act reauthorization.
    Much of the reorganization creating the division was to 
promote a unified approach to accomplishing its mission. The 
structure of the division was designed to ensure greater 
coordination between prosecutors and law enforcement agencies, 
on the one hand, and the intelligence community on the other.
    Tearing down this wall, enhancing investigatory tools, 
streamlining national security investigations, and modernizing 
investigative authorities to take account of new and emerging 
technologies are some of the reforms that we have made. And 
there is work to be done, as we have recently heard from the 
FBI Director about this. Reauthorization of the critical tools 
ought to be a priority of this committee.
    I will continue to work with the Chairman in pursuit of a 
permanent extension of the Lone Wolf provisions of the roving 
electronic surveillance provision and of the business records 
provisions.
    In addition, I will work to preserve and strengthen other 
tools available for our national security and law enforcement 
professionals.
    In addition, we are considering four judicial nominees. 
Henry Floyd, sitting U.S. District Judge in South Carolina, is 
nominated to be U.S. Circuit Judge.
    We have already confirmed four of the President's nominees 
to the fourth circuit. This is as many as were confirmed to 
that Circuit during the two terms of President Bush. I would 
note that eight of President Bush's nominees to the Fourth 
Circuit were returned to the President, receiving no up or down 
vote by the Senate.
    We are also considering three District Court nominations. 
They are Sara L. Darrow, to be U.S. District Judge for the 
Central District of Illinois; Richard B. Jackson, for the 
District in Colorado; and, Nelva Ramos, from the Southern 
District of Texas. All of these vacancies are have been 
declared to be judicial emergencies.
    I would note that the Colorado vacancy could have been 
filled years ago. Gregory E. Goldberg was nominated to this 
seat in July of 2008 by President Bush and, as with many of 
these nominees by Bush, the Committee took no action.
    Mr. Chairman, I will not repeat the biographical 
information of our nominees. I commend each of them for their 
prior public service and for their willingness to continue in 
public service.
    I ask unanimous consent that the balance of my statement be 
put in the record.
    Senator Franken. Without objection.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Franken. Thank you, Senator Grassley.
    As I said, we are fortunate to have some of these nominees' 
home State Senators, and I think, in the case of Judge Floyd, 
perhaps Representative Clyburn will be coming.
    Let us start with Senator Cornyn, my good colleague from 
Texas, who will introduce Judge Ramos.
    Senator Cornyn. Thank you, Chairman Franken, Senator 
Grassley, Senator Graham. If I may withhold, and I see the 
senior Senator has just arrived just in time. If I could defer 
to her, I would appreciate it very much.
    Senator Franken. Absolutely.
    Senator Hutchison.
    Senator Hutchison. We always say that I am the senior 
Senator, but he has the gray hair.
    [Laughter.]

  PRESENTATION OF NELVA G. RAMOS, NOMINEE TO BE U.S. DISTRICT 
JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS, PRESENTED BY HON. KAY 
    BAILEY HUTCHISON, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, for having this 
hearing. And I am very pleased to be able to introduce our 
nominee, Nelva Gonzales Ramos, who has been nominated to serve 
as a district judge for the southern district in Corpus 
Christi, Texas.
    She graduated summa cum laude at Texas State University in 
San Marcos with a degree in education. She then went on to 
receive her juris doctorate from my alma mater, the University 
of Texas Law School, where she, again, graduated with honors.
    After growing up in Port Lavaca, Texas, Judge Ramos now 
finds herself in the very same area serving as a district court 
judge where she has been for the last 10 years. She began her 
judicial career in 1997 as a municipal court judge in Corpus 
Christi.
    During these years, she has been routinely recognized by 
the members of the Corpus Christi Bar Association as an 
outstanding district judge. She has gained the respect of her 
colleagues because of her demeanor on the bench. She is seen as 
fair and thoughtful and is commended by her colleagues for her 
skilled legal mind.
    Now, I read in a newspaper interview about her, when we 
nominated her, the President nominated her with our consent, 
and one of the lawyers that appears in her court often said 
that when she overrules his requests, which is not infrequent, 
that she always explains why and he acknowledges that she is 
usually right. So I think that is the mark of a good judge.
    I know that she has a solid understanding of the law and is 
well qualified, and I recommend her without reservation to the 
committee.
    Thank you, Mr. Chairman. And I thank my junior Senator.
    Senator Franken. Thank you, Senator Hutchison.
    Now, we will turn to Senator Cornyn, junior Senator.
    Senator Cornyn. Thank you, Chairman Franken.
    Senator Franken, I wonder if I might ask Judge Ramos and 
her family to stand so we can identify them.
    Senator Franken. Certainly. Welcome. Welcome to all of you.

  PRESENTATION OF NELVA G. RAMOS, NOMINEE TO BE U.S. DISTRICT 
  JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS, PRESENTED BY HON. 
      JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you very much, Mr. Chairman. I saw 
the judge's husband and son, but I did not see her when I came 
in. So I am glad she is here.
    Senator Franken. We will give her a chance to introduce 
them, as well. That was very kind of you.
    Senator Cornyn. Judge Ramos applied for this position, was 
screened by the Federal Judicial Evaluation Committee that 
Senator Hutchison and I have appointed, which is a bipartisan 
Committee comprised of the very lawyers in the State of Texas.
    As Senator Hutchison said, we are pleased to recommend her 
to President Obama and am even more pleased that she is a 
consensus nominee.
    I believe her character, temperament, and her skills 
demonstrate that she will apply the law faithfully and why she 
has earned such broad support.
    Judge Ramos' nomination, as I said, enjoys broad bipartisan 
support. The Texas House of Representatives, for instance, 
recently passed a resolution describing her as, quote, 
``imminently qualified to serve as a Federal judge.'' That 
resolution passed unanimously by both Republicans and 
Democrats.
    During her time on the bench, Judge Ramos has displayed a 
commitment to protecting some of our most vulnerable citizens. 
For example, she helped create the Nueces County district 
domestic violence court, which she has served on for the past 3 
years.
    She has also been very active in her community, serving on 
the Coastal Bend Council on Alcohol and Drug Abuse, on the 
board of directors for the Corpus Christi chapter of the March 
of Dimes, and as a mentor to students at Driscoll Middle School 
in Corpus Christi, Texas.
    As a member of the court, Judge Ramos will be replacing 
Judge Hayden Head. After a lifetime of service to his country 
and the United States Navy during the Vietnam war and 30 years 
now on the Federal bench, Judge Head will be a difficult act to 
follow. But I am confident Judge Ramos will rise to the 
occasion and continue to do us all proud.
    I urge my colleagues to join Senator Hutchison and me and 
the people of our State in support of the nomination of Judge 
Nelva Gonazales Ramos.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator Cornyn and Senator 
Hutchison. I know you both have very busy schedules. So thank 
you very much, and return to your other work.
    Senator Hutchison. Thank you for your courtesy, Senator 
Franken.
    Senator Franken. You bet. It appears that Senator Durbin 
has arrived. Would you introduce Ms. Darrow for us?

  PRESENTATION OF SARA L. DARROW, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE CENTRAL DISTRICT OF ILLINOIS, PRESENTED BY HON. 
   RICHARD DURBIN, A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman.
    I am pleased to introduce Sara Darrow, who has been 
nominated to serve in the District Court for the Central 
District of Illinois, and I thank my colleague, Senator Kirk, 
for also joining in this nomination.
    I want to thank Chairman Leahy and Ranking Member Grassley 
for including Ms. Darrow in today's hearing and for giving me a 
chance to say a few words about her nomination.
    She is currently an Assistant United States Attorney for 
the Illinois Central District, where she serves as the chief of 
the violent crimes section and works out of the Rock Island 
office. She has been nominated to fill the judgeship that was 
vacated when Judge Joe Billy McDade took senior status last 
year in Peoria.
    Ms. Darrow was recommended to me by a bipartisan merit 
selection committee I established to consider judicial 
applications, and I was pleased to submit her name to the White 
House and I am glad that she is here before us today.
    I am also glad that she is joined by many members of her 
family, including her husband, Clarence, and her six children. 
You will have the chance to introduce your family when you make 
your opening statement.
    Ms. Darrow is a graduate of Marquette University and the 
St. Louis University School of Law. While a college student at 
Marquette, she interned in Washington, DC for our colleague, 
Senator Carl Levin.
    It was on Capitol Hill where she met and began dating her 
husband, who was then working for Congressman Lane Evans.
    Ms. Darrow began her legal career in private practice in 
Rock Island, where she worked for 2 years before moving over to 
the Henry County State's attorney's office. She served as 
assistant state's attorney there from 1999 to 2000, then as 
first assistant state's attorney from 2000 to 2003.
    While serving at the state's attorney's office, she 
prosecuted a wide range of state felony cases and tried to 
verdict approximately 20 jury cases and over 100 cases before 
the bench. In her capacity as first assistant, she also was 
responsible for supervising staff attorneys and managing the 
office caseload.
    In 2003, Ms. Darrow became a Federal prosecutor, serving in 
the Rock Island office of the central district U.S. Attorney. 
She has investigated and prosecuted hundreds of defendants for 
various Federal crimes, including gang offenses, drug 
conspiracies, gun crimes, bank robbery, money laundering and 
fraud. She has written and argued numerous appeals.
    Starting in 2007, Ms. Darrow has served as violent crimes 
chief for the U.S. attorney's office and as the office's 
project safe neighborhoods coordinator and organized crime drug 
enforcement tax force coordinator.
    I know Senator Grassley will be interested in the fact that 
Ms. Darrow has also served since 2003 as a special assistant 
U.S. attorney for the southern district of Iowa. This is an 
arrangement that the Illinois and Iowa U.S. attorneys' offices 
have worked out to coordinate their effort.
    She has an amazing, impressive record in the Rock Island 
community, having volunteered for numerous organizations that 
serve children and the disadvantaged, and she also is a very 
proud mother.
    Ms. Darrow, we are glad to have you here before us today 
and I look forward to enthusiastically supporting your 
nomination.
    Senator Franken. Thank you very much, Senator Durbin.
    And now I turn to my colleague from South Carolina, Senator 
Graham.

  PRESENTATION OF HENRY F. FLOYD, NOMINEE TO BE U.S. CIRCUIT 
JUDGE FOR THE FOURTH CIRCUIT, PRESENTED BY HON. LINDSEY GRAHAM, 
        A U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman.
    It is my pleasure today to introduce to the Committee Judge 
Henry Floyd. I have known Henry for a very long time. We 
practiced law together in adjacent counties. He has been a 
state court judge and a Federal judge for over 18 years. He was 
appointed to the Federal bench by President Bush.
    Representative Clyburn will be coming over from the House 
in a bit to attest to the fact that Republicans and Democrats, 
independents, libertarians, vegetarians, we all have a common 
view of Judge Floyd and we believe he has got the best 
temperament of anybody in South Carolina. And that is saying a 
lot, because we have pretty patient people down there.
    He has a tremendous background of being a trial judge. He 
has been a litigator. He served in the State House. He has got 
a terrific background, I think, to administer justice at the 
Federal level. He was rated well qualified by the ABA. And I am 
just proud to see this day come. It has been a long time in the 
making, and I know, Henry, you will do a great job for the 
Fourth Circuit and the people of this part of the United 
States, and I look forward to getting you confirmed.
    And it is an odd situation where I am nominating someone 
and putting holds on all the judges at the same time. Nothing 
personal to these judges. We have got a problem in Charleston 
that I will share with you later, and I am going to leave here 
to talk about a situation with our port.
    But I hope, Mr. Chairman and to my colleagues, that this 
will end quickly. This is a huge deal for the State of South 
Carolina in terms of our economic future. And all of these 
judges reflect the best in America when it comes to the law, 
and Henry Floyd is a judge's judge, a person every lawyer who 
has been before has nothing but praise. And I know you will 
administer justice fairly at the Circuit Court level, and I 
very much appreciate President Obama nominating you. This is 
something he did not have to do, but he chose to do.
    And when it comes to Representative Clyburn coming over 
from the House, it speaks volumes about you, Henry, as a 
person. So thank you very much.
    Senator Franken. Thank you, Senator, and thanks for your 
patience, and I know you have to go. And we will hope that 
Representative Clyburn does make it.
    But in the meantime, we will go to Senators Udall and 
Bennet to introduce Judge Jackson.
    First, Senator Udall.

PRESENTATION OF RICHARD B. JACKSON, NOMINEE TO BE U.S. DISTRICT 
  JUDGE FOR THE DISTRICT OF COLORADO, PRESENTED BY HON. MARK 
        UDALL, A U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Udall. Thank you, Mr. Chairman, Senator Grassley, 
Senator Durbin. It is a treat to be here today to introduce a 
nominee for the Federal District Court bench in the District of 
Colorado, Judge Brooke Jackson.
    As you mentioned, I am joined here by my colleague, Senator 
Bennet.
    My firm belief is that Judge Jackson is exceptionally well 
qualified to fill this judicial vacancy, and I would urge his 
confirmation.
    The President, as was mentioned, nominated Judge Jackson to 
fill a vacant seat on the Federal district court of Colorado, 
where a judicial emergency, Senator Grassley pointed this out, 
has existed for several years due to a very heavy caseload.
    Based on Judge Jackson's track record of judicial service 
in Colorado, I have no doubt that he will serve with 
distinction. Quite simply, he has the right judicial 
temperament, the depth of experience, and a firm insistence on 
adjudicating all cases in an impartial manner, consistent with 
the law, qualities that I know we all look for in a Federal 
judge.
    Judge Jackson is originally from Montana. He excelled 
academically and he graduated magma cum laude from Dartmouth 
College and received his law degree cum laude from Harvard Law 
School.
    When he graduated, he heard the siren call of the west, Mr. 
Chairman, and he had the good sense and good fortune to turn 
his western roots to practice law in Colorado.
    He is currently a judge in the first judicial district of 
Colorado, where he has served for nearly 13 years. He has 
served as the chief judge for the last 8. During his time on 
the bench, Judge Jackson has presided over hundreds of trials 
and sentenced nearly 5,000 criminal defendants.
    Prior to his service on the bench, Judge Jackson spent 26 
years with the Denver-based law firm of Holland & Hart. During 
his time in private practice, Judge Jackson juggled a very busy 
schedule to also serve as a part-time pro bono town prosecutor 
on Bow Mar, Colorado.
    Mr. Chairman, Senator Bennet and I enlisted a bipartisan 
judicial selection advisory panel to help us make 
recommendations to the President for court vacancies in 
Colorado. Former Colorado Supreme Court Justice Rebecca 
Kourlis, a Republican, co-chaired the advisory committee, with 
Hal Haddon, a prominent Denver lawyer and Democrat.
    When the process began, we had two vacancies on the 
district court and our advisory panel worked tirelessly to 
interview and put forward the most qualified candidates.
    It was clear then and it is even clearer now that Judge 
Jackson deserves the President's nomination. I was not 
surprised when I learned that the American Bar Association 
unanimously rated Judge Jackson as well qualified, which is 
their highest rating, to serve as a Federal district judge.
    Since Judge Jackson has been nominated, there has been an 
outpouring of support from across the legal community and even 
across party lines. He enjoys broad support from respected 
Republicans, such as former U.S. Senate candidate Pete Coors, 
Colorado Attorney General John Suthers, Scott Storey, the 
district attorney of his own judicial district, and many 
others. He also has the support of many members of my party, 
including former Governor Bill Ritter, current U.S. Attorney 
John Walsh, and Congressman Ed Perlmutter of the seventh 
district, where Judge Jackson serves.
    Mr. Chairman, even district attorneys, police chiefs, 
sheriffs from across his district have come out in support of 
his nomination, and, Mr. Chairman, I would like to submit all 
the letters we have received thus far for the record.
    Senator Franken. Absolutely, without objection.
    [The letters appear as a submission for the record.]
    Senator Udall. It is over 40 letters of the people I 
mentioned and many others.
    The nomination of Judge Jackson is one of those rare, at 
least I think very notable times when Democrats and Republicans 
are all speaking with one voice in support of Judge Jackson.
    I want to thank you, Mr. Chairman, and members of the 
Committee for affording me time this afternoon to introduce 
Judge Jackson to all of you.
    Thank you.
    Senator Franken. Thank you, Senator Udall.
    And I will go to my colleague, Senator Bennet.

PRESENTATION OF RICHARD B. JACKSON, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE DISTRICT OF COLORADO, PRESENTED BY HON. MICHAEL 
      F. BENNET, A U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Bennet. Thank you, Mr. Chairman. By the way, it 
takes longer in some of our other committees to get to where 
you are. So congratulations.
    Senator Franken. Well deserved.
    [Laughter.]
    Senator Bennet. That is what I believe. You certainly look 
the part.
    And Senator Udall is right, we speak with one voice today. 
Senator Durbin looks a little unsure.
    [Laughter.]
    Senator Bennet. I want to thank you and the members of the 
Committee for holding this hearing on Judge Brooke Jackson to 
serve on our United States District Court for the District of 
Colorado.
    I would also like to welcome the Jackson family here today.
    I am proud to be here today with Mark Udall to introduce 
Judge Jackson. His nomination, as Senator Udall said, is the 
product of a thorough review by a bipartisan judicial 
nomination commission in our state.
    I support Judge Jackson's nomination and the work of our 
confirmation and urge confirmation of this impressively 
experienced candidate to the Federal bench.
    Judge Jackson is a seasoned jurist. He has extensive 
knowledge of a wide variety of types of cases important to the 
people of the State of Colorado. His mean years overseeing 
thousands of cases in Colorado's courts have prepared him now 
to serve our Nation on the Federal bench.
    Since his appointment to the state district court bench in 
1998, he has dutifully served Colorado. Because of his judicial 
temperament and skill on the bench, Judge Jackson was elevated 
to chief judge of the first judicial district in 2003.
    As chief judge, he is not only responsible for managing the 
entire judicial team made up of 13 district court judges, eight 
county court judges, eight magistrates, and a staff of 300, 
Judge Jackson manages a caseload of 200 felonies, 200 civil 
cases, and 50 domestic cases.
    He has had some of the toughest cases come before him and, 
by all accounts, from Republicans, such as our current Colorado 
Attorney General, John Suthers, to Democrats, like our former 
Governor, Bill Ritter, Judge Jackson has broad support.
    I know Senator Udall plans to ask the committee, or he 
already did, to add a number of letters of support from 
prominent law enforcement officials and others in our state. 
These letters run the gamut, I assure you, Mr. Chairman, across 
Colorado's legal and law enforcement community.
    Prior to his appointment to the state bench, Judge Jackson 
worked in private practice for 26 years as a civil litigator. 
He has also served as a prosecutor. His breadth of public and 
private sector legal experience sets him apart. That is why 
Senator Udall observed the American Bar Association rates him 
unanimously well qualified. It is also why the leaders in our 
state, from Pete Coors to John Walsh, have joined in support of 
Judge Jackson's nomination.
    Given the case backlogs in our judicial system, it is 
especially important that we bring on someone with Judge 
Jackson's breadth of experience to help make sure all 
Coloradans have access to our courts. The Federal court system 
needs to fill this vacancy as soon as practicable.
    I am more than happy to provide the Committee with any 
further materials or insight you may need as you process Judge 
Jackson's nomination.
    I would like to thank, again, the Committee for holding 
this hearing today and join the array of Colorado voices urging 
Judge Jackson's confirmation.
    Thank you, Mr. Chairman, and I thank my other colleagues 
here for their forbearance.
    Senator Franken. Thank you, gentlemen.
    Before we turn to the distinguished Senator from 
Massachusetts, without objection, I will add to the record an 
enthusiastic statement of support from his colleague, Senator 
Kerry, for the nomination of Lisa Monaco.
    And he writes the following: ``From her time as a Federal 
criminal prosecutor, where she took on Enron, to her work in 
the FBI director's office and the difficult and decisive days 
following the     9/11 attacks, Lisa has doggedly pursued 
justice and dedicated herself to strengthening the safety and 
security of our Nation. I am confident that Lisa will do a 
superb job in protecting our country.''
    And without objection, I will include the entire letter in 
the record.
    [The prepared statement of Senator Kerry appears as a 
submission for the record.]
    Senator Franken. We turn now to my distinguished colleague 
from Massachusetts, Senator Brown, to introduce Ms. Monaco.

    PRESENTATION OF LISA O. MONACO, NOMINEE TO BE ASSISTANT 
 ATTORNEY GENERAL, NATIONAL SECURITY DIVISION, U.S. DEPARTMENT 
  OF JUSTICE BY HON. SCOTT P. BROWN, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Mr. Chairman and 
Ranking Member and members of the committee. I just want to say 
thank you for allowing me to speak and, obviously, to appear 
here today to introduce Lisa Monaco, a nominee to be Assistant 
Attorney General for the National Security Division. And I 
offer my congratulations, as I have to her and her family.
    She has been a dedicated public servant for many years, and 
it is my honor to introduce her at this hearing.
    I had the pleasure of speaking with Ms. Monaco yesterday in 
my office at length and very much enjoyed our conversation, and 
I found that she conveyed strong self-confidence and a 
seriousness of purpose.
    She has deep roots in Massachusetts, having been born in 
Massachusetts and raised in Newton, and attended Newton public 
schools before enrolling at Harvard. Her parents still live in 
Newton. Her twin brother and his family live in Belmont. Her 
eldest brother lives in Boston. And I'm sure--I know that the 
family is very proud of her today.
    When I met with her yesterday, we had a frank conversation 
about the important role that the National Security Division 
plays in keeping our Nation safe and secure, and I believe she 
understands the incredible importance of the office for which 
she is being nominated.
    Former Attorney General Michael Mukasey wrote to this 
Committee about her experience and stated that, ``has both 
sound judgment and a keen understanding national security 
law''.
    I am pleased to learn that her background reflects an 
understanding of the national security threats that we face, as 
well as the operation of the Justice Department.
    Currently, she is the principal associate deputy attorney 
general and is a member of the senior management team for the 
deputy attorney general and the attorney general.
    She serves as the deputy attorney general's primary advisor 
on a broad range of criminal, law enforcement, national 
security, and civil matters, and assists the deputy attorney 
general in the overall management and oversight of the 
operations of the Justice Department.
    From 2006 to 2008, she served as chief of staff to the 
director of the FBI and she is a former prosecutor who served, 
as you noted, Mr. Chairman--as Senator Kerry noted--on the 
Enron task force.
    She was among a small group of prosecutors drawn from 
around the country and charged with investigating criminal 
violations in connection with the collapse of Enron in 2001.
    She received the attorney general's award for exceptional 
service, the Department of Justice's highest award, for her 
work as a prosecutor on that task force.
    In closing, I look forward to a thorough and fair 
examination of her record. The critical work of the National 
Security Division demands no less.
    So thank you, Mr. Chairman and Ranking Member and Senator 
Durbin.
    Senator Franken. Thank you, Senator Brown. Thanks for your 
patience and arriving so early.
    We would like to welcome, from the House of 
Representatives, to speak on behalf of Judge Floyd and speak to 
the bipartisan support for Judge Floyd, our colleague, 
Representative Clyburn. Thank you for joining us.

  PRESENTATION OF HENRY F. FLOYD, NOMINEE TO BE U.S. CIRCUIT 
    JUDGE FOR THE FOURTH CIRCUIT, PRSENTED BY HON. JAMES E. 
 CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
                            CAROLINA

    Representative Clyburn. Thank you very much, Mr. Chairman. 
Mr. Chairman, Senator Grassley, Senator Durbin, I want to thank 
you all so much for allowing me to appear here today on behalf 
of a long-time friend, Judge Floyd.
    I was thinking, as I was searching this junk on my desk 
trying to find the remarks that were prepared for me today, 
what will I say without them. Well, I am without them. So I am 
going to tell you what I know about Judge Floyd.
    I first met Judge Floyd when I was running a state agency 
in South Carolina, an agency to which I was appointed by then 
Governor John West, an agency that was created to respond to 
the times within which we lived coming out of the 1960s and the 
early 1970s.
    As you might imagine, Mr. Chairman, in those days, things 
were quite contentious in South Carolina and in the early days 
of that agency, I was not the first director of it, it got in 
significant difficulty and the legislature was moving to defund 
the agency and eliminate it. And I was asked by Governor West 
to go to that agency and try to see what we could do to turn it 
around.
    I started looking for legislators that I could sit down 
with and could get to understand exactly what it was that we 
were trying to do in order to continue to move our state 
forward.
    In that search, I came upon Henry Floyd, a young legislator 
from Pickens County, and when I looked into his background, I 
was able, through those meetings, to forgive him because of his 
northern roots, having been born in North Carolina. His parents 
moved to Pickens County when he was a very young boy.
    He, I noticed, had graduated from Wofford College in 
Spartanburg, a United Methodist affiliated school, whose board 
of trustees I was one time a member of.
    I know that we all talk about judges being prepared, well 
prepared for their work, and I think that all of you have his 
background before you and I need not go into that.
    What may not be shown on that paper that you have is the 
temperament of Henry Floyd. I can tell you without question 
that no one has ever been considered for a judgeship, no one 
has ever served in a judgeship that has demonstrated the kind 
of judicial temperament that you will find in Judge Henry 
Floyd. And I am so pleased to be here today to be a part of 
hopefully elevating him to the Fourth Circuit Court of Appeals.
    I do believe that he would make not just all South 
Carolinians, but all Americans proud.
    So thank you so much for allowing me to be here on his 
behalf today, and I wish him Godspeed, and each one of you the 
same throughout your deliberations.
    Thank you so much.
    Senator Franken. Thank you, Representative Clyburn, for 
joining us here in the Senate.
    And with that, I will introduce Judge Floyd and swear him 
in. So if, Judge Floyd, you would come forward, after that very 
eloquent introduction. You can remain standing.
    [Nominee sworn.]
    Senator Franken. Thank you. You may be seated.
    Judge Floyd, as is our tradition, please feel free to 
introduce any members of your family or friends that are here 
with you today.

 STATEMENT OF HON. HENRY F. FLOYD, NOMINEE TO BE UNITED STATES 
              CIRCUIT JUDGE FOR THE FOURTH CIRCUIT

    Judge Floyd. Thank you, Mr. Chairman.
    I have with me my wife, Dr. Libba Floyd; my good friend, 
Scott Dover; my mother, Margaret Floyd; my daughter, Betts 
Copenhaver, who is the mother of our two grandchildren; and, 
then, the president-elect of the South Carolina Bar, Marvin 
Quattlebaum, appeared here today. I didn't know he was coming, 
but he's in the audience today, as well.
    Senator Franken. Welcome to all of you and congratulations 
to all of you.
    Judge Floyd, you are in the unique position of having 
served as both a judge and as an elected official in the South 
Carolina State Legislature, a special position--I am sure 
someone else has done that before.
    Should you be confirmed, how do you think that your time 
serving in the legislature will help you interpret the laws 
that we write?
    Judge Floyd. Thank you, Mr. Chairman, for that question, 
and Senator Grassley.
    I was elected to the legislature when I was in law school. 
And so I got to spend a lot of time working with the Judiciary 
Committee, which, at that time, drafted most of the legislation 
that was considered by the House, except for budget.
    And so I got a real good lesson in how to put statutes 
together, how to interpret them, what the pitfalls could be. So 
I think my legislative experience would greatly assist me in 
the area of statutory construction and interpretation.
    Senator Franken. You currently are a district court judge. 
How do you think your job will change if you are confirmed for 
a position in the court of appeals?
    Judge Floyd. Well, I think--Senator, thank you for that 
question. I think that we still do a lot of writing and 
research at the district court level, particularly on the civil 
side. So it's nothing new to me in that regard.
    I would tell you that I've also set a designation at the 
Courth Circuit some 50 to 60 times. So I'm familiar with the 
process and how it works, and I think the transition would be 
very easy for me.
    Senator Franken. You were at the center of some very 
important national security cases a few years ago; for 
instance, the Padilla and Almawri cases. Can you ell us about 
those cases and your role in them?
    Judge Floyd. Thank you, Senator. The Padilla case came to 
me by way of a Supreme Court opinion that said that the case 
had to be tried in the district of South Carolina. And so he 
was in-house at the brig in South Carolina.
    So I got the case and the issue was whether or not the 
President had the right to detain an American citizen who was 
arrested on American soil. I ruled that he did not have that 
authority. And then the Fourth Circuit unanimously reversed me 
on that case.
    And then a few days before the cert briefs were due in the 
Supreme Court, the government changed its mind and decided to 
charge Jose Padilla as a citizen and they tried him in Florida.
    The Almawri case is a little different set of facts. He 
likewise was in the brig at Charleston. He came into the 
country the night before 9/11. The evidence in the case led me 
to conclude that under those facts and circumstances, that the 
President had a right to detain Almawri because there was a 
sudden--there was somewhat of a sudden emergency had he gone on 
about what he had plotted to do.
    That went up on appeal and, again, I got reversed by the 
Fourth Circuit. Again, just days before the Supreme Court was 
to see the briefs on the court, again, the government changed 
its mind and charged him as a citizen and--civilian--and tried 
him, I think, in Illinois, Senator Durbin.
    The order in that case, my order, is still a valid order in 
that the Supreme Court has vacated the Fourth Circuit's 
opinion. So the right of detention is still there.
    Senator Franken. So the Supreme Court never ruled on the 
issues in that case then.
    Judge Floyd. They never got to it, initially on 
jurisdictional grounds.
    Senator Franken. I understand that you were one of the 
first judges in the country to address the admissibility of--
and I hope I pronounce this right--mitochondrial?
    Judge Floyd. Mitochondrial DNA, Senator?
    Senator Franken. Yes.
    Judge Floyd. Yes, sir.
    Senator Franken. Yes. DNA is the pronunciation I knew I 
could get right. And you ruled that such evidence was 
admissible, which the South Carolina Supreme Court affirmed. I 
have worked hard here in the Senate to make sure that DNA 
evidence is collected and tested in a timely way so that 
justice can be served for victims of crime.
    Can you tell me a little bit about your experiences with 
DNA evidence in your courtroom?
    Judge Floyd. Thank you, Senator, for that question. 
Specifically on mitochondrial or DNA in general? In general?
    Senator Franken. In general.
    Judge Floyd. All right. Well mitochondrial DNA is derived 
from the mother of the person. It can be a very, very, very 
small sample.
    In this case, it was a murder case, with the death penalty 
pending. The FBI came in and testified. It was only the second 
time in the United States that mitochondrial DNA evidence was 
admitted, and we went through a long process, something akin to 
the Daubert analysis in Federal court. But ultimately, it was 
admitted.
    DNA evidence is quite frequently used, particularly in the 
state court, because there are so many criminal cases tried 
there. I have had--I have not had a bad experience with it and 
we've been--and we've had a good chain of custody and all that 
kind of stuff. So it's a very valuable tool for both sides.
    Senator Franken. Thank you, Judge.
    And I would turn to the Ranking Member.
    Senator Grassley. I do not know whether I need to ask you 
any questions. If you have got the two Senators from South 
Carolina on your side, you have got a couple tough cookies 
backing you.
    But let me do my job, because we want to make sure that 
people that interpret the law as opposed to make the law get on 
our courts.
    And I was going to ask you about Padilla, so I will not go 
into that anymore. But you were a state court judge for 11 
years, having been a District Court Judge now for 7 years, 
presided over hundreds of cases and even sat as designation on 
the Fourth Circuit.
    I am going to use, for my first question, Professor Liu, 
who was before our Committee a couple--well, maybe a month ago 
now for a hearing, and his nomination is on the Senate floor.
    But as a professor, he wrote at the moment of decision 
should determine whether a society's, ``collective values on a 
given issue,'' have converged to a degree that they could be 
persuasively crystallized and absorbed into legal doctrine.
    What I am asking is for you to answer, is it appropriate 
for a judge to consider, ``our collective values on a given 
issue,'' when interpreting the Constitution, a Federal statute, 
or deciding case or controversy?
    Judge Floyd. Thank you for the question, Senator Grassley. 
I am not familiar with the nominee or any of his writings, and 
I really don't know what content that particular quotation came 
from. So I'm really not in a position to evaluate that.
    Senator Grassley. All right. If confirmed as a Circuit 
Judge, what weight would you give to public values and social 
understandings in deciding cases, analyzing Federal statutes, 
or interpreting the Constitution?
    Judge Floyd. Thank you, sir, for that question.
    My position has always been, as a trial judge, both at the 
state and Federal level, is that, as simple as it sounds, I try 
to determine what the facts are and do that fairly and 
impartially and to those facts, I apply the law, as I 
understand it to be.
    There is a lot of precedent out there and I understand that 
and do follow precedent, when it exists. So that may seem a 
little narrow, but that's the way that I do things.
    Senator Grassley. Do you think the Constitution should be 
interpreted in ways that adapt its principles and its text to 
the challenges and conditions of our society? And if you 
thought so, how would you go about accomplishing that?
    Judge Floyd. Thank you again for that question. I don't 
believe that I would go about interpreting in that way, but I 
understand your question.
    Senator Grassley. I think you have answered my question. I 
would like you to think about the most difficult case you have 
had to decide as a Federal judge. In deciding that case, did 
you resort to things that you might call your own personal 
values, your core concerns, broader perspectives of how the 
world might work or the depth and breadth of your empathy? And 
those are words that might sound familiar to you, because they 
come from the empathy standard discussed by President Obama on 
several occasions.
    Judge Floyd. So you want me to talk about the concept of 
empathy.
    Senator Grassley. Well, how you would use that, whether you 
look at cases that way.
    Judge Floyd. No. Again, the way I answered your other 
question, you look at the facts, you determine them fairly and 
impartially, and you apply the law, and that's essentially what 
I do.
    Senator Grassley. Thank you very much.
    Senator Franken. Senator Durbin.
    Senator Durbin. Thank you very much, Judge Floyd, for being 
here. And like my colleagues, I am impressed by the fact that 
you had the support of both Republican Senators and my close 
friend, Congressman Clyburn, speaks well of your background and 
balance and reputation as a jurist.
    You have been involved in a number of things which have 
been questioned here. There is one I would like to ask about. 
We had a former colleague from the Commonwealth of 
Pennsylvania, Arlen Specter, and his last request of us as he 
left this Judiciary Committee, which he once chaired, was that 
we take up that issue which he addressed with great passion of 
televising court proceedings.
    And it turns out that in your background, you were a state 
court judge and presided over the case of State v. Beckham, a 
prominent murder case that resulted in a life sentence for the 
defendant. The entire 3-week trial was televised live in Court 
TV.
    So, Judge Floyd, what is your view on televising court 
proceedings and whether they would be appropriate in Federal 
court?
    Judge Floyd. Well, let me answer this way, from the state 
court experience. The Supreme Court gave us discretion to have 
proceedings televised. I personally, as a state court judge, 
did not have any problems with Court TV, for example, being in 
the courtroom.
    Everything went smoothly. And as you've noted, it was a 3-
week trial. It wasn't the only trial where I had TV or cameras 
in. But it didn't bother me in state court.
    But to answer your question, at the Federal level, that's 
really not my call. I think that's up to the Supreme Court or 
perhaps Congress.
    Senator Durbin. What was your observation on its impact on 
witnesses or even the conduct of counsel?
    Judge Floyd. Senator, with me personally, I run a pretty 
tight courtroom and I have not had problems. But I am aware 
that other judges have had problems with counsel playing for 
the cameras.
    Lots of times, the public can be misled by a snippet on the 
news and get the wrong idea about what's going on in the case. 
So that's one of the pitfalls of having cameras in the 
courtroom. But, again, I had a good experience. I never got 
burned by it.
    Senator Durbin. Thanks very much, Judge Floyd.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you. And thank you, Judge Floyd. 
Thank you for your testimony.
    [The biographical information of Henry F. Floyd follows.]
    




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Judge Floyd. Thank you. May I be excused?
    Senator Franken. Yes.
    [Laughter.]
    Senator Franken. I would now like to proceed to the second 
panel with Ms. Monaco.
    [Nominee sworn.]
    Senator Franken. Thank you. Please be seated. And I 
understand you have an opening statement, and you should also 
feel free to introduce any members of your family that are with 
you today.

 STATEMENT OF LISA O. MONACO, NOMINEE TO BE ASSISTANT ATTORNEY 
GENERAL, NATIONAL SECURITY DIVISION, U.S. DEPARTMENT OF JUSTICE

    Ms. Monaco. Thank you very much, Chairman Franken and 
Ranking Member Grassley.
    I would like to introduce the members of my family who are 
here today. With me today are my parents, Dr. Anthony Monaco, 
and my mother, Mary Lou Monaco, who traveled here from my 
hometown of Newton, Massachusetts, as Senator Brown referenced, 
and I am very pleased that they are here today.
    Senator Franken. Welcome.
    Ms. Monaco. With them is my middle brother, Mark, and his 
wife, Jennifer Monaco. They traveled here from New York City, 
and I am very pleased they are here. My niece and nephew, 
Sophia and Nicholas Monaco, would have very much liked to have 
skipped school. However, my brother and sister-in-law I think 
made a wise decision.
    Back home in Massachusetts, I have a twin brother and his 
wife, Lisa, and my nieces Jessica and Julia, and my brother, 
Peter, and his wife, Sara, and I suspect they're all watching 
on the Webcast. So I appreciate their----
    Senator Franken. Welcome to them, in that case.
    Ms. Monaco [continuing]. Appreciate their support.
    I have a number of friends and colleagues here from the 
department, and, also, colleagues from the National Security 
Division. I'm particularly honored that they're here to support 
me today, and a number of friends, as well. So I appreciate 
their support.
    Chairman Franken, if I could request that my full statement 
be entered into the record.
    Senator Franken. It will be.
    Ms. Monaco. And I have just a few brief opening remarks, if 
I could.
    Senator Franken. Sure, go ahead.
    Ms. Monaco. Chairman, I want to thank Senator Brown for his 
very kind introduction earlier this afternoon. I also want to 
thank the President for his confidence in nominating me, the 
Attorney General for his support, and the members of this 
Committee for considering my nomination.
    I'm here today as someone who has been extremely fortunate 
in my life and in my work. I would not be here today if not for 
the support of my parents. They have enabled me to enjoy many 
blessings, including pursuing work I am committed to in a 
department that I love.
    They have taught my brothers and I about hard work, 
integrity, and about living one's values. And because of these 
lessons, I'm very fortunate to be here today, tremendously 
honored to do so.
    I spent nearly 13 years, Senator, in the Justice 
Department. In that time, the world has changed. The events of 
September 11 altered forever the way the department and the FBI 
operate, and I have been part of that transformation and 
learned that our Nation faces complex and evolving national 
security threats; and, to combat those threats, we must be 
aggressive, we must be agile in our approach, and we must act 
consistent with the rule of law.
    Every morning for several years now, I have reviewed 
intelligence and threat streams together with talented agents, 
analysts and prosecutors. I have been privileged to work with 
Director Mueller to help advance the bureau's transformation 
from a law enforcement agency that investigates crime after the 
fact to a national security organization focused on preventing 
the next attack.
    The same principles guided Congress in creating the 
position for which I have been nominated, and Congress had the 
wisdom to remove barriers, legal and structural, to allow 
committed professionals to share their information, their 
talent, and their missions.
    The National Security Division is the embodiment of that 
vision, where intelligence lawyers come together with agents 
and prosecutors to combat terrorist plots, as well as spies and 
cyber criminals bent on stealing our secrets.
    The mission of the division most fundamentally is to 
prevent terrorism and to protect the American people. If I am 
fortunate to be confirmed, I will be proud to serve alongside 
the outstanding men and women in the National Security 
Division.
    I pledge to give my all, to carrying forward the work of 
those who have gone before me, mindful of the gravity of the 
duties I will be assuming, and committed to doing so in the 
best traditions of the Department of Justice.
    I thank you, Mr. Chairman, and I welcome the committee's 
questions.
    [The prepared statement of Ms. Monaco appears as a 
submission for the record.]
    Senator Franken. Thank you. And, Senator Grassley, I know 
you have a time constraint. So if you would like to start the 
questioning.
    Senator Grassley. I appreciate that. And for the benefit of 
the other nominees, I have the Sioux City Chamber of Commerce 
in town and I have them as an appointment in just a little 
while.
    It has been argued that because there is not an enemy state 
against which such a war on terror can be waged, the very 
notion of, ``war on terror'' is, at best, a public relations 
expression.
    Do you agree with that sentiment or do you believe that the 
United States is, in fact, engaged in actual war against 
terrorism?
    Ms. Monaco. Senator, thank you very much for that question. 
I think I would respond this way. I believe we are at war and I 
believe we are at war against a determined enemy and a very 
adaptable enemy, and that's been my experience in the time that 
I've served in the FBI and in the department.
    And we need to make sure that we are able to meet the 
threats that come at us in that war and to be flexible as we do 
so.
    Senator Grassley. Another question. Recently, our Attorney 
General announced a reversal in policy that although it was his 
opinion that the best venue for prosecution of terrorists was 
in Federal court, he made a decision to try terrorists in 
military court.
    He noted that he made his decision only because Congress 
forced him to do so.
    Do you agree with the Attorney General's decision to try 
terrorists in military tribunal?
    Ms. Monaco. Yes, Senator. My perspective on that is that we 
need to hold the 9/11 attackers accountable and we need to move 
forward in doing so in the military commissions.
    With the good work of this body and the leadership of 
Senator Graham and others in this Committee and elsewhere in 
the Congress, the military commissions were reformed and, I 
think, provide a legitimate fora to have a fair, thorough and 
just proceeding.
    Senator Grassley. A follow-up to that is whether or not you 
agree with the Attorney General's opinion that the best venue 
for prosecution is in Federal court and that Congress forced 
him to do otherwise.
    Ms. Monaco. Senator, I think that Congress has an 
appropriate role when issues engage national security and 
security concerns.
    As a prosecutor, though, I also think that prosecution 
decisions are appropriately made by those with the facts and 
the law in front of them and are appropriately made by 
prosecutors in the executive branch.
    Senator Grassley. The 9/11 Commission found a wall was in 
place prior to 9/11 between counterintelligence community and 
the law enforcement community. Legal and institutional reforms 
have taken down that wall. But I am concerned about efforts to 
rebuild that wall or weaken those reforms.
    Do you think a wall previously existed and, if so, does it 
still exist?
    Ms. Monaco. Senator, thank you very much for that question. 
I think that issue is one that we have to be ever vigilant on, 
and, that is, re-erecting any wall, structural, legal or 
perceived.
    As my opening comments, I think, indicated, we are best 
equipped to wage a fight against terrorism when we're bringing 
all tools to the table, sharing intelligence in law 
enforcement.
    The reforms that this body enacted after 9/11 and the 
creation of the National Security Division has enabled us to do 
that and I think we need to make sure that that stays the case.
    Senator Grassley. The Gorelick memo which established that 
wall was issued in 1995. Although you did not join the 
Department until 1998, were you involved in any subsequent 
review, revision or implementation of that memo?
    Ms. Monaco. I don't believe so, Senator. I was----
    Senator Grassley. Well, let us leave it that way. But if 
you do think, as an afterthought to my question, submit 
something in writing to me.
    Ms. Monaco. Absolutely, be happy to do that, Senator.
    Senator Grassley. Because if there is any relationship you 
had with that, I would like to know that.
    Ms. Monaco. Certainly.
    Senator Grassley. Do you support the permanent extension of 
the PATRIOT Act provisions, which are soon to expire, the Lone 
Wolf provision, the roving wiretap provision, and the business 
records provision?
    Ms. Monaco. Senator, I noted in your opening comments your 
focus on the PATRIOT Act and the need to reauthorize those 
provisions, and I want to thank you for your focus on that 
issue.
    The reforms from the PATRIOT Act and those expiring 
provisions, in particular, are absolutely critical tools that 
the National Security Division uses every day to make sure that 
national security investigators are able to stay on the same 
plane and in the level playing field with criminal 
investigators in the tools that they use.
    I think we need to have those provisions reauthorized for a 
substantial period of time in order to give stability and 
clarity to our agents in the field who need those tools quite 
essentially.
    Senator Grassley. I may submit some questions for answer in 
writing, but you have got through the most important issues 
that I wanted to discuss with you.
    Thank you, Mr. Chairman, for your courtesy.
    Senator Franken. You are very welcome. And say hi to the 
Sioux City Chamber of Commerce.
    You know what? I will turn it over to Senator Durbin, since 
we are going a little out of order.
    Senator Durbin. Thank you very much.
    Ms. Monaco, thank you for joining us. And I certainly am 
impressed with your background and work as chief of staff at 
the FBI with Director Mueller, who is wrapping up his 10-year 
service as director of the Federal Bureau of Investigation.
    I think he came right after 9/11 and he faced some 
extraordinary challenges, which I would like you to comment on. 
The one that struck me among so many other things that came out 
during the investigation of 9/11 was the status of the 
information systems at the Federal Bureau of Investigation on 
the day of that attack.
    As hard as it was to believe, the computers in the Federal 
Bureau of Investigation on 9/11 did not have access to the 
Internet, did not have word check, and were incapable of 
transmitting photographs.
    Most of what I have just described was common technology 
available on the open market. But the FBI was that antiquated 
and that far behind that they sent out photos of the suspected 
terrorists by overnight mail, because they could not send them 
by computer.
    Director Mueller tackled that issue and I think, by his own 
admission, he had some success and some failure in trying to 
put an up-to-date, modern computer system into the Federal 
Bureau of Investigation.
    Now, as I understand your job that you are responding to 
here in the National Security Division, it is to try to break 
down some of the barriers between agencies so that there is at 
least one place or many places where we share information and 
can follow up on it, as you say, to prevent an attack, not to 
react after that.
    What do you think, from your experience, is the current 
state of the communications technology at the FBI and in the 
Department of Justice when it comes to sharing that 
information?
    Ms. Monaco. Thank you, Senator Durbin. You've hit upon a 
critical issue in the ability of the department, the FBI, and, 
of course, the government as a whole to make sure that we are, 
for lack of a better phrase, able to connect the dots and share 
information and to come back and identify terrorist attacks 
before they occur.
    From my perspective, as having served at the FBI, 
thankfully, by the time I got there, I had a connection to the 
Internet and, in fact, the bureau was operating at what they 
call there enclaves. In other words, each individual and 
certainly the leadership focused on terrorism issues had at his 
or her desktop access to an unclassified network and the 
Internet, a secret level network, and a top secret level 
network.
    So I think that was a dramatic improvement from the state 
of things prior to 9/11, and I think the country has Director 
Mueller to thank for focusing just relentlessly on that issue, 
as you note, and from your focus on the issue. And I know you 
focused on the development of the Sentinel program over a 
number of years. Because of that focus, he was able to move 
things.
    I would say that we are not where we need to be and the 
proliferation of data bases and the need to share travel 
information with immigration information, with criminal 
information, is a continuing challenge because of the legal 
rules that are applied to those different sets, and the privacy 
protections that we have to be very mindful of with regard to 
U.S. person information.
    But I think it is something we have to be constantly 
focused on and to build on the progress that has been made.
    Senator Durbin. The last question I have relates to the 
other side of that equation. Once the technology is there, the 
question is whether the cultures of the agencies will allow 
them to share information.
    As hard as it may be to believe, as the intelligence 
community looked into 9/11, we found a lot of good information 
that was not shared because of the belief that it somehow could 
jeopardize the career of the person sending it or it should 
stay within the agency, and I hope that we are moving beyond 
that.
    Certainly, the position you aspire to is one that was 
designed to move beyond that. What has been your experience in 
terms of this culture? Is it still stovepiped, to use that old 
cliche, or is it getting better?
    Ms. Monaco. I think it's getting better, to a significant 
degree. My personal experience is that every morning, as I 
mentioned in my statement, agents and analysts and prosecutors 
all sit together to review the same information. That is 
something that didn't happen before 9/11.
    That same meeting is occurring everywhere around the 
government in different agencies, at State Department, at 
Homeland Security. So you have the same people looking at the 
same information and that is a critical development.
    In the National Security Division, you have--and the very 
purpose of it was to have intelligence lawyers sitting next to 
criminal prosecutors, those with law enforcement authorities, 
and working with agents and investigators. That didn't happen 
before Congress had the wisdom of creating the National 
Security Division.
    So now, every day, the people who are looking at the FISAs 
and the people who are looking at somebody, a terrorism or 
espionage target, for a potential prosecution are sitting side-
by-side.
    Senator Durbin. Thank you, Ms. Monaco.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator.
    Ms. Monaco, first of all, let me say that our office has 
received no shortage of calls from people in the law 
enforcement community who have been effusive in praising you 
and your nomination, and your family should be proud of where 
you are today.
    Ms. Monaco. Thank you, Mr. Chairman.
    Senator Franken. I was really impressed with your work on 
the Enron scandal and I understand that you earned the--I guess 
Senator Brown said that--you earned the Department of Justice's 
highest award for your work on the Enron task force.
    I realize the position you are nominated to would not be 
involved in Enron-type investigations or prosecutions, but if 
someone interested in protecting everyday Americans from 
corporate malfeasance, I want to know what you think lessons 
learned are from the Enron scandal.
    Ms. Monaco. Senator, I think from the perspective of 
individuals who the Enron task force prosecuted, I think the 
lessons were that individuals created very complicated 
structures and that there was a very high appetite for risk in 
that corporation, and that led the leaders of that organization 
and others to conduct a number of transactions that created a 
fictional picture, if you will, of what the actual corporation 
was doing.
    And I think with the reforms that Congress enacted after 
that, Sarbanes-Oxley and the like, we have a much better regime 
in place to prevent that. But I don't think we're done.
    From an investigative standpoint, it's actually somewhat 
similar to the position I'm going to now, which is, if I am 
confirmed, the focus by investigators on pieces of information 
and connecting it and taking a complex situation and 
simplifying it down to its essence was the point of the 
prosecution of Enron, and I think some parallels can be made in 
the national security realm.
    Senator Franken. Well, thank you, Ms. Monaco.
    We will now proceed to the third and final panel of this 
afternoon's hearing. You are excused. Thank you very much.
    Ms. Monaco. Thank you, Mr. Chairman.
    Senator Franken. Would the third panel come forward and 
stand and raise your right hands? Now, I would like you, 
please, to swear the oath.
    [Nominees sworn.]
    Senator Franken. Please be seated. And I invite you, each 
of you, starting with Judge Ramos, to introduce members of your 
family and friends who are here today.
    [The biographical information of Lisa O. Monaco follows.]




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
STATEMENT OF HON. NELVA G. RAMOS, TO BE UNITED STATES DISTRICT 
            JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS

    Judge Ramos. Thank you, Senator Franken, for the 
opportunity to be here.
    With me today is my husband, Oscar Ramos.
    Senator Franken. Hello.
    Judge Ramos. Our son, Christian.
    Senator Franken. Welcome, Christian.
    Judge Ramos. My sister, Norma Stachura.
    Senator Franken. How do you do?
    Judge Ramos. Our friends, Caroline Bertuzzi, the honorable 
Rose Vela and her husband, Fil Vela. And I thank them for being 
here today.
    If I could thank Senator Hutchison and Senator Cornyn for 
their kind introduction, and I'd like to thank them, as well as 
former Congressman Solomon Ortiz, for their support through 
this process. And I thank the President for his nomination.
    If I could briefly acknowledge my brothers and sisters and 
other family and friends who are watching through the Webcast. 
I thank them for their support. And acknowledge my mother-in-
law, Alicia Ramos, for her support. And, finally, acknowledge 
my parents, Felipe and Isabel Gonzales. It is because of them 
that I am living the American dream.
    I thank my mother for her tremendous support through the 
years. My father is no longer with us. I know he is here in 
spirit and is looking down on these proceedings from above.
    Thank you, Senator Franken, and I welcome your questions.
    Senator Franken. Thank you, and hello to everyone watching 
on the Webcast.
    Judge Jackson.
    [The biographical information of Nelva G. Ramos follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
   STATEMENT OF HON. RICHARD B. JACKSON, TO BE UNITED STATES 
          DISTRICT JUDGE FOR THE DISTRICT OF COLORADO

    Judge Jackson. Thank you, Senator. And I do want to thank 
Senator Durbin, yourself, sir, Senator Leahy, Senator Grassley 
and the Committee for granting me this hearing.
    I certainly want to thank the President for nominating me. 
And I especially want to thank Senators Udall and Bennet for 
their very generous introductions.
    And if I might, sir, introduce my family to you.
    Senator Franken. Please.
    Judge Jackson. My wife of 39 years, Liz Jackson.
    Senator Franken. Welcome.
    Judge Jackson. Here on the front row. My son, who is a 
lawyer and living in California, Brett Jackson.
    Senator Franken. Welcome.
    Judge Jackson. My daughter, Jenny, who lives in New York 
City and came down to support me.
    Senator Franken. How do you do?
    Judge Jackson. Two of my family couldn't be here, Senator, 
our other son, Jeff, our older son couldn't travel for medical 
reasons, and, also, his wife is expecting a child in a month 
and a half and she couldn't come either. But they and their two 
sons, our grandchildren, I'm sure are here on the Webcast. And 
my brother, my brother is a lawyer in Montana. He actually 
worked here in the Senate for several years and I know he 
wanted to come back and be back in his community, but he is 
both a lawyer and a part-time judge and couldn't schedule it on 
short notice, but I think he'll be watching today, too.
    Thank you, sir.
    Senator Franken. Well, thank you and welcome to all those 
watching, and good luck on the birth.
    Judge Jackson. Thank you.
    Senator Franken. On the birth coming soon.
    Ms. Darrow.
    [The biographical information of Richard B. Jackson 
follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



STATEMENT OF SARA L. DARROW, TO BE UNITED STATES DISTRICT JUDGE 
              FOR THE CENTRAL DISTRICT OF ILLINOIS

    Ms. Darrow. Thank you, Senator Franklin--Franken--I'm 
sorry. Not a good start.
    Senator Franken. I am going to vote against you.
    [Laughter.]
    Ms. Darrow. I would like to very graciously thank you for 
chairing this hearing.
    Senator Franken. OK, then I will.
    [Laughter.]
    Ms. Darrow. And, of course, I'd also like to thank 
President Obama for the honor of his nomination. And I would 
like to especially thank Senator Durbin for the privilege and 
the honor and the confidence that you show in me in nominating 
me for this position, and specifically for the opportunity to 
continue to serve my country in the capacity as a district 
court judge.
    If I may introduce my family.
    Senator Franken. You bet.
    Ms. Darrow. I have with me my husband, Clarence Darrow; 
and, our children, Connor, who is 14; Lilia, who is age 13; 
Augie, who is age 12; Anna Grace, who is 10; Ella, who is 8; 
and Danny, who is 5 years old.
    Senator Franken. Wow. Hi. That is great.
    Ms. Darrow. Thank you.
    Senator Franken. Welcome, all of you.
    Ms. Darrow. I'd also like to introduce my brother, Mike 
Frizzell who is here, and his wife, Katie Getsal (ph). They 
live here in DC, but I'm happy that they made the trip here to 
support me today.
    Senator Franken. Great. Welcome.
    Ms. Darrow. And I'd also like to acknowledge some other 
family members who couldn't be here, but are watching the 
Webcast. My mother, Cheryl Frizzell, who is watching from 
Nebraska; my father and step-mother, Ron Frizzell and Susan 
Frizzell, who are watching from Michigan; and my in-laws, 
Clarence and Lily Darrow and the extended Darrow family, who 
are watching from Illinois.
    And I'd also like to give a special thanks to my colleagues 
and friends at the U.S. attorney's office in both the central 
district of Illinois and also the law enforcement community 
there, and to all my friends who are watching the Webcast here 
today.
    Thank you very much.
    Senator Franken. You are very welcome, and welcome to all 
your friends and family watching over the Web.
    Ms. Darrow, let me start with you. As an assistant United 
States attorney, you specialize in prosecuting gang-related and 
organized crime. These can sometimes be difficult cases to 
build.
    Can you talk about how the challenges you face prosecuting 
gang and organized crime cases have prepared you for the bench?
    Ms. Darrow. Thank you for the question, Senator. Certainly, 
when you're dealing with violent crime cases that entail 
enterprises such as street gangs and, also, drug trafficking 
organizations that can reach into international borders, they 
deal with several facts and complex legal issues and, also, 
logistical issues dealing with witnesses, some who are not 
always cooperative.
    I think that my ability to not only handle high volumes of 
evidence and to organize it in a digestible manner, 
specifically for myself, the agents, and also, eventually, the 
jury or the judge, and, also, my ability to partner with law 
enforcement and make sure that we work together as a team to 
see that justice is served, I think that all of those traits 
are easily transferable to the bench and I would definitely 
employ those in presiding, if I am lucky enough to be confirmed 
as a District Judge.
    Senator Franken. Thank you.
    [The biographical information of Sara L. Darrow follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Judge Ramos, over the last 10 years, you have presided over 
1,200 criminal, civil, and family law cases that went to 
verdict or judgment, and yet only eight of those cases have 
been reversed. That is less than 1 percent of the cases that 
you have presided over. It is a pretty impressive rate.
    How has your work in the 347th district court for Nueces 
County prepared you to serve as a District Judge for the 
southern district of Texas?
    Judge Ramos. Thank you, Senator. As you said, for the last 
10 years, I've had the privilege of serving as a district court 
judge in a court of general jurisdiction. So I've presided over 
both criminal and civil cases, and I think that judicial 
experience will benefit me greatly, if I am confirmed, as a 
district court judge.
    Thank you.
    Senator Franken. Thank you.
    Judge Jackson, a little over 10 years ago, you presided 
over a sexual assault case involving a 28-year-old man named 
Charles Brooks, who sexually assaulted a 12-year-old victim.
    I understand he entered what is called an Alford plea, 
where he accepted the charge, but asserted innocence. You 
initially sentenced Mr. Brooks to 10 years in prison.
    Judge Jackson, you subsequently reduced Mr. Brooks' 
sentence down to a 2-year jail term plus 10 years probation.
    When the Rocky Mountain News ran a story criticizing your 
decision, you wrote a letter to the editor defending it. You 
said that the victim was not raped, although there was, quote, 
``inappropriate behavior and touching.'' This is very unusual 
for a judge to write such a letter.
    My understanding, Judge Jackson, is that a lot of people 
were very concerned about how you handled the case, and, to be 
honest, I am concerned about it, too.
    Can you tell us about the case and why you made the 
decision that you did?
    Judge Jackson. Yes, I can and I thank you for the 
opportunity to do that.
    Senator, as you might expect, sex offense cases are among 
the most difficult that we have and certainly the most victim-
sensitive. And this case happened to be, I think, the first 
case of that kind that I had had as a judge, but I did sentence 
Charles Brooks to 10 years in prison because I thought that was 
exactly what he deserved.
    Something happened in that case that is unique to all the 
sex offenses cases I have had, and I think I have had 300 or 
400 probably in my career by now.
    Brooks was in prison, but Brooks only communicates through 
sign interpreters. He is hearing impaired and needs an 
interpreter to communicate.
    In addition to that, he has mental health issues. But the 
main thing was the speech difficulty, hearing difficulty, and I 
was told that he was not getting any offense-specific 
treatment, any sex offense treatment in prison; not a knock on 
the prison, but just a combination of resources and the lack of 
interpreters.
    I was concerned, Senator, about the community safety aspect 
of that, because 10 years or not, he was going to come out of 
the prison and be back in the community. And it was extremely 
important, it was emphasized by our probation department how 
critical it was that he get treatment.
    And so I agreed to a proposal that was made to me to bring 
him back to our local jail, to incarcerate him for the maximum 
term possible, but to get him the offense-specific treatment 
with interpretation that everyone thought he needed.
    I agreed to that on the condition that he successfully 
complete the treatment program and that if he made it onto 
probation, that he be absolutely without any type of violation, 
zero tolerance.
    In fact, Mr. Brooks did reasonably well, quite well in 
treatment and he served his jail sentence, but very shortly 
after he completed the jail sentence, he was dismissed from the 
treatment program not because he wasn't complying, but because 
he would not admit his crime.
    He, as you said, entered an Alford plea and he, from the 
beginning to the end, denied that he was guilty. And you cannot 
complete offense-specific treatment in Colorado unless you 
admit.
    That was a violation of his probation and I did exactly 
what I said I would do. I revoked his probation, put him back 
in prison, and he served out his 10-year sentence.
    And, Senator, if I can add, I'm proud to say that the 
district attorney, who was the DA at the time, who brought the 
case, the deputy district attorney who actually prosecuted the 
case, the district attorney in our jurisdiction who is there 
today and his chief deputies, all of those support me for this 
position, as Senator Udall said, to the Attorney General of the 
state and the U.S. attorney, and I think they based that on 12 
years of how I've handled cases like this.
    As far as the newspaper, I think that was a poor decision, 
sir. It was frustrating to me as a new judge to see a case 
described in the paper that I didn't think was describing the 
case that I had or the reasons why I did what I did.
    I think it probably is not a good idea for a judge to write 
a letter like that. Sometimes you learn these things the hard 
way.
    But I will say, for what little it might be worth, that the 
reporter who wrote the article followed my career on the bench 
for several years after that and she is one of the letters of 
support that you have in that volume that Senator Udall 
presented.
    It doesn't mean I did the right thing on the letter. I 
shouldn't have done it. I made a mistake and I learned from it.
    Senator Franken. Thank you.
    Judge Jackson. Thank you, Senator.
    Senator Franken. Thank you, Judge.
    Senator Durbin.
    Senator Durbin. Thank you, Chairman Franken. I will get him 
back on our side, I promise.
    [Laughter.]
    Senator Durbin. There is one thing I did not mention when I 
introduced Ms. Darrow to the Judiciary Committee, and, that is, 
what a positive impression she made on me when I interviewed 
her.
    I certainly knew her father. I know her father-in-law, I 
have known him for years, a close friend of mine, and I had 
learned quite a bit about her background as a prosecutor and 
legal practice. And as you can see from the biographical 
material, she has had a 14-year legal career.
    And what you may recall is when she introduced her 
children, all six of them, but the oldest is 14, how this woman 
has been able to balance this amazing professional career with 
this beautiful family is nothing short of a miracle.
    Senator Franken. Hence, the ``wow.''
    [Laughter.]
    Senator Durbin. And so I was so impressed and still am and 
I am sure glad that you are here. And I do not have any 
questions, because if I did, I would not have brought you here. 
But I am glad that you have had an opportunity to come to this 
hearing.
    Ms. Darrow. Thank you, Senator.
    I would like to ask the other two nominees, if I might, a 
few questions.
    Judge Ramos, I am impressed with your career.
    Judge Ramos. Thank you, Senator.
    Senator Durbin. It is an extraordinary career. It is 
primarily oriented toward civil litigation. I think you have 
said as much in responding to questions. And I think you 
understand that if this is like most Federal district courts, 
you are going to have a lot of criminal practice before you.
    Tell me how you would explain to the members of the 
Committee that you will be prepared for that seismic shift in 
your practice.
    Judge Ramos. Thank you, Senator. When I was in private 
practice, my practice was a civil practice. But since I've been 
on the bench for the last 10 years, I'm in a court of general 
jurisdiction. So it is--I preside over civil and criminal cases 
and I----
    Senator Durbin. What percentage would you say it is?
    Judge Ramos. I've tried over 100 jury trials in civil 
cases--felony cases. So I think that experience will carry 
over.
    Senator Durbin. Criminal felony.
    Judge Ramos. Criminal felony, yes, sir.
    Senator Durbin. I see. Well, that certainly is adequate for 
that, more than adequate for that.
    Judge Ramos. Thank you, Senator.
    Senator Durbin. And I also notice your pride in your own 
heritage and the opportunities that this country has brought 
you. You live in a state which the last census indicates has a 
dramatic upsurge in the Hispanic population, maybe the largest 
in the nation, I am not sure, but close, if not the largest.
    And there are always questions of justice related to 
newcomers to America. Tell me how you would balance that in a 
courtroom, dealing with the law and the reality of what life is 
like for newcomers to America.
    Judge Ramos. Right. Similar to what I think as a judge, you 
should treat all persons equally regardless of who they are or 
where they come from, and I have done that for the last 10 
years. I do think it's important for a judge to certainly 
understand where people come from, the situation they find 
themselves in, and how your rulings may affect their lives.
    However, sympathy, a judge should not allow sympathy to 
play any role in a judge's decisions. So I think I have treated 
everyone who has come before my court with respect and equality 
for the last 10 years and I would continue to do that.
    Thank you.
    Senator Durbin. Judge Jackson, I read the same case that 
Senator Franken asked about and I am sure, across your judicial 
career, it is probably one of the more controversial decisions 
you have ever been engaged in.
    And I noted your acknowledgment that you may have made a 
mistake in sending a letter to the newspaper. As hard as it may 
be to believe, occasionally, Senators make mistakes and I am 
one of them.
    Judge Jackson. Well, thank you for that.
    Senator Durbin. I think what really many of us struggle 
with who have never had to face your responsibility in trying 
to decide the appropriate sentence for someone accused of a sex 
crime is kind of this haunting question about whether 
rehabilitation is even possible in this situation.
    We hear so many cases of repeat offenders with sex crimes. 
Now, you have said that it has been your experience, that you 
have had several hundred of these offenders before you, and I 
would just like to ask you if you could comment on that 
experience and what you can bring to us in terms of our 
understanding of these criminal defendants.
    Judge Jackson. Yes. Thank you for that question, Senator. 
Our law changed in 1998 and now we have what is called a 
Lifetime Supervision of Sex Offenders Act, and for certain 
classes of sex offense felonies, we are required to sentence 
from a minimum to life. But that same law from our legislature 
says that the presumption is that a sex offender will always be 
a sex offender, but with treatment, some can be released to the 
community.
    We have a sex offense management board, we have parole 
boards who make decisions on which of these people can be 
released, and there have been a number now who have been 
sentenced to life sentences who actually have been released 
back into the community.
    It really is a product of do they get treatment, do they 
respond to the treatment, what is their criminal history. For 
example, in the case that I had that's been the subject of 
discussion, this gentleman had not only not had a prior sex 
offense, but had not any prior felonies or significant offenses 
at all. Someone like that I think is more treatable perhaps.
    Can I tell you, sir, that with treatment, someone is no 
risk anymore? Absolutely I cannot. What I can tell you is that 
if they get treatment and do well, and, of course, they 
register as sex offenders and there are a number of other 
things that apply to them, that when they come back into the 
community, we're a much safer community than we would have been 
had they not gone through that treatment.
    Senator Durbin. Did I understand your testimony that this 
individual, once brought back for local incarceration and this 
offender treatment program, when he would not admit his guilt, 
was re-incarcerated? So he was never released to the public.
    Judge Jackson. That is correct. He--that is almost correct. 
He was released on probation from the conclusion of his jail 
sentence for a period of--I'm trying to remember--I would say 2 
or 3 months, but that's when his treatment program was 
terminated and that's why I put him back in prison to serve out 
his sentence.
    Senator Durbin. I see.
    Ms. Darrow, you made a long trip out here, so I am going to 
ask you one thing about your background, if I might. And that 
is, you were involved in a pretty significant prosecution of 
drug gangs in the Quad Cities area, the Rock Island area there.
    Could you tell us a little bit about your lead in these 
gang investigations and prosecutions?
    Ms. Darrow. Yes. Thank you, Senator. I think you're 
referring to my prosecution of the Latin Kings street gang. At 
the time, they were the largest supplier of drugs in the East 
Molina area, which is one of the main cities in my 
jurisdiction.
    And they were--we prosecuted the local leader of the street 
gang, as well as his underlings, and we went all the way back 
to the source of supply, which was in Texas.
    It was a racketeering prosecution, which is a little bit 
more complex than a straightforward drug prosecution or 
otherwise violent crime prosecution, and I am happy to say that 
at the end of that prosecution, local law enforcement agreed 
that the presence of that street gang at that time had been 
dismantled.
    Senator Durbin. I am hoping that testimony will clearly win 
over Chairman Franken. And I yield.
    Senator Franken. Thank you, Senator Durblin.
    [Laughter.]
    Senator Franken. And thank you, Judge Ramos and Judge 
Jackson and Ms. Darrow, for your testimony. And you are welcome 
to stay there. We are about to wrap up here, so hang in.
    In closing, I want to thank my friend, the Ranking Member, 
and I want to thank each of you for your testimony today.
    We will hold the record open for 1 week for submission of 
questions for the nominees and other materials.
    This hearing is adjourned.
    [Whereupon, at 4:29 p.m., the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 NOMINATION OF NANCY TORRESEN, OF MAINE, NOMINEE TO BE DISTRICT JUDGE 
  FOR THE DISTRICT OF MAINE; NANNETTE JOLIVETTE BROWN, OF LOUISIANA, 
  NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA; 
WILLIAM F. KUNTZ II, OF NEW YORK, NOMINEE TO BE DISTRICT JUDGE FOR THE 
EASTERN DISTRICT OF NEW YORK; HON. TIMOTHY M. CAIN, OF SOUTH CAROLINA, 
 NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF SOUTH CAROLINA; AND 
 HON. JOHN A. ROSS, OF MISSOURI, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                      EASTERN DISTRICT OF MISSOURI

                              ----------                              


                        WEDNESDAY, MAY 4, 2011,

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Christopher 
Coons, presiding.
    Present: Senators Coons, Schumer, Grassley, and Graham.
    Senator Coons. Good afternoon, everyone. I am pleased to 
call this nominations hearing of the Senate Committee on the 
Judiciary to order. I would like to welcome each of our 
nominees today and their families and friends to the U.S. 
Senate and congratulate them on their nominations. I would also 
like to welcome those of my colleagues who are here to 
introduce the respective nominees.
    Today we welcome five nominees, beginning with Ms. Nancy 
Torresen, nominated to be judge in the District of Maine. Ms. 
Torresen currently serves as an Assistant U.S. Attorney in the 
Criminal Division of the U.S. Attorney's Office for the 
District of Maine. If confirmed, Ms. Torresen would be the 
first woman to serve as a Federal District Judge in Maine, and 
she will be introduced by her home State Senators, Senator 
Snowe and Senator Collins.
    Next we welcome Ms. Nannette Brown, nominated to be a judge 
for the Eastern District of Louisiana. Ms. Brown currently 
serves as the city attorney for the city of New Orleans. If 
confirmed, she also will be the first African-American woman to 
serve as a Federal District Judge in Louisiana, and she will be 
introduced by her home State Senators, Senators Landrieu and 
Vitter.
    We also welcome Dr. William Kuntz, nominated to be a judge 
in the Eastern District of New York. Dr. Kuntz is currently a 
partner at the law firm of Baker Hostetler in New York and will 
be introduced by his home State Senator, Senator Schumer.
    We would also like to welcome Hon. Timothy Cain, who has 
been nominated to be a judge in the District of South Carolina. 
Judge Cain currently serves as a family court judge for the 
Tenth Judicial Circuit of South Carolina, and he will be 
introduced by his home State Senator, Senator Graham.
    Finally, we would like to welcome Honorable John Ross, 
nominated to be a judge in the Eastern District of Missouri.
    Judge Ross currently serves as the presiding judge for the 
21st Judicial Circuit of the State of Missouri. Perhaps that 
should be ``Missour-ee.'' You can correct me either way, 
Senator.
    [Laughter.]
    Senator McCaskill. It is ``Missour-ee'' in St. Louis.
    Senator Coons. It is ``Missour-ee'' in St. Louis. He will 
be introduced by his home State Senator, Senator McCaskill, and 
perhaps Senator Blunt may join us as well.
    Given the large number of U.S. Senators from the respective 
home States of the nominees, I will hold off on my opening 
statement. Senator Grassley, when he joins us, may also have an 
opening statement, which he is welcome to make at that time.
    And I would like to thank all of the Senators who have come 
to speak on behalf of their home State nominees this afternoon. 
I know well how incredibly busy you are, but your presence and 
support speaks volumes about their qualifications, and I will 
invite each of the Senators, if you so desire, to excuse 
yourselves after you speak in introduction of your home State 
nominees.
    So, first, we will proceed to hear from the Senators from 
the State of Maine to introduce Ms. Torresen. Senator Snowe, 
please proceed.

 PRESENTATION OF NANCY TORRESEN, NOMINEE TO BE DISTRICT JUDGE 
  FOR THE DISTRICT OF MAINE, BY HON. OLYMPIA J. SNOWE, A U.S. 
                SENATOR FROM THE STATE OF MAINE

    Senator Snowe. Thank you, Mr. Chairman, and thank you for 
giving us this opportunity. I am please to join my colleague 
Senator Collins in recommending to the Committee Nancy Torresen 
as the President's nominee for the United States District Court 
for the District of Maine. I have had the pleasure of meeting 
with Nancy earlier this week, and she is a consummate 
professional and supremely qualified.
    Coincidentally, I also happen to know her husband, Jay 
McCloskey, who is a former classmate of mine from the 
University of Maine, where we were good friends, and I cannot 
help but note that he, too, was confirmed by the U.S. Senate in 
1993 as U.S. Attorney for Maine. So together as well as 
individually, they are quite a powerhouse in the Maine legal 
community, not to mention a couple that never will be labeled 
as ``underachievers.''
    Mr. Chairman, Maine has one judicial district with three 
active judgeships. If confirmed, Ms. Torresen will become only 
the 17th judge to serve on our United States District Court 
over its 222-year history. Significantly, she would also be the 
first woman to serve on the court, as you mentioned--a 
watershed moment for our States. Ms. Torresen would take the 
seat of Judge Brock Hornby, who has served our State with the 
highest of distinction for 21 years. Indeed, just over a year 
ago, Judge Hornby received the Devitt Award, a singular honor 
given annually for the last 29 years to the outstanding Federal 
judge in the Nation. We are all indebted to Judge Hornby for 
his unparalleled service.
    Ms. Torresen brings a critical depth and breadth of 
experience to this nomination as she has practiced law for 24 
years across a range of roles and responsibilities. She began 
her career as a law clerk to Chief Judge Conrad Cyr of the 
United States District Court. After 2 years with a well-known 
law firm here in Washington, Williams & Connolly, she returned 
to Maine for a career as a prosecutor. All told, Ms. Torresen 
has served 14 years as an Assistant United States Attorney and 
7 years as an Assistant State Attorney General. The variety of 
positions she has held and the facets of the legal realm in 
which she has practiced are significant and would be multiple 
perspectives in the district court.
    As an Assistant United States Attorney, Ms. Torresen has 
worked 4 years in the Civil Division and 10 years in the 
Criminal Division. Her civil practice has included contract 
disputes, medical malpractice, and libel. Her criminal practice 
has included white-collar crime cases, such as tax evasion and 
contract fraud. In her extensive criminal practice as an 
Assistant United States Attorney, Ms. Torresen has been hands-
on, handling everything from initial referral of a case through 
post-conviction relief. That is the kind of real-world 
experience that underscore her ability and her credibility on 
the bench.
    As an Assistant State Attorney General, Ms. Torresen worked 
in the Appellate Section of the Criminal Division. There she 
represented Maine in the appeals of violent crime convictions. 
She wrote 16 appeals, briefed 12 habeas corpus cases, and 
argued nine murder cases. Ms. Torresen also served as an 
assistant to the Advisory Committee on the Maine Rules of Civil 
Procedure.
    Ultimately, Ms. Torresen will bring to the bench a 
diversity of trial and appellate experience before Maine's 
Federal magistrate and our district and appellate judges. She 
would also bring to bear the academic distinctions of having 
served as executive editor of the University of Michigan Law 
Review as well as the professional honor of receiving a 
unanimous well-qualified rating from the American Bar 
Association. I am confident that Nancy Torresen will serve the 
people of Maine and our Nation with integrity and excellence, 
and should she be confirmed, as I hope she will be, Nancy and 
Jay's three children undoubtedly will be extremely proud of 
their parents that not just one but both of them will have the 
U.S. Senate endorsement.
    Thank you, Mr. Chairman, and I look forward to the 
Committee's favorable review of Ms. Torresen's nomination.
    Senator Coons. Thank you, Senator Snowe.
    Senator Collins.

 PRESENTATION OF NANCY TORRESEN, NOMINEE TO BE DISTRICT JUDGE 
  FOR THE DISTRICT OF MAINE, BY HON. SUSAN M. COLLINS, A U.S. 
                SENATOR FROM THE STATE OF MAINE

    Senator Collins. Thank you, Mr. Chairman, and thank you for 
the courtesy in allowing us to proceed with our statements. 
Before I give my formal remarks, I just have to remark on the 
fact that it is wonderful to have two women Senators 
introducing the woman who has been nominated to be the first 
female to be a Federal District Judge in Maine. In Nancy we get 
it right on the appropriate ratios.
    It is a great honor to appear before this distinguished 
Committee to encourage the confirmation of Nancy Torresen. She 
is eminently well qualified to be confirmed as U.S. District 
Judge for Maine. Ms. Torresen has led an exemplary career of 
public service, culminating in her current position as an 
Assistant U.S. Attorney. Let me tell you a little more about 
her background to supplement what my colleague Senator Snowe 
has already told you.
    Ms. Torresen graduated from Hope College cum laude with a 
B.A. in 1981 and received her law degree cum laude in 1987 from 
the University of Michigan Law School, where she served as 
executive editor of the Law Review.
    After graduation, she came to Maine to serve as a law clerk 
to the extraordinarily well respected Judge Conrad Cyr. From 
1988 to 1990, she worked at the law firm that is well known in 
this city of Williams & Connolly. In 1990, she had the good 
judgment to return to Maine where she became an Assistant U.S. 
Attorney for the District of Maine and initially handled civil 
matters involving Federal agencies.
    In 1994, she was assigned to the Appellate Section of the 
Criminal Division of the Maine Attorney General's office where 
she was primarily responsible for representing the State of 
Maine in appeals of serious violent crime convictions.
    In 2001, Ms. Torresen returned to the U.S. Attorney's 
Office where she has been responsible for investigating and 
prosecuting Federal crimes in the northern half of our State.
    In conversations with Ms. Torresen, I was impressed by her 
dedication and passion for the law. I also appreciate her 21-
year-long commitment to public service. She has remarked that 
she is proudest of her criminal prosecution efforts because of 
the urgent need to protect the public from violent criminals 
and her desire not to let down the victims of violent crime.
    One of her most significant cases recently was the 
prosecution of a multi-state bank robber dubbed ``The Burly 
Bandit.'' This got a great deal of publicity in Maine. From 
April through July, Robert Ferguson robbed more than ten banks 
and credit unions throughout New England. The spree ended with 
a robbery of Bangor Savings Bank in July, and on October 1st of 
last year, Mr. Ferguson pleaded guilty in U.S. District Court 
in Bangor to 11 counts of bank robbery. Ms. Torresen was 
recognized by our U.S. Attorney for her outstanding work in 
coordinating the prosecution in six States.
    Except for her brief stint in the private sector, Ms. 
Torresen's entire career has been that of a dedicated public 
servant. She is very well respected in the legal community, and 
as Senator Snowe mentioned, she has been rated as unanimous 
well qualified by the American Bar Association.
    But I want to share with the Committee my conversations 
with members of the legal community in the State of Maine. One 
of them was with Tim Woodcock, who is a well-known attorney in 
Bangor, and his comments were very typical of what I heard when 
I called and asked people what they thought of Ms. Torresen. 
Tim said that he regards her as ``highly professional, 
extremely capable, tough but fair, and a strong advocate for 
the adherence by law enforcement to all legal requirements.'' 
These are all qualities that we should look for in our judicial 
nominees.
    Ms. Torresen's work as a prosecutor in both the Federal and 
State judicial systems, her integrity, her temperament, and her 
respect for precedent make her well qualified to serve as 
Maine's next Federal judge. Maine has a long and proud history 
of superb Federal judges, and I believe that Nancy Torresen 
will continue that tradition, if confirmed.
    Thank you very much for the opportunity to appear before 
your Committee.
    Senator Coons. Thank you very much, Senator Collins and 
Senator Snowe.
    I have received a request from my colleague on the 
Committee, Senator Schumer, to be able to speak on behalf of 
his home State nominee, Dr. Kuntz, given other commitments he 
has. With the forbearance of our three other colleagues who are 
also here to introduce their home State nominees, I will 
proceed to defer to Senator Schumer.

  PRESENTATION OF WILLIAM F. KUNTZ II, NOMINEE TO BE DISTRICT 
JUDGE FOR THE EASTERN DISTRICT OF NEW YORK, BY HON. CHARLES E. 
       SCHUMER, A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Well, thank you, and I know my colleagues 
are waiting. I apologize for being late. I will ask that my 
entire statement be read in the record and just be very brief.
    First, it is an honor to introduce Dr. William F. Kuntz II, 
to the Committee today. I have nominated a lot of people to the 
bench. This guy's credentials are just incredible. He grew up 
in the projects called ``The Polo Ground Projects,'' went to 
Harvard College and has actually four degrees from Harvard--I 
hope you will not hold that against him--undergraduate, 
master's degree in history, law degree, and a Ph.D. in American 
legal history. He then went and spent 33 years as a litigation 
leader in one of New York's finest law firms, Baker & 
Hostetler.
    And what impressed me the most--and there were many 
things--he served 23 years on the Civilian Complaint Review 
Board. That is where citizens bring complaints about police 
officers. It is a hotbed. It is like serving on the Ethics 
Committee here, but much worse. No one wants to do it, and 
someone has to do it. He was respected by both sides--the 
people complaining and the police. He was moderate, he was 
thoughtful, and he did everything that was fact based. And he 
stayed on 23 years and is looked to by everyone in New York as 
the expert on this issue.
    When in private practice, one of the things he did was 
recover money from those who steered clients to Bernie Madoff. 
He has been part of the Legal Aid Society, the Practicing Law 
Institute, and he is also--two other points, and then I will 
yield to my colleagues. He is one of the nicest people you 
would ever want to meet. He is just a fine human being, sort of 
well respected, beloved in certain circles in New York. And the 
only other two things I would say to my colleagues, he is a 
true moderate. I try to nominate people not from the far right 
and not from the far left, because they both try to make law 
rather than follow the law. And, second, the Eastern District 
of New York, my home district, on which he would serve, is a 
judicial emergency district. In other words, we are desperately 
short of judges on that. I would ask unanimous consent that my 
entire statement be read in the record. I thank my colleagues 
or their indulgence and congratulate Mr. Kuntz on his 
nomination, and I am hopeful we can have a speedy confirmation 
process for you, sir.
    Senator Coons. Without objection.
    The prepared statement of Senator Schumer appears as a 
submission for the for record]
    Senator Coons. Thank you, Senator Schumer, for those 
comments on behalf of Dr. Kuntz.
    We will now proceed to the Senators from Louisiana, who 
will be speaking by way of introduction on behalf of Ms. Brown. 
Senator Landrieu.

    PRESENTATION OF NANNETTE JOLIVETTE BROWN, NOMINEE TO BE 
 DISTRICT JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA, BY HON. 
  MARY L. LANDRIEU, A U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman and distinguished 
members of this panel. It is with great pleasure and pride that 
I present to you today Mrs. Nannette Jolivette Brown, a nominee 
for judge in the Eastern District of Louisiana. I was extremely 
pleased to submit her name for consideration to President 
Barack Obama for this appointment.
    Mrs. Brown is joined today by her very supportive husband, 
Marcus Brown, and her two very proud children--Christopher 
Dylan and Rachel--and they are all with her today in this room.
    Mrs. Jolivette Brown has rightfully garnered the support of 
both of her home State Senators, and I am so pleased to be 
joined by my colleague Senator Vitter in support of this 
nominee.
    Mrs. Brown is equipped with a remarkable array of legal 
experiences, Mr. Chairman, which range from law professor to 
legal litigator and mediator for one of the most established 
and well-respected law firms in our State. She has also held 
several high-level positions with the city of New Orleans, 
having first been appointed only at the age of 30 to head one 
of our departments and now serves as city administrator, city 
attorney for the city of New Orleans.
    Her life has been committed to justice and fairness, and 
her own personal experiences have dictated a great deal about 
the way she operates, the way she thinks, her heart for justice 
and compassion.
    Nannette Brown grew up at a time, sadly, in Louisiana's 
history where she and her younger brothers literally had to sit 
at the back of the bus as those buses made their way through 
the city of New Orleans. So she brings with her to this bench 
not only a commitment to justice learned in the classrooms and 
learned along the way in her career, but a real heartfelt 
commitment to the indignities suffered when the law is not 
where it needs to be.
    After putting herself through college and law school, one 
of the country's most prestigious firms, as I said, Adams & 
Reese, immediately hired her. She made a quick name for herself 
as a competent and energetic young attorney.
    She has earned an L.L.M. in energy and environmental law 
from Tulane as well as mediation certificates from both Loyola 
and Harvard. These advanced degrees, in addition to the decades 
of practical experience, her own life experience, numerous 
articles that she has published have promoted her, and she is 
understood to be one of the leading figures in our legal 
community. She has also, Mr. Chairman, served as professor of 
law at Southern University, Loyola Law School, and Tulane, 
among many other subjects that she taught, Federal Civil 
Procedure.
    I must also say outside of the classroom she exemplifies 
leadership and compassion as well. Outside of the courtroom, 
she exemplifies, and outside of the legal community. After 
Katrina, which I think is very telling, when all of us were 
busy getting our own lives and families back together, Nannette 
and her family were in Houston. She had a lot to do with 
getting her own family situated. But as Nannette would, she 
found a way to put others ahead of herself. Within a few short 
months, she had not only joined the Big Brothers and Big 
Sisters organization of Houston, but she was spearheading that 
organization's effort to mentor children who had been displaced 
from New Orleans so that they could get their way more secure 
and find a way home more carefully.
    So on behalf of so many people from the city of New 
Orleans, the State of Louisiana, from her many professors, her 
many friends, her many peers that she served with in the legal 
community, it is absolutely my pride and joy to present her to 
this Committee.
    I want you all to know in closing that, should your 
Committee give her your approval and she move on to the Senate 
for confirmation, Nannette will become the first African-
American woman to ever serve as an Article III judge in 
Louisiana's history. It is a fitting achievement for someone 
who has devoted so much to equal protection and application of 
the law.
    Senator Coons. Thank you, Senator Landrieu.
    Senator Vitter.

PRESENTATION OF NANNETTE JOLIVETTEBROWN, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA, BY HON. DAVID 
       VITTER, A U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman and members, and I 
am very pleased to join Senator Landrieu in introducing and 
strongly supporting Nannette Jolivette Brown for this position 
on the Eastern District Court of Louisiana, and it is a real 
honor for me and it is a great personal pleasure for me. Ms. 
Brown and I were classmates at Tulane Law School. We both got 
our J.D. there. But she went further. She also got her L.L.M. 
at Tulane, specializing in energy and environmental law, as 
Senator Landrieu mentioned.
    She has a wealth of background and experience and expertise 
that she will bring to this job. Of course, right now, as was 
mentioned, she is city attorney for New Orleans. It is a very 
wide-ranging, very challenging position, basically the top 
lawyer for all city issues. She has done a number of things, 
including mediate over 100 cases, for instance, right after 
Hurricanes Katrina and Rita as part of the Louisiana Hurricane 
Mediation Program. She is a real expert in environmental law in 
particular, with an advanced degree in that. She has taught, as 
Senator Landrieu said, a number of places: Loyola Law School, 
Southern Law Center, and she was a teaching fellow at Tulane 
Law School.
    So she does bring a real wealth of public and private 
sector experience to the Federal bench. She also brings a great 
deal of common sense, a wonderful, warm, calm personality that 
will be perfectly suited to the right demeanor a judge should 
have. And so it is a real pleasure for me to help introduce her 
and to strongly support her confirmation.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator, and thank you,
    Senator Landrieu.
    Now I would like to invite Senator McCaskill to introduce 
Judge Ross from Missouri.

PRESENTATION OF HON. JOHN A. ROSS, NOMINEE TO BE DISTRICT JUDGE 
FOR THE EASTERN DISTRICT OF MISSOURI, BY HON. CLAIRE McCASKILL, 
           A U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman, and my thanks 
to the Committee for holding this hearing today so these 
important nominees can move forward in our process.
    It is my pleasure today to introduce to the Committee John 
Ross, and I have a bias, and my bias is that there are people 
who choose to labor in the field of public service as it 
relates to the law, and that many times they are overlooked in 
terms of their skill and their ability to administer justice in 
our country, especially at the Federal level. So my bias is 
showing today because of who John Ross is and what he has 
accomplished.
    John Ross graduated from law school in the late 1970's and 
very quickly moved into a job where he was an assistant 
prosecutor, an assistant prosecutor at the State level. And, 
once again, I have a bias, and my bias is that State-level 
prosecutors do not get to pick which cases they handle. They 
respond to 911 calls, and they take all cases. They do not get 
to decide that their time is only worthy of a certain kind of 
case. And John Ross worked his way up in the largest 
prosecutor's office in the State at that time, in St. Louis 
County, eventually becoming the chief trial attorney in that 
office.
    This is a man who has tried more than 50 jury trials in his 
career. In my humble opinion, there is no better place to learn 
how to be a good judge than in the courtroom. And in the 
courtroom, you get to see lots of different judges in a very up 
close and personal way because you are in the trenches actually 
trying those cases week in and week out. And you learn about 
judicial demeanor. You learn about judges that get robe-itis, 
that all of a sudden decide that their judgment cannot be 
questioned and that they do not have time to listen carefully, 
not just to the lawyers in front of them, but to the witnesses 
and to the plaintiffs and to the defendants. And it is, I 
think, that experience that uniquely qualifies John Ross to 
take this important position on our Federal bench.
    He was selected to join the State bench, and for 11 years 
he has been a circuit judge in the busiest circuit in Missouri. 
And we have a system in Missouri where judges are reviewed by 
the lawyers, and this is done anonymously so it is pretty darn 
accurate. And the judges that get these surveys from the 
lawyers always wait with bated breath as to how the lawyers are 
going to rate them.
    John Ross always gets if not the highest, one of the very 
highest ratings in St. Louis Circuit Court because of the way 
he handles his courtroom, because of the way he respects the 
lawyers, because of his fairness, because of his love of the 
law and his ability to not only just administer justice but 
really work at it--I mean, really, really work at it. And so 
since 2009 he has, in fact, been the presiding judge of the 
busiest circuit in the State of Missouri.
    So it is that background that qualifies him to take the 
Federal bench, a trial bench, where he will draw upon more than 
a decade of service as a State trial judge, more than a decade 
of service trying probably more jury trials than 95 percent of 
these nominations that come in front of this Committee. And I 
think that is more important, frankly, than his degree, 
although his degree is from a great university, Emory 
University, both his undergraduate and law degree, and I think 
in many ways more important than many of the other 
qualifications that are sometimes emphasized in these hearings.
    He also is very active in the community and particularly in 
the area of family violence and shelters for battered women. He 
has also been very active in raising money for a charity that 
many of us are very partial to because it honors a man who 
served as an elected official in St. Louis County for many 
years who was struck down very young in his life and who John 
had the honor of working for in St. Louis when he ran the 
county counselor's office for Buzz Westfall, who is the former 
county executive.
    So I think he is going to be one terrific Federal judge. I 
highly recommend him to you. I think he will be the kind of 
judge that all lawyers will look forward to working in front of 
and that all of us will be proud of for many years to come.
    Thank you, Mr. Chairman, and thank you for the time of the 
Committee.
    Senator Coons. Thank you very much, Senator McCaskill.
    Next we will turn to the Senator from South Carolina, who 
will introduce to the Committee Judge Cain.
    Senator Graham.

 PRESENTATION OF HON. TIMOTHY M. CAIN, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE DISTRICT OF SOUTH CAROLINA, BY HON. LINDSEY 
    GRAHAM, A U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman.
    Senator McCaskill has a bias. I have a big one. Tim used to 
be my law partner.
    [Laughter.]
    Senator Graham. And I hope he can get confirmed in spite of 
that. He has been a family court judge for 11 years, I think. 
And you talk about the ability to make hard decisions fairly 
quickly. That is the ultimate legal experience, I think, is to 
be a family court judge sitting over child custody cases, 
dealing with abused children complaints, trying to be fair when 
it comes to the economic equities of a marriage that is broken. 
You really meet the human condition in family court in every 
way possible. And how he did this for 11 years I will never 
know. He is a far better man than I am, and let me tell you, I 
think most people in South Carolina would say that Tim Cain is 
one of the best lawyers and judges we have ever produced.
    His wife, Renee, is a social worker, also a very dear 
friend. She has seen a tough side of life. So we are going to 
have a man go on the bench in South Carolina, I hope, who has 
seen just about everything you could see, and he has tried to 
be as fair as possible. And what more contentious issue than 
deciding who gets a child? Every lawyer almost without 
exception would tell you that he did his job in the most 
outstanding fashion.
    He was a city attorney and he was a county attorney, so he 
understands local government issues and how it is to advise 
politicians, which I would not wish on anybody, legally. He has 
been an assistant prosecutor and an assistant public defender. 
So he has sat on both sides. He understands what it is like to 
defend somebody, and he also understands what it is like to 
represent a victim of crime.
    He was chosen by our Supreme Court Chief Justice, Jean 
Toal, to sit on our Supreme Court for a period of time when an 
opening became available, which I think spoke volumes--which I 
believe speaks volumes about Tim's legal ability and respect.
    He was qualified by the ABA without exception. His son, 
Martin, got a new suit for this hearing. We went to dinner last 
night, got a new sports jacket, so this was good for the 
economy, Mr. Chairman.
    [Laughter.]
    Senator Graham. And I want to thank President Obama. He 
certainly did not have to do this. And Tim will be not a 
Republican judge and not a Democratic judge. He will be a 
lawyer's judge. I think he will administer justice at the 
Federal level in a way that we could all be proud of, and we 
have a strong tradition in South Carolina of putting qualified 
people on the bench no matter what party is in power. And we 
are going to continue that tradition with Tim Cain, literally 
one of the nicest people I have ever met in my life. And when 
this job is over, as a Senator there are a lot of things you 
can look back on, hopefully to be proud of, and some mistakes 
we will all make, but I can tell you without any doubt one of 
the proudest moments I have had being a U.S. Senator from South 
Carolina is getting to introduce Tim and recommending him to 
the President and hopefully getting the vote on the floor of 
the Senate soon for his confirmation.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator. I would like to thank 
all of the home State Senators who have spoken on behalf of our 
five nominees today.
    Before we proceed to the testimony, I will take a moment 
for an opening statement and then invite Senator Grassley as 
well.

 STATEMENT OF HON. CHRISTOPHER COONS, A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Coons. I would just like to take a moment and note 
that so far in the 112th Congress the Senate has indeed 
increased the pace at which district court nominees are being 
confirmed. Through bipartisan cooperation over the last several 
months, we have been able to achieve a modest but significant 
reduction in the overall number of judicial vacancies.
    More work does remain to be done. Ten percent of Federal 
judgeships still sit vacant; 37 of these are considered 
judicial emergencies, vacancies that have lasted more than 18 
months and have caused other judges on the same courts to take 
on an overly burdensome caseload. And today Attorney General 
Holder testified before this very Committee that the number and 
duration of vacancies has created a crisis in our Federal 
courts. This is not a partisan issue. Chief Justice Roberts has 
similarly noted that the prolonged vacancies are causing acute 
difficulties for some judicial districts.
    The Senate as a body can help alleviate this crisis by 
acting on, I believe, 44 judicial nominations that have been 
referred to us, and the majority are wholly noncontroversial 
and should be confirmed as promptly as possible.
    I am disheartened, however, today that the Senate stands 
poised to spend 30 hours over the coming days engaged in a 
protracted post-cloture debate regarding the nomination of one 
U.S. district court judge, Jack McConnell, nominated for the 
District of Rhode Island. To have to file cloture on a district 
court nominee with the unanimous support of his home State 
Senators is nearly unprecedented. In fact, research by my staff 
shows only three cloture petitions have ever been filed for 
district court nominees. Democrats did not filibuster a single 
nominee to the district court during President Bush's 
administration, and my real hope is that the acrimony 
concerning Mr. McConnell is just a bump in the road and does 
not signal any escalation of the partisan rancor surrounding 
judicial nominees that may have characterized previous 
Congresses.
    The five nominees sitting before us today are, as we have 
heard from their home State Senators, outstanding qualified 
nominees, and they certainly deserve a prompt and thorough 
consideration. I look forward to continuing the great progress 
we have made by working with Chairman Leahy, Ranking Member 
Grassley, and my fellow Judiciary Committee members to consider 
these nominees in a thorough and expeditious manner.
    Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Mr. Chairman.
    In the first few months that I have been Ranking Member of 
the Judiciary Committee, as you just stated, we have worked in 
good faith together to forward consensus nominees. As I said a 
couple of days ago, by any fair measure we are moving nominees 
at a brisk pace. The Senate has been in session only 44 days 
this Congress, and in that short period of time, we have 
confirmed 19 judges. In fact, thus far we have taken positive 
action on 43 of 63 nominees submitted to the Congress. I want 
to emphasize that we have taken positive action, in a 
percentage form, on 68 percent of the judicial nominees to the 
Congress. And I do not have any reason to believe at this 
point, unless something comes up that I do not know about, that 
these will be controversial that we are hearing from today. So 
I am glad to welcome the nominees appearing before us today.
    Each of them are nominated to be a District Judge. Of 
course, you all have family and friends that you are proud of, 
and we welcome them as well. Your qualifications and 
backgrounds have been thoroughly vetted and reviewed. Today is 
when the public gets the opportunity to hear from you directly. 
So, of course, I welcome you all and look forward to your 
testimony.
    I have a longer statement I am going to insert in the 
record.
    Senator Coons. Without objection.
    Senator Grassley. Thank you.
    [The prepared statement of Senator Grassley appears as a 
submission for the for record.]
    Senator Coons. Thank you very much, Senator.
    Now I would like to ask the five nominees to step forward 
and please remain standing at your places. If you would please 
raise your right hands and repeat after me. Do you solemnly 
swear that the testimony you are about to give to the Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Judge Ross. I do.
    Judge Cain. I do.
    Ms. Jolivette Brown. I do.
    Ms. Torresen. I do.
    Mr. Kuntz. I do.
    Senator Coons. Thank you, and let the record show the 
nominees have been duly sworn and taken the oath, and please be 
seated.
    And now each of the five nominees will in turn have an 
opportunity to recognize their family and friends and to give 
an opening statement.
    Ms. Torresen, starting with you, I welcome you to 
acknowledge family members or friends you have here today and 
then to offer your opening statement. Ms. Torresen.

 STATEMENT OF NANCY TORRESEN, NOMINEE TO BE DISTRICT JUDGE FOR 
                     THE DISTRICT OF MAINE

    Ms. Torresen. Thank you, Senator Coons.
    I want to thank Senator Coons and Senator Grassley for 
convening this hearing today. I want to thank President Obama 
for nominating me for this position, and I would like to thank 
particularly Senators Snowe and Collins for their very kind 
introductions. And I would like to introduce my family to you.
    Right behind me is my husband, Jay McCloskey, and then my 
daughter is here, Abby McCloskey, behind him. My niece is next 
to her, AnneMarie Torresen. Beyond those two in the third row 
is my mother, Frances Torresen, and my brother, David Torresen. 
And in the back there is my brother, Robert Torresen as well. I 
know my father, who is deceased, is with us in spirit, and I 
also have two children at home, Jack McCloskey and Lilly 
McCloskey, who could not make it today because of school 
commitments. But I am sure they are with us in spirit as well.
    I have no opening statement, and I would be happy to answer 
any questions that you have.
    [The biographical information of Ms. Torresen follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Coons. Thank you, Ms. Torresen.
    Ms. Brown.

 STATEMENT OF NANNETTE JOLIVETTE BROWN, NOMINEE TO BE DISTRICT 
          JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA

    Ms. Jolivette Brown. Thank you, Senator Coons. I also want 
to thank you and Senator Grassley for holding this hearing and 
providing us an opportunity to provide testimony. I want to 
thank the President of the United States for making this 
nomination. I need to thank Senator Landrieu for her 
recommendation to the President, and I am greatly thankful to 
Senator Vitter for supporting my nomination.
    I have here with me today my husband, Marcus Brown; my two 
children, Christopher and Rachel. Looking at us from home are 
my siblings, Carolyn, James, Charles, and Dwight. So I just 
want to introduce you to them, and also thank who I know is 
watching, many people at city hall and New Orleans who have 
embraced me and embraced this moment with me.
    So with that being said, Senator, I thank you again for 
holding this hearing, and I have no further opening statement.
    [The biographical information of Ms. Jolivette Brown 
follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Senator Coons. Thank you, Ms. Brown.
    Mr. Kuntz.

STATEMENT OF WILLIAM F. KUNTZ II, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE EASTERN DISTRICT OF NEW YORK

    Mr. Kuntz. Thank you very much, Mr. Chairman, and thank you 
so much, Senator Grassley, for being here. Can you hear me now?
    Can you hear me now?
    Senator Coons. Yes.
    Mr. Kuntz. Thank you.
    Senator Coons. Thank you.
    Mr. Kuntz. Not my usual problem. I apologize. Mr. Chairman 
and members of the Committee, I too would like to thank 
President Obama for nominating me, and I would like to thank 
Senator Schumer for recommending me to this august Committee.
    I am pleased and honored to introduce to you today my wife 
of 33 years, Dr. Alice Beal, who is the director of palliative 
care for the Veterans Administration of the New York Harbor 
System, who is here today. I would also like to introduce my 
daughter, Katharine Lowell Kuntz, who is completing her second 
year at Tufts Medical School, the school attended by her 
mother. My wife's cousin and best friend, Alletta Belin, who is 
a distinguished environmental attorney now working with great 
distinction in the Department of the Interior, is here today. 
And, finally, Mr. Joel Motley, who is president of Motley 
Communications and a friend since college and law school. Joel 
first introduced me to his parents, Joel, Sr., and the 
Honorable Constance Baker Motley, more than 30 years ago. He 
has been a friend and an inspiration throughout my adult life.
    Our other two children, William Thaddeus and Elizabeth Ann, 
apologize for not being here today. Will is the assistant 
director of professional scouting for the New York Yankees and 
is taking his law school exams at the night division at 
Fordham. And Lizzie is completing her final set of exams and 
papers today and is scheduled to graduate from Harvard College 
later this month.
    I thank you so very much for this opportunity to appear 
before you today. My parents are both deceased, but I am sure 
they are with us in spirit today, and I thank you so much.
    [The biographical information of Mr. Kuntz follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Coons. Thank you, Mr. Kuntz.
    Judge Cain.

STATEMENT OF HON. TIMOTHY M. CAIN, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE DISTRICT OF SOUTH CAROLINA

    Judge Cain. Thank you, Senator Coons, for presiding at this 
hearing today. Thank you, Senator Grassley, and my thanks to 
Senator Leahy for scheduling these hearings and for the 
important work of the full Committee. I also want to thank the 
President for his nomination and also Senator Graham for his 
kind introduction.
    With me today, as he indicated, are my wife of 25 years, 
Renee, right behind me, and my son, Martin, with the new suit. 
He is a freshman at Walhalla High School in Walhalla, South 
Carolina, and he is here with the consent of his principal, Ms. 
Hughes, and his teachers. And so I thank them for their 
kindness.
    Briefly, I would just like to acknowledge some folks at 
home in South Carolina who are probably watching today: my 
parents, Harris and Helen Cain, who could not be here for 
medical reasons and health reasons; and my sister, Sandra 
Mullican, who is actually taking my father for a doctor's 
appointment today; and my sister, Pamela Carpenter; my wife's 
parents, Louis and Betty Patterson; and all of my brothers and 
sisters and colleagues in the South Carolina judiciary, for all 
the hard work that they do. Thank you.
    [The biographical information of Judge Cain follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Coons. Thank you, Judge Cain.
    Judge Ross.

 STATEMENT OF HON. JOHN A. ROSS, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE EASTERN DISTRICT OF MISSOURI

    Judge Ross. Thank you, Senator Coons, and I want to thank 
Senator Grassley and all of the members of the Committee for 
letting us have this hearing here today. We truly appreciate 
it. It is truly an honor and privilege to be here.
    I want to thank the President for the nomination, and I 
especially want to thank Senator McCaskill for her kind words 
in introducing me and her support throughout this process.
    I am pleased to be here today with family and friends, so I 
would like to introduce my wife, Judy, who is behind me. We are 
celebrating our 20th anniversary later this year. And my son, 
Joe, who will be 13 later this month; and my daughter, Emily, 
who will be 16 later this month. And I also had to get approval 
from their teachers and principals to allow them to be here for 
this experience.
    I also have my nephew, William Goodman, who came down from 
New York for this; my niece, Lauren Goodman, who is an attorney 
here in Washington, D.C.; and my very, very dear friends Dr. 
David Robson, his wife, Deb, and their daughters Kelly and 
Anna, who are here. And I would also just like to acknowledge 
my parents, Bernie and Elizabeth Ross, who are 89 and 86 and 
could not travel here, but are with my sister watching this on 
a webcam; and my father-in-law, who is a retired St. Louis city 
policeman, Fred Lucreth, who I think is also watching it on a 
webcam.
    So thank you very much.
    [The biographical information of Judge Ross follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Coons. Thank you. Thank you to all five of our 
nominees for sharing your families and friends with us and for 
beginning this process.
    I would like to now move to the questions, if we can. We 
are going to do 10-minute rounds.
    I would like to begin by just asking, if I could, each of 
you in turn to briefly describe your judicial philosophy, how 
you see the challenge of serving as a Federal district court 
judge.
    Ms. Torresen.
    And we will go in the same order in which you introduced 
yourselves, if you would.
    Ms. Torresen. Thank you for the question, Senator. I would 
say that my philosophy is really about what I am going to do, 
if I am lucky enough to be confirmed, and in any case I would 
approach the courtroom with an open mind. I would listen 
carefully to the arguments presented by both sides. I would 
ascertain the facts, and then I would start to study the law in 
that area. I would apply existing precedents from the Supreme 
Court, and the First Circuit in my instance. And I would try to 
resolve the case, the controversy before me as narrowly as 
possible. And I think that sums up what I think the judge's 
role is and in some ways is really my philosophy as well.
    Senator Coons. Thank you, Ms. Torresen.
    Ms. Brown.
    Ms. Jolivette Brown. Thank you for the question, Senator. 
Should I be confirmed, my judicial philosophy would embody 
three basic principles: stability, predictability, and 
civility. In that regard, I would treat every party and 
litigant and participant appearing before me with fairness and 
neutrality. I would only decide issues that are properly before 
me. I would have a commitment to the rule of law and precedent. 
And, finally, my judicial philosophy would be to preside on 
every matter with a calm, even temperament. So in that regard, 
Senator, that would constitute my judicial philosophy, should I 
be confirmed.
    Senator Coons. Thank you, Ms. Brown.
    Mr. Kuntz.
    Mr. Kuntz. Thank you very much for the question, Senator. I 
agree with what has been said, and I would say that careful 
listening, patience, and humility in terms of the proper role 
of the judge are the things that I would bring to the table, if 
am fortunate enough to be confirmed. I think those are elements 
that are crucial.
    Senator Coons. Thank you, Doctor.
    Judge Cain.
    Judge Cain. Thank you for the question, Senator. I agree 
with what my fellow panel members have stated, and the approach 
I have tried to take for the last 11 years is to be a neutral 
and unbiased arbiter of the cases that come before me, and to 
take the facts of each case and apply the law to the facts 
without passion or prejudice, and try to ensure that the trial 
or hearing is conducted in a way that even though a party may 
not get the result they want, they leave the courtroom feeling 
that they have had a full and fair opportunity to be heard.
    Thank you.
    Senator Coons. Thank you, Judge.
    Judge Ross.
    Judge Ross. Thank you, Senator. Again, I fully believe that 
everyone is entitled to a full and fair day in court, and every 
litigant who comes into my courtroom is entitled to be treated 
with respect and dignity. And I try and listen very carefully 
and listen to all sides in any case and apply the law to the 
facts, and that would be my intent.
    Senator Coons. Thank you.
    If I could, in the next round I would be interested in 
hearing each of you speak more specifically to your view of 
precedent, how you would approach the use of precedent, and 
also what is the role of courts in interpreting laws written 
and passed by elected legislative bodies as well. So the 
combination of legal precedent and what standards or practices 
or approach or philosophy you would apply to the interpretation 
of laws enacted by legislative bodies.
    Ms. Torresen.
    Ms. Torresen. Thank you for the question. As far as 
precedent goes, I would consider myself strictly bound by the 
Supreme Court precedent and by precedents from the First 
Circuit Court of Appeals. Their word is the final say, and I 
would apply what the law is as they have interpreted it.
    As far as statutes go, I think any judge starts with the 
plain meaning of the statute, and that is what I would do as 
well. You decide whether it is clear on the face of the statute 
what the statute says, and if there is ambiguity, then you look 
to the purpose of the statute, what was the Congressional 
intent behind the statute. And, generally, you can make out 
what the statute means and what you should do by those two 
tools.
    Senator Coons. Thank you, Ms. Torresen.
    Ms. Brown.
    Ms. Jolivette Brown. Thank you for that question, Senator. 
I understand that if I am confirmed as a Federal district court 
judge, I am bound by precedent. So I would be following the 
precedents set by the United States Supreme Court and the Fifth 
Circuit Court of Appeal.
    Secondarily, when it comes to the legal interpretation of 
laws enacted, I agree with Ms. Torresen that you must first 
begin with the text of that law and look to the plain and 
obvious meaning. If you cannot come to a conclusion at that 
point, then you should look to Supreme Court and appellate 
court precedent, again, for either authority on point or 
analogous points. And then secondarily, by analogy, you can 
look to other State court precedents; and, finally, to the 
legislative purpose or intent if that is available.
    Senator Coons. Thank you, Ms. Brown.
    Mr. Kuntz.
    Mr. Kuntz. I agree that legal precedent, Mr. Chairman, is 
key and is binding, and I would look to Supreme Court precedent 
in the first instance and to the precedent of the Second 
Circuit beyond that.
    In terms of statutes enacted by the Congress, I would 
certainly follow the plain language of those statutes. That is 
what you look to to determine what the legislator meant and 
what the legislature has meant, and that is where I would focus 
my attention.
    Senator Coons. Thank you, Doctor.
    Judge Cain.
    Judge Cain. Thank you for the question, Senator. If I am 
fortunate enough to be confirmed, I would review any applicable 
Federal statutes and construe them, the words of those 
statutes, in accordance with their plain and ordinary meaning. 
And I would also look to precedent as established by the U.S. 
Supreme Court and the Fourth Circuit Court of Appeals and 
follow that precedent. Predictability is very important in our 
system, and I would continue to do that as I have done on the 
State court level.
    Thank you.
    Senator Coons. I will confess to being partial to the Third 
Circuit myself.
    [Laughter.]
    Judge Cain. Yes, sir.
    Senator Coons. Judge Ross.
    Judge Ross. And I would agree with my colleagues. 
Initially, you would look at the plain language of the statute 
and the legislation and then be bound by the precedent, in my 
situation the Eighth Circuit and the United States Supreme 
Court, and I would follow the precedent in all circumstances.
    Senator Coons. Thank you.
    For the first three, you have spent much of your legal 
careers as advocates in different roles, whether in practice in 
law firms or in various roles in Government roles. But more 
often than not, you have appeared in courtrooms as advocates, 
and I would be interested in hearing from each of you how you 
view the role of a district court judge as distinct from that 
of an advocate and how you will make the transition from long 
and successful careers as advocates to being more judicial in 
your temperament.
    Ms. Torresen.
    Ms. Torresen. Thank you for the question. I realize that as 
an advocate you are trying to put forth your party's case in 
the best light for your party, making every reasonable argument 
that you can. That is sort of putting a spin on the ball, so to 
speak. And I certainly have done that in my career.
    I will say that as a Federal prosecutor I see my role not 
quite to win the conviction, so to speak, but I see my role to 
see that justice is done. And as part of that, I think I take 
an objective view of things, and I try to consider all sides, 
particularly in the stage where we decide whether to charge a 
case or who to charge and what to charge. So I do think I have 
some sort of more middle-of-the-road experience with that, and 
I think that will be helpful in making the transition to 
becoming a District Judge if I get confirmed.
    I do see the need for a District Judge to be completely 
open-minded and not biased in any way, and I understand that, 
and I believe I could do that with ease, actually, and I hope 
to get the opportunity to do so.
    Thank you.
    Senator Coons. Thank you, Ms. Torresen.
    Ms. Brown.
    Ms. Jolivette Brown. Thank you for the question, Senator. 
In making the transition, I think I would look to the totality 
of my professional experiences. I have spent a large amount of 
my career as an advocate and as a litigator, but I have also 
spent some time in the role as counselor and adviser in many 
transactional matters. And in my current position as city 
attorney, I advise various political and elected officials and 
boards and commissions.
    I have also been a mediator, and a mediator is a trained 
neutral. I have been a law professor. As a city authority, I am 
lead prosecutor on municipal and traffic violations.
    So if you look at the totality of my professional 
experience, I think you can find what I see as guiding 
principles of neutrality and fairness. I have a strong 
commitment to the rule of law and applying precedent because I 
have stood in many different roles and fully appreciate that. 
So I think that I could make a smooth transition to the 
judiciary with those guiding principles.
    Senator Coons. Thank you, Ms. Brown.
    Dr. Kuntz, if you might answer, and then we will turn to 
Senator Grassley.
    Mr. Kuntz. Thank you, Mr. Chairman. In my experience as a 
33-year practitioner in the commercial world, I represented 
both plaintiffs and defendants, and so I was on both sides of 
the aisle in that regard.
    I think the most relevant experience is my 23 years that 
you hear Senator Schumer advert to on the Civilian Complaint 
Review Board, which is a quasi-judicial post where we would 
take complaints and have answers from police officers and make 
recommendations to the police commissioner. We did not have the 
power to impose discipline, but we would make recommendations. 
And there we were always fair and impartial and would listen to 
both sides. It was, as he alluded to, very demanding work, but 
it is something where I always strove to be worthy of serving 
the people of New York in that capacity. So I have had that 
experience and think that it is relevant to the kind of work 
that I would be doing if I am fortunate enough to be confirmed 
as a district court judge.
    Senator Coons. Thank you, Dr. Kuntz.
    Senator Grassley.
    Senator Grassley. Yes, welcome again. I will have different 
questions for each one of you. I will have some that are a 
little more specific, but some along the same lines as the 
Chairman has just asked. So I do not want you to think I did 
not hear your answers there, but there is an old saying around 
the Senate: ``Everything that has been on this subject has been 
said, but I have not said it and, by golly, I am going to say 
it.''
    [Laughter.]
    Senator Grassley. So I am going to start, and I am going to 
just concentrate on one person for two or three questions. Some 
of you will only have one question.
    For you, Ms. Brown, I understand an area of interest for 
you has been environmental law. In addition to representing 
national environmental groups, you have taught courses on the 
subject, including a course on environmental justice. As a 
judge, you, of course, will be asked to put aside your personal 
views and make decisions based on the law and facts before you.
    Do you believe you will have any difficulty making the 
transition?
    Ms. Jolivette Brown. Absolutely not, Senator.
    Senator Grassley. Okay. In 2009, you wrote an article on 
environmental justice and how its supporters can sometimes be 
in conflict with traditional environmental groups. How would 
you define and identify environmental justice? And, second, 
what role do you believe the court should play in addressing 
concerns about environmental justice?
    Ms. JolivetteBrown. Thank you for that question, Senator. 
Should I be confirmed and should I get an issue of 
environmental justice before me, rest assured that I would rely 
on the guiding precedents of the Supreme Court and the Fifth 
Circuit Court of Appeal and apply--and carefully listen to the 
facts and apply the law to the facts. And nothing else would 
come into my consideration.
    Senator Grassley. Okay. I believe you answered the second 
part of it. Could you define and identify the term 
``environmental justice'' ?
    Ms. Jolivette Brown. Senator, that is a term that different 
groups have a different definition to, and it is one that is 
left to judicial interpretation as well. So I would not feel 
comfortable giving you a definition that would be construed as 
my personal opinion on the topic.
    Senator Grassley. Well, I can understand why you would not 
want to say something now that would impact whether you were 
impartial in a court. But surely if you wrote on this subject, 
you have some idea of what environmental justice is. So just 
from the standpoint of your writing, how did you define it?
    Ms. JolivetteBrown. Well, Senator, in that particular 
article, I think what I was relaying was the differences in the 
interpretation of environmental justice by civil rights 
organizations and how traditional environmental organizations 
sometimes interpret the environment, and that civil rights 
organizations tend to want to include the urban environment, 
and traditional environmental groups look to the traditional 
air, water, and soil as the environment.
    Senator Grassley. Okay. Thank you. This is the last 
question for you. Do you believe that economic considerations 
such as job opportunities for residents should be taken into 
account in litigation that seeks to prevent an undesirable 
industry from being located in a poor community?
    Ms. Jolivette Brown. Senator, if I were fortunate enough to 
be confirmed and that issue were presented before me, I would 
only look to the prevailing precedents on that topic from the 
Supreme Court and the Fifth Circuit Court of Appeal. Any 
personal opinion I would have, I would check at the front door 
of the courthouse.
    Senator Grassley. You know what? I said that was the last 
question, but I have one other one.
    [Laughter.]
    Senator Grassley. In July 2002, you participated in an 
environmental racism panel stating environmental racism is 
``just another symptom of general racism. We are not going to 
get environmental justice in this country until we get full 
social and economic justice.''
    I do not want you to apply that to any case or worry about 
anything you say applying to a case. I just want to know what 
you meant by that statement.
    Ms. Jolivette Brown. If that is a statement that was 
reported somewhere and a statement I did not necessarily write 
myself, I can try to interpret that from that, and I think from 
that it is that the injustices people recognize in the 
environmental environment are very similar to some of the 
overall societal ills that we face in this country.
    Senator Grassley. Okay. I have a couple questions for you, 
Ms. Torresen. You have been very involved in the Mabel 
Wadsworth Women's Health Center. In fact, you served on that 
organization's board from 2006 to 2009. The Mabel Wadsworth 
Women's Health Center is one of the only clinics providing 
abortion-related services in Bangor. According to their 
website, the center is also very involved in advocacy of 
abortion rights. In 2009, the center held a vigil for Dr. 
George Tiller. Dr. Tiller was a medical doctor in Wichita, 
Kansas. At the time of his murder, he was one of three doctors 
in the Nation that would provide late-term, post-21-week 
abortions to women. The center described Tiller as 
``inspirational,'' and ``hero and a leader.'' The quote is 
``inspirational,'' and the quote is also ``hero and leader.''
    While murder is categorically wrong, calling a late-term 
abortion doctor a ``hero'' suggests the center holds extreme 
views on women's rights to obtain an abortion.
    Do you think Dr. Tiller is inspirational, a hero, and a 
leader?
    Ms. Torresen. Thank you for the question, Senator Grassley. 
I would like to say that the Mabel Wadsworth Women's Health 
Center is a place where women can receive health care services 
on a broad spectrum, and it covers women from puberty through 
post-menopausal years.
    I was affiliated as a director of the board for 3 years of 
that 2006 to 2009, as you said, and I am not familiar with the 
particular newsletter or whatever you are citing there. I was 
not aware of it. I am pretty busy and have not read every one 
of those. But I believe that the center's views are not 
squarely aligned with mine. I do not have an opinion as to 
whether Dr. Tiller is an inspiration or a hero. I have not 
really studied it, and I really know about him tangentially 
through the news media but not more than that.
    I do not believe that--I know that the Mabel Wadsworth 
Center does not provide abortions in late terms, and I would 
say that any opinions that I have on that topic I would leave 
outside the courtroom, and I would apply whatever the existing 
precedents are for both the Supreme Court and the First 
Circuit.
    Senator Grassley. On another point, did you have any 
concerns about your role with the center in your position as 
Assistant U.S. Attorney?
    Ms. Torresen. Before I joined the board, I spoke with our 
office's ethics adviser and had that cleared so that I could be 
sure that I was not in violation by doing that outside 
community service?
    Senator Grassley. I have another question along that line 
that I am going to ask you to answer in writing.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. In a letter to the editor of the Bangor 
Daily News, you strongly criticized the local YWCA for choosing 
not to accept a $25,000 gift for cancer education of lesbian 
women. The YWCA said that it could not accept money advocating 
rights or positions of only a particular group. You wrote, ``It 
is clear that homophobia is behind the YWCA's decision to 
reject the money. The YWCA's implicit message is that it does 
not care if lesbian women die of breast cancer. Pretty hard to 
take from a group whose mission is to empower all women.''
    Is this an accurate account of your letter to the editor?
    Ms. Torresen. I believe that is an accurate account of my 
letter to the editor.
    Senator Grassley. Do you believe that the YWCA does not 
care if lesbian women die of breast cancer?
    Ms. Torresen. That was a bit hyperbolic, and I realize 
now----
    Senator Grassley. That is enough.
    Ms. Torresen. Okay.
    Senator Grassley. Do your comments illustrate an 
appropriate temperament for a Federal judge? I think that is an 
appropriate question.
    Ms. Torresen. That is an appropriate question. I thank you 
for it, and I thank you for the opportunity to address it.
    I wrote that I think 16 years ago, and I believe I have 
matured since then. I certainly have learned the lesson that 
nothing is ever lost by courtesy. I have been in the trenches 
in the Federal courtroom, and I know full well the pressure 
that the litigants are under, and I would treat all litigants 
in the courtroom, if I were lucky enough to be confirmed, with 
respect.
    Senator Grassley. Okay. I am going to go out here and have 
a little meeting, and then I will be back at the end of your 10 
minutes. Is that OK?
    Senator Coons. I may not go 10 minutes.
    Senator Grassley. Okay. I will be available, so just call 
me in whenever you are ready.
    Senator Coons. Certainly, Senator. Thank you, Senator 
Grassley.
    I did not want to neglect the two judges on our panel 
today. Having previously asked questions of the other three 
nominees about their experience as advocates and how they would 
transition from their role as an advocate to a Federal judge, I 
just wanted to ask both of you what lessons you have learned in 
your experiences in your current judicial roles and how you 
would apply them to the distinguishable role of a Federal 
district court judge.
    Judge Cain.
    Judge Cain. Thank you for the question, Senator Coons. Over 
the last 11-plus years, I have had the good fortune to hold 
court in 17 counties throughout the State of South Carolina. I 
have had folks come before me of modest means, and I have had 
folks come before me in court who have great wealth. And I 
think everyone needs to be fed out of the same spoon, 
regardless of their station in life, and I have tried to 
approach my job in that fashion.
    Of course, at the State court level, we operate under the 
South Carolina Rules of Civil Procedure, which are modeled 
under the--by the Federal rules and the Rules of Evidence, 
which are modeled after the Federal Rules, and I would 
continue, if I am fortunate enough to be confirmed, to try to 
make sure that everyone who comes into court, regardless of 
their station in life, receives a full and fair opportunity to 
present their case and to feel comfortable that they have had a 
judge who has conducted their hearing in a fair and impartial 
manner. And I would hope to be able to bring that same 
philosophy to the Federal bench.
    Senator Coons. Thank you, Your Honor.
    Judge Ross.
    Judge Ross. Thank you, Senator. If I am fortunate enough to 
be confirmed, I think my broad range of experience in the past 
will benefit me in making this transition. I started out in the 
prosecuting attorney's office handling all criminal cases, and 
then spent 9 years as the county attorney in St. Louis County 
overseeing all of the civil litigation for county government. 
Some of that litigation was Federal litigation. And in my 11 
years as a circuit judge in the busiest circuit in the State of 
Missouri, I have seen a wide variety of cases, and I think all 
of that experience will help me make the transition again, if I 
am fortunate enough to be confirmed. And I think, again, that 
it will be a transition, and I understand that I will have 
things to learn, but I think that all of those experiences will 
assist me in making that transition.
    Senator Coons. Thank you, Judge.
    I have just one last question for the whole panel. I would 
be interested in your views on, as a Federal judge, what role 
you have in ensuring fair and equal access to our courts, to 
our judicial system, to appropriate treatment. You have all 
made some reference to it in passing, but I would just be 
interested in your view on how you would view your role in 
ensuring equal and fair access to our judicial system.
    Ms. Torresen.
    Ms. Torresen. I think I need a little clarification on the 
question. What do you mean by ``fair and equal access to the 
judicial system''?
    Senator Coons. Well, you make rulings as a district court 
judge that can have some impact on whether or not litigants 
appearing before you really have the opportunity to be heard, 
and I think in voir dire you also have a role in making sure 
that they are being reviewed, judged as it were, by a jury of 
their peers. Those are just two suggestions. You also 
ultimately set some of the rules and have input into the fees 
that are paid and the process by which a case gets before you 
as a district court judge. I am just suggesting a couple of the 
vectors that are of some concern to me.
    All of you have had significant lengthy exposure to the 
judicial process in your respective States. The Federal courts 
sit in a sort of particular place in that, but cases are fed up 
into district courts by a variety of means, and there have been 
some questions in our history as to whether or not all cases 
arrive with the same standing in front of Federal courts.
    So I was just interested in your particular views based on 
your own particular experiences about how we ensure equal 
access to justice for all Americans.
    Ms. Torresen. Thank you for the question and thank you for 
the clarification. I think the District of Maine may be 
somewhat unique in this regard. For my fellow panel members, it 
may be slightly different. But in Maine, I do not see an issue 
with people having fair and equal access to the Federal courts, 
and I think everybody that comes to the Federal court is 
treated fairly and equally.
    There are instances, I am sure, where if money is an issue, 
there are court-appointed lawyers that are available that the 
courts can provide in the criminal context, and that is done 
routinely. Also, for waiving certain fees like special 
assessments, those are often waived in the case of someone who 
has the inability to pay. So I do not see that as a particular 
problem in the District of Maine.
    Also, Maine is a State which I think the recent census data 
is something like 98 percent white, and that is, you know--when 
we empanel a jury, almost all of the people in the panel are 
white. And that is an issue, but we do not--you know, that is 
just the demographics of the State of Maine.
    So I really do not see that we have an issue of an unfair 
or a situation where someone is not getting access to judgment 
in the Federal court.
    Senator Coons. Thank you, Ms. Torresen.
    Ms. Brown.
    Ms. Jolivette Brown. Thank you for the question. There are 
a number of ways I see that we can address the issue of fair 
and equal access to justice. As you know, I have spent a lot of 
time as a mediator. Mediation is a part of the Federal practice 
now. I think mediation is a cost-efficient and effective way to 
move litigants through the system in a way that is less costly 
to them.
    Secondarily, for those who choose to continue on, I think 
early status conferences and opportunities to bring the parties 
together again moves those matters along. And I think all of 
those things add to the overall access and fairness and justice 
to all. And just the simple fact that parties should feel 
confident when they appear before any court that only the 
issues properly presented before them will be heard, they 
should feel confident that they are being treated fairly 
despite their position or walk in life.
    And so I think all of those three things take into account 
those ways that we can play a role in fairness and access to 
justice for all.
    Senator Coons. Thank you, Ms. Brown.
    Mister--Dr. Kuntz.
    Mr. Kuntz. Please, ``Bill'' is fine, Mr. Chairman. Thank 
you.
    In Brooklyn, we do have some of these issues in the Eastern 
District of New York, and there are a number of things that I 
have been involved with, and others have as well. The expansion 
of CJA panels, Criminal Justice Act panels, is important. The 
involvement in bar association activities is also important, 
such as Federal Bar Council. And we have a very fine group of 
magistrate judges who have been very active in terms of helping 
the district court judges to provide access to the courts for 
more and more people. I think this is an area that is of 
immense importance, and particularly in the habeas area as 
well.
    So I have been involved for 33 years as a litigator through 
bar association activities and, if I am fortunate enough to be 
confirmed, would certainly continue those efforts to enhance 
accessibility. And I thank you for the question, Mr. Chairman.
    Senator Coons. Thank you, Dr. Kuntz.
    Judge Cain.
    Judge Cain. Thank you for the question, Senator.
    Everyone should have access to justice and access to the 
courts regardless of their station in life. And just to follow 
up on my response to an earlier question, I have had folks in 
my courtroom of modest means and great means, and the courtroom 
is a place where everyone should be treated the same and 
treated fairly, regardless of their station in life.
    On the State level in which I work, our State Supreme Court 
has done a good job of ensuring access to the courts by all 
persons and has set rules and procedures by which filing fees 
can be waived when appropriate, and I follow those guidelines 
and procedures. And when a party applies to file an action or a 
motion and be exempted from the requirement of a filing fee, if 
it fits within the parameters established by my State Supreme 
Court, I freely waive that.
    Thank you.
    Senator Coons. Thank you, Your Honor.
    Judge Ross.
    Judge Ross. I also think it is very important to provide 
access to the courts, and I think it is important to be 
sensitive to the rising costs of litigation. And certainly at 
the State court level, we have seen an increase in pro se 
litigants trying to file cases on their own, and we have taken 
a number of steps in our court to assist pro se litigants and 
indigent litigants to have access to the courts. And I would 
continue that practice if I am fortunate enough to be 
confirmed.
    Senator Coons. Thank you, Your Honor.
    My time has expired, and I will defer now to Senator 
Grassley.
    Senator Grassley. Dr. Kuntz, I see you left a lot of money 
at Harvard.
    [Laughter.]
    Senator Grassley. Are there any other degrees you can get 
from Harvard?
    Mr. Kuntz. My late father-in-law, Senator, wondered if I 
would ever get a job and stop going to school.
    [Laughter.]
    Mr. Kuntz. I am pleased to report that----
    Senator Grassley. Do not interpret any of my questions as 
keeping you from getting a job so your father-in-law is happy.
    For you, sir, on the living constitutional theory, Judge 
Scalia said this--and I am only using this as an offshoot. I am 
not asking you what you think about what he said. ``The risk of 
assessing evolving standards is that it is all too easy to 
believe that evolution has culminated in one's own views.'' So 
you can understand why the independence of a Federal judge is 
very important.
    Do you believe that judges should consider evolving 
standards when interpreting the Constitution?
    Mr. Kuntz. I believe they should not. I believe the 
Constitution is written and it says what it means and it means 
what it says. And when it is time to amend the Constitution, 
the people of this Nation amend the Constitution, not the non-
elected judges.
    Senator Grassley. I think you also answered my second 
question, but let me ask it anyway. Do you believe that it is 
ever appropriate for a Federal judge to incorporate his or her 
own views when interpreting the Constitution?
    Mr. Kuntz. Never.
    Senator Grassley. If confirmed, what sources will you look 
to when interpreting provisions of the Constitution?
    Mr. Kuntz. You look to the words of the Constitution. I 
have studied at the level of doctoral history constitutional 
history, and you look to the words. The Founders battled over 
every clause, and it is there for a reason, and that is what 
you look to.
    Senator Grassley. Thank you.
    Mr. Ross, Judge Ross, at the time you were a county 
counselor, there was an incident where members of the county 
Private Industry Council sent an anonymous fax to members of 
the council and the local media criticizing the director of 
administration for actions he had taken. One of the 
whistleblowers was forced to resign. Both filed suit asserting 
their rights under the First and 14th Amendments. You were 
quoted by the media stating your belief that neither had a 
cause of action. The district and appellate courts did not 
agree with you, and the county subsequently passed 
whistleblower legislation.
    You may not know that I am very active in protecting 
whistleblowers, so you know the interest behind my question. So 
I want to ask two questions that follow on that.
    Well, the first question is divided into two parts. Why did 
you think the council whistleblowers had no valid suit?
    Judge Ross. Thank you, Senator, for the question. My 
initial review of the lawsuits when they were filed was that 
they did not state a cause of action. It was purely a legal 
analysis of the lawsuits as they were initially filed.
    They were later amended. There were additional claims that 
were raised. We did file a motion to dismiss that was denied, 
and the lawsuits were subsequently settled.
    But my initial comments were based solely upon an initial 
review of the lawsuits as they were filed.
    Senator Grassley. Okay. If confirmed as a Federal District 
Judge, what will be your approach to whistleblower suits? Will 
whistleblower plaintiffs be treated fairly in your courtroom?
    Judge Ross. I know I have had a number of whistleblower 
lawsuits since I have been a judge, and I think I have followed 
the law and would always follow the law as it applies to a 
whistleblower. I think whistleblowers can play a very important 
role and do play a very important role. So I would certainly 
follow the law as it applies to those kinds of cases.
    Senator Grassley. My second question to you is similar to 
what my colleague just asked in his first questions to all of 
you. You have no experience in the Federal court. What 
experience do you have that qualifies you for a Federal 
judgeship? How do you plan to make the transition?
    Judge Ross. Senator, I have had a broad range of 
experience. I started out handling all criminal cases in the 
prosecuting attorney's office, and I did that for 11 years, 
became the chief trial attorney, handled a broad range of 
criminal cases.
    As county counselor, which I was for 9 years, I supervised 
all the civil litigation for county government. Some of that 
litigation was, in fact, Federal litigation. I made these 
transitions and then made the transition to becoming a judge. I 
think all of those things would assist me in making the 
transition if I am fortunate enough to be confirmed.
    Senator Grassley. Okay. And my last question, you do not 
have to answer if you do not want to, but I want to give you a 
chance to respond to an allegation. On December 6, 2010, 
Congressman Clay wrote to President Obama and expressed his 
strong opposition to your nomination based on how you had 
handled the case Kevin Buchek v. Robert Edwards. Specifically, 
Congressman Clay urged the President to withdraw your 
nomination ``[b]ased on Judge Ross' judicial activism, history 
of racial and gender discrimination against black elected 
officials and employees of the fire district.'' In his letter 
to the President, Congressman Clay attached a letter from a 
group of elected officials in Missouri opposing your 
nomination.
    Judge Ross. Thank you, Senator. I appreciate the 
opportunity to address that.
    I think that the letter that was written to Congressman 
Clay by the other officials contains significant inaccuracies. 
This case actually came to our court based on a citizens' 
petition that was filed by residents of a fire district in 
North St. Louis County. It was filed after the Missouri 
Attorney General had filed a lawsuit against the district 
alleging that they had violated the open meetings laws. There 
was also a scathing audit issued by the Missouri State auditor 
citing financial improprieties and a lack of financial controls 
by the district.
    The citizens group requested a temporary restraining order 
and asked that a receivership be appointed to take over the 
running of the district. The case went to another judge, and 
that judge granted the restraining order. It then went to a 
second judge, who denied a motion to dissolve the restraining 
order.
    When both of those judges were disqualified, the case then 
was assigned to my division. I did have a hearing, and after a 
hearing I determined that a preliminary injunction was 
appropriate. I denied the request for a receivership which 
would take over the entire operation of the district. I did 
appoint a special master. The special master that I appointed 
was a retired Missouri court of appeals judge who happens to be 
African American. For 14 months, the special master acted, and 
I affirmed many of the special master's recommendations.
    To give you an idea of what was happening in the district, 
they were holding meetings in violation to open meetings laws, 
and at one point one member of the district voted to pay the 
former fire chief and an attorney over $700,000 in severance 
pay. The attorney, who was going to get a portion of that 
money, was one of the people who wrote the letter to 
Congressman Clay.
    So I think that the letter contains significant 
inaccuracies, and at the conclusion of the 14 months that the 
court was involved in the district, all of the recommendations 
of the State auditor's office were implemented, and there were 
financial controls in place and a financial budget where the 
district was not spending more money than it was bringing in.
    I would also point out that during the course of the 
court's involvement, another court removed the chairman of the 
board of the fire district, and it then came to me to appoint 
the new chairman of the fire standard, and I appointed an 
African-American male, and in so doing I maintained an African-
American majority on the board.
    So I believe that the letter contains some inaccuracies 
that were conveyed to the Congressman.
    Senator Grassley. Okay. Now, Mr. Cain, if I only ask you 
one question, you are going to think I think you are less 
significant than the other four.
    Judge Cain. I will not be offended, Senator.
    [Laughter.]
    Senator Grassley. Along the lines of something that the 
Chairman asked you, you have little experience in Federal 
court. What experience do you have that qualifies you for a 
Federal judgeship? And how do you plan to make the transition?
    Judge Cain. Thank you for the question, Senator. Again, as 
a State court judge for over 11 years, I have used the South 
Carolina Rules of Civil Procedure and the South Carolina Rules 
of Evidence in conducting hearings and trials. Those rules are 
modeled after the Federal rules.
    In addition to that, I have heard many types of matters in 
family court relating to marital estates that might involve 
such assets as interest in limited liability companies, 
corporations of various types.
    I have also had criminal experience hearing juvenile cases 
with folks charged with felonies and misdemeanors. And prior to 
my service on the family court bench, I was in practice for 
about 14 years and have worked as a public defender and a 
prosecutor and was county attorney for 7 years and represented 
clients before various Federal agencies, and clients in 
primarily State court but also Federal court as well. So I 
believe I would be able to make the transition successfully if 
I am fortunate enough to be confirmed.
    Thank you.
    Senator Grassley. Thanks to all of you, and thank you, Mr. 
Chairman.
    Senator Coons. Thank you very much, Senator Grassley. Do 
you have any further questions?
    Senator Grassley. No.
    Senator Coons. I do not either, so we will hold the record 
of this nomination hearing open for a week in the event that 
any members of this Committee who were not able to join us 
today wish to submit additional questions to our five nominees.
    I want to personally thank our five nominees for being here 
today and congratulate them on their nominations. You are truly 
qualified. You are dedicated public servants, and I am grateful 
for your willingness to step up and continue your service to 
our Nation through service on the Federal bench.
    This Committee stands in recess.
    [Whereupon, at 4 p.m., the Committee was adjourned.]
    Questions and answers and submissions follow.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  NOMINATIONS OF STEVE SIX, NOMINEE TO BE U.S. CIRCUIT JUDGE FOR THE 
  TENTH CIRCUIT; MARINA GARCIA MARMOLEJO, NOMINEE TO BE U.S. DISTRICT 
JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; MICHAEL C. GREEN, NOMINEE TO 
  BE U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF NEW YORK; WILMA 
  ANTOINETTE LEWIS, NOMINEE TO BE JUDGE FOR THE DISTRICT COURT OF THE 
   VIRGIN ISLANDS; MAJOR GENERAL MARILYN A. QUAGLIOTTI, USA (Ret.), 
NOMINEE TO BE DEPUTY DIRECTOR FOR SUPPLY REDUCTION, OFFICE OF NATIONAL 
                          DRUG CONTROL POLICY

                              ----------                              


                         TUESDAY, MAY 24, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., Room 
SD-226, Dirksen Senate Office Building, Senator Amy Klobuchar, 
presiding.
    Present: Senators Grassley, Cornyn, and Lee.

 OPENING STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM 
                     THE STATE OF MINNESOTA

    Senator Klobuchar. I am pleased to call this nominations 
hearing of the Senate Committee on the Judiciary to order, and 
pleased to have our Ranking Member, Senator Grassley, here. I 
want to thank Chairman Leahy for allowing me to chair this 
hearing. As you know, we're starting on time.
    I want to give a warm welcome to all of our nominees. We 
also welcome the family and friends that have accompanied all 
of you. You will have an opportunity to introduce them shortly.
    First, I would like to call upon Senator Cornyn, a member 
of this Committee, to introduce Marina Garcia Marmolejo, who is 
nominated to be a District Judge for the Southern District of 
Texas, and I would also like to welcome the Virgin Islands 
delegate, Congresswoman Donna Christensen, to introduce Wilma 
Lewis, who is nominated to serve on the U.S. District Court of 
the U.S. Virgin Islands. Thank you, Senator Cornyn and 
Congresswoman Christensen, for appearing today. Please feel 
free to excuse yourself when you're done; I know you have busy 
schedules.
    Senator Cornyn.

  PRESENTATION OF MARINA GARCIA MARMOLEJO NOMINEE TO BE U.S. 
DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS PRESENTED BY 
    HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Well, thank you, Madam Chairman, Senator 
Grassley. It is my pleasure to speak on behalf of the 
nomination of Marina Marmolejo, who is here with her husband in 
the front row, and to support her nomination as U.S. District 
Judge for the Southern District of Texas in Laredo.
    Ms. Marmolejo applied for this position and was screened by 
a bipartisan Federal Judicial Evaluation Committee appointed by 
Senator Hutchison and myself. Senator Hutchison and I 
interviewed her and recommended her to President Obama, and are 
pleased that she comes to this Committee as a consensus 
nominee. Based on her broad experience and commitment to public 
service, I believe she'll make an outstanding addition to the 
Federal bench in Texas.
    Born in Nueva Laredo, Mexico and naturalized as a U.S. 
citizen, Ms. Marmolejo's professional accomplishments are a 
testament to her determination and hard work. After graduating 
from the University of the Incarnate Word in my home town of 
San Antonio, Ms. Marmolejo went to receive her Master's and law 
degree from another alma mater of mine, St. Mary's University 
School of Law.
    She consistently set the standard throughout her academic 
career, completing each degree program with honors and serving 
as an associate editor on the St. Mary's Law Journal. Following 
law school, she demonstrated a strong commitment to public 
service, first as an assistant public defender from 1996 to 
1999, where she worked to ensure that the indigent and 
vulnerable defendants received their constitutional right to a 
fair trial.
    In that capacity she appeared in 350 cases before Federal 
District Courts in both the Southern and Western Districts of 
Texas. Her work as a public defender was so impressive that in 
1999 she was recruited to serve as an Assistant U.S. Attorney 
for the Southern District. In her role as a Federal prosecutor, 
she spent the next 8 years handling over a thousand cases that 
brought dangerous criminals to justice, such as human 
traffickers and drug smugglers, gun runners, and gang members. 
Clearly, Ms. Marmolejo's experience fighting these scourges 
will suit her well given the Southern District's proximity to 
the increasingly dangerous U.S.-Mexico border.
    As a prosecutor, Ms. Marmolejo has also worked to ensure 
that our elected officials lived up to the highest ethical 
standards, prosecuting multiple public corruption cases. For 
her work in one high-profile case she earned the prestigious 
Director's Award for her superior performance as an Assistant 
U.S. Attorney, one of the highest honors available to career 
Federal prosecutors.
    She also won the attention of her superiors for her 
intricate knowledge of the criminal justice system and her 
prosecutorial talents. She was repeatedly recruited by the 
Department of Justice's Overseas Prosecutorial Development 
Assistance and Training Program to teach trial advocacy to 
foreign prosecutors and agents in Colombia and the Dominican 
Republic.
    In 2007, she went into the private practice of law with the 
firm Thompson & Knight in San Antonio. In 2009, she joined 
Diamond McCarthy, LLP as of counsel, and became a partner later 
that year. She is now a partner in the Reid Collins Tsai law 
firm based in Austin.
    So you can see from her vast experience and her public 
service that Ms. Marmolejo is well qualified. She has also 
received widespread applause from the community. For example, 
the Laredo LULAC Council has recognized with its Tejano 
Achiever's Award, and the Nueva Laredo Rotary Club has 
similarly awarded her service to the community.
    So while I could continue to offer additional praise for 
Ms. Marmolejo's career and her character, the record is already 
clear. I believe she will probably serve as a Federal District 
Judge, so I would urge my colleagues to join Senator Hutchison 
and me in supporting Ms. Marmolejo's well-deserved nomination.
    Thank you.
    Senator Klobuchar. Thank you very much, Senator Cornyn.
    Congresswoman Christensen, I will warn you, you may not be 
able to match him for having his nominee rhyme with her place 
of residence, Marmolejo of Laredo. It almost rhymes. I kind of 
liked it.
    Ms. Christensen.

PRESENTATION OF WILMA ANTOINETTE LEWIS, NOMINEE TO BE JUDGE FOR 
  THE DISTRICT COURT OF THE VIRGIN ISLANDS PRESENTED BY HON. 
   DONNA M. CHRISTENSEN, A U.S. REPRESENTATIVE FROM THE U.S. 
                         VIRGIN ISLANDS

    Representative Christensen. Thank you, Madam Chair and 
Ranking Member Grassley, for the opportunity to introduce the 
Hon. Assistant Secretary Wilma A. Lewis, President Obama's 
nominee to serve as the next District Court Judge in the U.S. 
Virgin Islands.
    As the daughter of the first native Virgin Islands judge of 
our District Court, it is an honor to introduce an exceptional 
woman and public servant who, with your confirmation, would 
create another judicial milestone, as she would become the 
first woman to serve as a Federal judge in the District Court 
of the U.S. Virgin Islands.
    Assistant Secretary Lewis would bring an extensive, varied, 
and broad wealth of experience from both the public and private 
sector to the District Court of the U.S. Virgin Islands. We are 
so very proud of her record of distinguished service and know 
that any number of other Federal judicial districts would have 
vied to have her bring her level of expertise to them, and many 
would have wanted to have the honor and privilege that I have 
to introduce her to you today.
    I know her as a devoted daughter of parents who themselves 
gave a collective 67 years of service to the Federal 
Government, her father Walter Lewis in the U.S. Postal Service, 
and her mother Juta Lewis in what was then the U.S. Customs 
Service.
    We are both active members of the Moravian church that 
played an important role in bringing equity and justice to the 
enslaved Africans they came to live among back in the early 
1700s.
    I know that you have her outstanding resume, but she has 
served the District of Columbia and our Nation in some of the 
most demanding local and Federal positions of government. Her 
tenures in those offices are of immense pride to the people of 
the U.S. Virgin Islands and I would not be able to go back home 
if I did not at least mention some of the more important ones 
as I present her to you today.
    In 2009, President Obama and Interior Secretary Ken Salazar 
called upon Attorney Lewis' vast expertise to serve as the 
Assistant Secretary for Lands and Minerals Management at one of 
the most challenging times for that agency. She previously 
served as Interior's Inspector General, and earlier as an 
Associate Solicitor in the General Law Division.
    Assistant Secretary Lewis served the U.S. Department of 
Justice as the U.S. Attorney for the District of Columbia, as 
well as on several key boards, committees, and commissions, 
including the Judicial Nomination Commission and the Committee 
on Local Rules of the U.S. District Court for the District of 
Columbia.
    Attorney Lewis has also had significant experience in the 
private sector. Madam Chair and Ranking Member, throughout her 
life, Wilma A. Lewis has distinguished herself at every turn, 
in college, in law school, and in the coveted legal position 
she had held and executed with honor, distinction, and 
excellence.
    She was the valedictorian of her All Saint's Cathedral High 
School in 1974, graduated with honors from Swathmore in 
Political Science in 1978, and from Harvard Law School in 1981. 
She was featured in the 2003 Harvard Law Bulletin as among the 
50 female graduates who used their legal education to take them 
to extraordinary places, and has been recognized and honored by 
many organizations in the Virgin Islands and across the U.S. 
mainland.
    Although the nominee has spent most of her professional 
life on the United States mainland, she has maintained close 
and continuous contact with her home through the church, 
several community organizations, and of course through her ties 
to family and friends. The Virgin Islands Bar Association 
unanimously voted her as the Most Qualified and recommended her 
highly for this position.
    We're asking that this body, in confirming this outstanding 
individual, give her the opportunity to do what has always been 
her dream: to use all of the experience and skill she has 
accumulated over the years of service to serve her beloved 
home.
    Thank you for the opportunity again to present this 
outstanding individual and nominee for the District Court of 
the U.S. Virgin Islands.
    Senator Klobuchar. Well, thank you, Congresswoman 
Christensen. Thank you for joining us today.
    I would also like to note that Senators Schumer and 
Gillebrand were not able to make it today, but they have 
submitted remarks for our nominee, Michael Green. These 
statements will be submitted to the record.
    [The prepared statements of Senators Schumer and Gillebrand 
appear as a submission for the record.]
    Senator Klobuchar. I believe that Senator Hutchison is 
going to be joining us shortly. Before Senator Grassley gives 
an opening statement, I would like to introduce the rest of our 
nominees.
    Steve Six has been nominated to serve on the U.S. Court of 
Appeals for the Tenth Circuit. Currently he is a partner at the 
Kansas law firm of Stevens & Brand. He is also a research 
scholar with Columbia University Law School's State Attorney 
General program. Mr. Six previously served as the Kansas 
Attorney General, and he even has experience living in 
Minnesota. I knew you would be interested in that, Senator 
Grassley. He graduated from Carlton College in Northfield, 
Minnesota, before attending the University of Kansas School of 
Law.
    Michael Green has been nominated to sit on the U.S. 
District Court for the Western District of New York. Currently, 
the District Attorney for Monroe County, New York, Mr. Green 
was previously Assistant District Attorney for Monroe County 
and an associate at the Morris & Morris law firm in Rochester, 
New York. Mr. Green attended LeMoyne College and received his 
J.D. from Western New England College School of Law.
    Last, but certainly not least, we have Major General 
Marilyn Quagliotti. General Quagliotti has been nominated to be 
Deputy Director for Supply Reduction in the Office of National 
Drug Control Policy. Wow, that's a long title! She is currently 
a management consultant with the Durango Group, and she had a 
long and distinguished career in the U.S. Army, serving for 
over 30 years. Welcome, General Quagliotti.
    Now I'm going to turn it over to Senator Grassley for any 
opening remarks he would like to make.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I extend my welcome to the nominees 
appearing before us today. I also welcome their family and 
friends, and I know you're proud of your family and friends 
that are being nominated for these prestigious positions.
    I'm eager to hear testimony and I'll be asking many 
questions. I expect the nominees will fully answer my 
questions. Too often, nominees appear before us and fail to 
give meaningful responses. Unfortunately, a well-worn response 
that we get to questions, meant to have questions of substance, 
we too often hear, ``I will follow the law, if confirmed''. 
That type of response, which sounds coached, even robotic at 
times, doesn't really get us very far with understanding the 
competence, integrity, and temperament of a particular nominee. 
It certainly gives us no insight into the thought process, 
legal reasoning skills, or general judicial philosophy of the 
nominee.
    I am going to insert the rest of my statement in the record 
because it's very long. So, I'll yield the floor.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Klobuchar. OK. Thank you.
    I will now ask our first nominee, Mr. Steve Six, to come 
forward and remain standing and raise your right hand. I'll 
administer the oath.
    [Whereupon, the witness was duly sworn.]
    Senator Klobuchar. Thank you. Have a seat.
    Mr. Six, do you want to take a moment to introduce anyone 
who is with you here today at this hearing?

 STATEMENT OF STEVE SIX, NOMINEE TO BE U.S. CIRCUIT JUDGE FOR 
                       THE TENTH CIRCUIT

    Mr. Six. I do. Thank you, Senator Klobuchar, for that kind 
introduction, and Senator Grassley, for those welcoming 
remarks. Introducing my family who is with me here today 
supporting me, I'll start with my wife Betsy. My wife of 15 
years. Going in age from the oldest, my daughter Emily Six, Sam 
Six, Henry Six, and Will Six. And I'm also fortunate to have my 
parents, retired Supreme Court Justice--Kansas Supreme Court 
Justice Fred Six here, and my mother, Lillian Six. Thank you 
all.
    Senator Klobuchar. That's almost six Sixes.
    [Laughter.]
    Senator Klobuchar. That's very good.
    Mr. Six. I do thank the Committee for allowing me to have 
this hearing today, and look forward to your questions.
    Senator Klobuchar. Well, very, very good. I have a few 
questions. I know it sounds like Senator Grassley has some 
questions as well.
    Could you talk about how you describe your judicial 
temperament and why you think you'd make a good judge?
    Mr. Six. Well, thank you for that question, Senator. In my 
past work experience, I had the honor of serving as a State 
judge in our Kansas system and the approach that I took in that 
position was to really try to show up every day and work hard 
on being fair, to be independent, and to do what sounds kind of 
trite, but to impartially apply the law as I saw it to the 
facts that appeared before me. That's the judicial philosophy I 
practiced for the time I was a State court judge, and what I'd 
hope to do if I was fortunate enough to be confirmed to this 
position.
    Senator Klobuchar. Thank you. And has your father passed 
along any ideas to you?
    Mr. Six. Well, he has been very influential in my life, 
certainly in a lot of ways. I don't know that there's any 
particular judicial lessons he's passed on. It's been more 
certainly ethics, integrity, how do you present yourself, what 
does your word mean when you give it to someone, and really how 
to practice law in, I think, a very gentleman-like or 
professional fashion.
    Senator Klobuchar. So going to the Circuit Court, if you're 
confirmed, is a little different than being a District Court 
judge or a State Court judge, as you will be working with many 
judges, active senior judges. And do you think it's important 
to seek out agreement with your colleagues? Is there value to 
finding common ground, even if it slightly narrower in scope, 
to get a unanimous opinion? What are your views on that?
    Mr. Six. Well, I think what I've learned over my legal 
career, both in the private sector and public sector, is that 
it's important in the law to have a vigorous debate about what 
you believe a statute may be or what the cases say about the 
law or the precedents. Whether you're doing that with lawyers 
in private practice or, as I did when I questioned lawyers when 
I was a judge, you can have that vigorous debate but still when 
you're done be civil and get along.
    And certainly I would anticipate, if I was fortunate enough 
to be confirmed, that I would have a vigorous debate with my 
colleagues on a panel, respecting other views, listening to 
other views. But at the end of the day, you need to make your 
own decisions and hold true to what your principles or beliefs 
are in the law that you've studied.
    Senator Klobuchar. Thank you.
    Then last, Mr. Six, as Kansas Attorney General you played a 
role in, or commented on, many high-profile matters, like 
prosecuting child pornographers. As a former prosecutor, I know 
that that is--I believe it's very useful experience. How do you 
think that will play into your background as you look to the 
Circuit Court judgeship?
    Mr. Six. Well, as--as someone with young children, when I 
was Attorney General, one of the priorities that soon came to 
my attention was the dangerous that young children are facing 
online in various ways through all kinds of activity. That 
certainly was a priority and, when you're working hard for 
something that you think and believe in, it's sort of like not 
even going to work in the day because you enjoy the work so 
much. You know, that was important work to me in those 
positions.
    And, you know, I advocated for a lot of things as Attorney 
General, but I certainly recognized that there's a difference 
in our foundation and form of government in the separation of 
powers between someone's role in the executive branch, and 
certainly the judicial branch.
    Senator Klobuchar. Well, thank you.
    And before I turn to Senator Grassley and Senator Lee for 
their questions, we're going to take a little break as Senator 
Hutchison is here to speak for Ms. Marmolejo of Laredo.

  PRESENTATION OF MARINA GARCIA MARMOLEJO, NOMINEE TO BE U.S. 
DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS, PRESENTED BY 
  HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Hutchison. Thank you, Madam Chairman, very much. I 
appreciate it. I was in another hearing, and when I got word 
that you all were ready I raced over. So, thank you, because I 
am pleased to be here to introduce Marina Garcia Marmolejo. She 
has been nominated to serve as a District Judge for the 
Southern District in Laredo, Texas. This is a bench that needs 
all hands on deck. It's got a heavy, heavy caseload, and so we 
are looking for her confirmation as expeditiously as possible.
    She received a Bachelor of Science degree in English at the 
University of the Incarnate Word in San Antonio, where she 
graduated magna cum laude. She went on to graduate from St. 
Mary's University with a Master of Arts degree in International 
Relations, and then received her Juris Doctorate from St. 
Mary's University School of Law.
    She was born in Nueva Laredo, Mexico, but grew up going to 
school in Laredo, Texas and learned very early the value of a 
strong education. She became a U.S. citizen in 1995. She's 
married to Wesley Boyd and has two children, Natalia, age 10, 
and Nicolas, age 8. Since completing her studies, she served as 
a substitute teacher in Laredo, and after law school served as 
an Assistant Federal Public Defender for 3 years, where her 
performance was consistently rated as substantially exceeding 
expectations.
    In 1999, she became an Assistant U.S. Attorney in the 
Southern District of Texas, where she worked for 8 years and 
handled over 1,000 cases. In 2002, the Department of Justice 
awarded her the prestigious Director's Award for superior 
performance as Assistant U.S. Attorney for her work with 
several public corruption cases.
    In 2007, she went with the firm of Thompson & Knight in San 
Antonio, and now is a partner at Reed, Collins & Sigh. In 2010, 
she was named by Hispanic Business Magazine one of the top 100 
influential Hispanic leaders. In 2011, Super Lawyers named her 
a Texas Rising Star. She has a solid understanding of the law 
and a strong reputation in this South Texas community.
    I believe she is well qualified to handle the daily 
challenges of being a Federal judge and look forward to working 
for her confirmation.
    Thank you very much for letting me intervene and show my 
support for Ms. Marmolejo.
    Senator Klobuchar. Well, thank you very much, Senator 
Hutchison. I'm aware of those heavy caseloads in Texas, so I'm 
glad that this has moved along and that this nomination has 
been made. Appreciate it.
    Senator Hutchison. Thank you.
    Senator Klobuchar. Senator Grassley.
    Senator Grassley. Mr. Six, I understand you have the 
support of two Republican Senators from your State. I 
congratulate you on that.
    I have some questions, as I indicated. When you were 
appointed Attorney General in 2008, there was an ongoing 
controversy related to the investigation of Dr. Tiller and the 
Planned Parenthood Clinic and the allegations that they were 
performing illegal, late-term abortions. Your predecessor 
closed the investigation and wrote Planned Parenthood a letter, 
stating that no charges would be filed. The District Attorney 
continued to pursue charges.
    According to media reports, you refused to reopen the 
investigation even though Judge Anderson testified that there 
were discrepancies in the Planned Parenthood medical records, 
and that those discrepancies raised ``substantial, factual and 
legal issues about their competence within the law''.
    My first question: if you were aware of Judge Anderson's 
concerns about the medical records prior to making your 
decision, why didn't you reopen the investigation?
    Mr. Six. Well, thank you for that question, Senator. As you 
mentioned, prior to me being appointed Attorney General we had 
had a period going back to two prior Attorney Generals where 
the issue you were talking about had been vigorously engaged in 
a back-and-forth between them. We had an Attorney General that 
then resigned. When I was appointed, I stepped into some of 
those challenging issues. There certainly weren't any issues 
that I sought out, but tried to handle them in the most 
professional way that we could.
    We had Assistant Attorney Generals who were working on the 
case. And like all criminal cases, as the Attorney General, I 
have a Criminal Division and prosecutors who handle the cases. 
I don't in any case in our Criminal Division tell the 
prosecutors what I think they should do or not do. They're 
given their ethical duties and responsibilities and instructed 
to seek a conviction for charges that they believe evidence 
supports. For all the cases we handled in the Attorney 
General's Office, that's what I did.
    Senator Grassley. Well, where----
    Mr. Six. And the issues----
    Senator Grassley. Were you aware of Judge Anderson's 
concerns prior to making your decision?
    Mr. Six. Well, there was never a decision on my part to 
pursue or not pursue that case. It simply wasn't something that 
was going on. The different----
    Senator Grassley. Were you----
    Mr. Six. The different cases, including the prosecution of 
George Tiller, was going on. That continued after I became 
Attorney General and there were various issues that went up to 
our Kansas Supreme Court on sensitive medical records. We 
continued to bring those to the attention of the Supreme Court 
because they had previously entered instructions for us about 
how we were to handle those records, and we were very sensitive 
about that because the prior Attorney General is before the 
disciplinary board of our State now and has been sanctioned in 
limited ways by our Supreme Court over various activities 
relating to that. So I was very sensitive to always bring it to 
the court and let the court make the decisions.
    Senator Grassley. Were you ever subject to any pressure or 
communication with the Governor of the State or anybody in the 
administration not to pursue charges against Planned 
Parenthood?
    Mr. Six. The Governor at the time I took office was now 
Secretary Sebelius, and I never had a discussion with her about 
any topics or any cases in the Attorney General's Office in our 
Criminal Division. We would occasionally brief her on cases 
before the State. We had a lottery case----
    Senator Grassley. You've answered my question. That's OK.
    Mr. Six. Thank you.
    Senator Grassley. While your office refused to continue the 
investigation of Planned Parenthood, Mr. Phil Kline, who was 
District Attorney and former Attorney General, continued the 
case. Did you ever seek to impede his prosecution of Planned 
Parenthood?
    Mr. Six. Again, when I took office this litigation had been 
going on for some period of time. The judge you mentioned had 
previously testified in a hearing overseen by our Kansas 
Supreme Court before I became Attorney General. The case you've 
just referenced, the judge received a subpoena to appear in 
District Court and testify. When any judge in the State is 
subpoenaed or receives--is sued, they contact the Attorney 
General's Office for representation.
    In this case, that is what happened. Given the sensitive 
nature of the case I thought it would be best to apply outside 
counsel outside of the office to him. He, under our procedure, 
got his own attorney and the matter was referred again to our 
Kansas Supreme Court. The Kansas Supreme Court then issued 
orders about what the judge should and shouldn't do, and that 
was the appropriate forum, I thought, for how it should be 
handled.
    Senator Grassley. Is that your answer then also to why did 
you continue to have legal action to compel Mr. Kline to return 
all documents that he retained from the investigation in the 
Attorney General's Office?
    Mr. Six. Again, the medical records, these private patient 
medical records, were the subject of an order by the Kansas 
Supreme Court about how they were supposed to be handled. When 
Mr. Kline left office, he took the entire file and the records 
with him on the morning he left office. Then another Attorney 
General, Attorney General Morrison, went into office and he 
started a case to get those materials returned. That started 
sometime in January of 2007.
    I became Attorney General in February of 200--or January 
30, 2008. And at the time I became Attorney General, my name 
was substituted into the caption where the previous Attorney 
General's name had been. The court ordered that the lawyers 
show up for oral argument. An Assistant Attorney General from 
my office showed up and argued the case and again said that 
these patient records should be redacted to remove identifying 
information and they should be managed in a secure law 
enforcement way and put the matter before the Supreme Court.
    Senator Grassley. The case brought against Planned 
Parenthood relied in part on Kansas' late-term abortion law. 
Recently Kansas amended their abortion law to bar abortions at 
22 weeks gestation, except to save the mother's life. Do you 
believe that the Kansas law is consistent with the Supreme 
Court's decision of Planned Parenthood v. Casey, where the 
court said that abortion restriction cannot impose ``an undue 
burden''1A?
    Mr. Six. You know, when I was Attorney General I did not 
evaluate that issue. And since I've gone into private practice 
I haven't had any similar issues like that come out and I 
haven't read the Kansas statute. I simply haven't studied it, 
Senator.
    Senator Grassley. I think I'll put the rest of the 
questions for answer in writing.
    [The questions appear under questions and answers.]
    Senator Klobuchar. OK. Very good. Thank you.
    Senator Lee.
    Senator Lee. Thank you very much, Mr. Six, for joining us. 
I have a special interest in the Tenth Circuit, in part because 
it includes my State. So, thank you for being with us today.
    While you were serving as Attorney General of Kansas, 13 
States originally filed a lawsuit challenging the 
constitutionality of the Affordable Care Act, also known as 
Obama Care, insofar as it relates to the individual mandate 
aspect of that. It's my understanding that Kansas, after you 
left office, later became one of the now 26 States. Some of the 
original States included Florida, Michigan, Pennsylvania, 
Washington, a whole host of others, including Utah. Kansas has 
since joined then. A total of 60--26 States have joined in on 
this, a majority of them--a majority of all States.
    But when the question was presented to you as to whether or 
not you wanted to sign documents getting your State involved in 
it, you were quoted as saying ``arguments have been advanced 
that the law's requirement that all individuals purchase health 
insurance is unconstitutional. Under current U.S. Supreme Court 
precedent, such an argument is highly unlikely to succeed''. 
Now, that litigation is still ongoing. We've had a couple of 
courts issue opinions going a couple of different ways. But 
needless to say, it has proven to be a complex issue, certainly 
not a straight up-or-down issue.
    I was wondering if you could just talk to me briefly about 
kind of what you had in mind, what precedent you were relying 
on in saying that this is highly unlikely to succeed and that 
it would be essentially a waste of taxpayer revenue to become 
involved in a lawsuit.
    Mr. Six. Yes. Thank you, Senator Lee. What I did with all 
issues that appeared in the Attorney General's Office, was they 
would come in and we'd try to apply the best analysis we could. 
I don't know when in the course of time I made that statement, 
but, you know, I assigned various claims, the six or so claims 
under the individual or employer mandate to lawyers in the 
office. They researched them. They returned reports that we 
then reviewed. And my opinion after that review was that the 
great majority of the claims looked unlikely to succeed. I 
think that's proven true perhaps through all the courts, that 
maybe four of the claims have uniformly been dismissed.
    The other thing I did then on the individual mandate, which 
I think was the most challenging aspect, was we reviewed it as 
to the State Attorney General, because that's the decision we'd 
been making. Our analysis was that under the standing cases, 
that the State Attorney General didn't have the authority to 
pursue the individual mandate claim. And for those reasons, I 
thought that our State, you know, given the limitations and the 
challenges we were facing, had other cases and things that we 
were struggling to meet the demands of, and for the resources 
that would be required to get involved in that. You know, we 
decided not to, and ultimately my view was it would go to an 
appellate court and the Supreme Court and that would apply to 
our State anyway.
    Senator Lee. So it was your conclusion that the State would 
lack Article 3 standing or prudential standing in order to 
bring that?
    Mr. Six. You know, I did not review what the conclusion was 
before appearing here today. I can just recall, as we analyzed 
it, as it applied to the Attorney General bringing that claim, 
we didn't think we had standing.
    Senator Lee. OK. But your recollection is that your 
analysis was based on standing rather than on the merits 
position on the substantive legal outcome?
    Mr. Six. The standing issue is what we felt like would be 
determinative on the Attorney General bringing that. We knew 
that in that case there were individual plaintiffs that may be 
advancing the claim, and so if it was going to succeed it would 
apply to our State. And, you know, the final reason really was 
that our--under our Kansas statutes, the House or the Senate 
can pass a resolution to have the Attorney General file a 
lawsuit and the House had that resolution and they voted it 
down. And certainly we didn't want to be in a position where we 
were advancing a case that the House and the people at least 
voted down as far as pursuing.
    Senator Lee. Sure. Sure. But that wouldn't affect your 
standing analysis.
    Mr. Six. No, not on a legal----
    Senator Lee. I mean,--has standing or he doesn't.
    Mr. Six. Correct.
    Senator Lee. It seems odd to me that an Attorney General 
could be thought not to have standing to challenge a law that 
requires substantial investment on the part of the State to set 
up certain infrastructure with all kinds of mandates that are 
not necessarily funded, at least not directly to the States. 
But I understand that to be your position.
    Now, in response to the argument that the unfunded mandate 
requiring the States to expand the eligibility standards for 
Medicaid, or else, you know, in the alternative, lose risking--
risk losing Federal funds. In response to an argument that that 
might violate the State's rights, the State's Tenth Amendment 
rights, you argued, as I understand it, that this was a policy 
argument, not a constitutional argument. How can you defend 
that statement in light of Prince v. United States and the 
acknowledge that the Federal Government cannot commandeer State 
executive or legislative machinery in order to adopt or 
implement a Federal legislative or administrative program?
    Mr. Six. Well, I don't recall the context. I don't dispute 
that I made that statement and that it's accurate. I don't 
recall the context of what I said at that time. And 
unfortunately, Senator, I apologize, but I don't know what the 
Prince case--I have not reviewed that.
    Senator Lee. OK. But if--in light of that precedent, let's 
just--just take for a moment--I understand that you haven't had 
an opportunity to review Prince, but that would make it a 
constitutional argument as opposed to a policy argument, would 
it not?
    Mr. Six. I would say that all of the arguments should be 
legal arguments and would be decided in a court of law as 
opposed to a policy. So that might have just been a loose 
statement on my part. As you know, when you are in the time 
period we're talking about, I imagine that when I was 
campaigning for Attorney General, and you make a lot of 
statements all day all over the State, I would agree that it is 
a legal argument on each of the claims that have been advanced 
in the Florida lawsuit as to whether they are constitutional or 
not constitutional, and those would not be policy arguments.
    Senator Lee. All right. I see my time has expired. Just as 
I would do if I were arguing before the Tenth Circuit, I'll 
yield the floor.
    Mr. Six. Thank you, Senator.
    Senator Grassley. I have one more.
    Senator Klobuchar. OK. One more thing, Senator Grassley. 
Then I had a few follow-ups.
    Senator Grassley. I'm going to--even though I asked you a 
lot of questions about the Planned Parenthood case, I would ask 
you to submit a full statement regarding your actions and 
involvement with regard to that case. Then as a result of that, 
I may have follow-up questions after I review your statement. 
Would you agree to do that?
    Mr. Six. Certainly, Senator.
    Senator Grassley. Thank you.
    Senator Klobuchar. Thank you. I'm sure I was listening to 
your exchange with Senator Lee, and I would hope he would put 
that question in writing so you'd have a chance to look at the 
case and expand on that more after you have a chance to look at 
what you said and what the case said.
    Mr. Six. Thank you.
    Senator Klobuchar. All right. Very good.
    And I just want to confirm here, both Senator Moran and 
Senator Roberts, two Republican Senators, are supporting you 
for this position?
    Mr. Six. You know, I have had a conversation with Senator 
Moran and I wouldn't presume to----
    Senator Klobuchar. Well, they've allowed your nomination to 
go forward. Let me put it that way.
    Mr. Six. I am here today.
    Senator Klobuchar. OK. Very good.
    Senator Lee.
    Senator Lee. Do we have time for one more round of 
questions? I just wanted to follow up on a couple of issues.
    Senator Klobuchar. Sure. I'm actually asking some now.
    Senator Lee. Oh. Oh, great. OK.
    Senator Klobuchar. I'm doing my second round and then that 
would be great.
    Senator Lee. Then I will follow you. OK. I just wanted to 
make sure.
    Senator Klobuchar. OK. Excellent. Very good.
    And then the--I wanted to follow up a little bit on this--
the questions involving your role as Attorney General. 
Obviously you were Attorney General representing the State of 
Kansas in litigation and other matters. Could you describe how 
you see the role of Attorney General different than the role of 
a judge, a Circuit Judge?
    Mr. Six. Well, thank you for that question, Senator. 
Certainly as Attorney General, you are an advocate often for 
positions, whether they relate to public safety or other types 
of activities the office may pursue. At the same time, you're 
also the legal representative of the State and you defend 
statutes passed by the State legislature as to their 
constitutionality. You certainly do that whether you believe 
it's the right view or the wrong view, or a good statute or a 
bad statute. It's just your role to support what the 
legislature has done. So we did that in various ways and 
represented the State, and certainly if I were fortunate enough 
to be confirmed, I understand that under our separation of 
powers, as a judge you're in a completely different role.
    Senator Klobuchar. Right.
    And with regard to the discussion on the patient protection 
Affordable Care Act, in that role you looked at the law and 
made a legal analysis. Is that right?
    Mr. Six. Not only that, I assigned it to our Assistant 
Attorney Generals, experts in various areas, and had them 
submit reports back to me. Then we met and talked about that. 
The conclusion not just of me but the research attorneys, the 
four or five of them in the office that were part of the team 
and were attorneys that were there prior to my becoming 
Attorney General, supported the view that I had in the 
discussion with Senator Lee.
    Senator Klobuchar. And it sounds like the--just looking at 
the numbers, the States were basically split on this, whether 
to get involved in this suit or not. Is that right?
    Mr. Six. Well, it's----
    Senator Klobuchar. Or this appeal.
    Mr. Six. It appears to be a bit of a rolling boulder 
gaining some speed, so there are more on now than at the time 
we made our decision.
    Senator Klobuchar. OK. Very good.
    And the--and you also were involved and you wrote a letter 
objecting to that Nebraksa compromise. Is that correct?
    Mr. Six. That was shortly before the bill was passed. There 
was the Cornhusker kickback, or the Nebraska compromise, what 
they were calling it. Essentially as I understood it, and it 
was a----
    Senator Klobuchar. I suppose you said we have more corn in 
Kansas.
    Mr. Six. You know, I don't know if we do or not. But 
certainly the view of the people in Kansas was that they 
shouldn't be treated any differently or disfavorably from 
perhaps the folks in Nebraska. It was a complicated act and a 
lot of pages. From what we could gather, that was one of the 
potential results. I wrote a letter to the Congress suggesting 
that perhaps we shouldn't proceed that way.
    Mr. Six. And just to clarify the Tiller questions that 
Senator Grassley had asked, that in fact your office actually 
prosecuted Tiller on misdemeanor charges. Is that right?
    Mr. Six. That's correct. When I took over as Attorney 
General I didn't go back through every case in the office and 
interject personal opinions into them. We had qualified 
prosecutors who were pursuing them. The cases that Senator 
Grassley discussed with me and the case against Dr. Tiller, I 
took over, and the cases continued with the Assistant Attorney 
Generals pursuing them, applying their ethical duties as 
prosecutors, and handling tough cases. There wasn't anybody in 
the office that would have chose to do that, but when it's your 
job as a prosecutor that's what you do.
    Senator Klobuchar. And then just to clarify for the record, 
Dr. Tiller was the doctor that was killed during church. Is 
that correct?
    Mr. Six. That's correct.
    Senator Klobuchar. Thank you very much.
    Senator Lee, you had more questions to ask?
    Senator Lee. Thank you very much.
    I just wanted to follow up on our previous line of 
questioning. I noticed that on October 24, 2010, in a local 
paper in your State, you noted an explanation for your analysis 
that really wasn't related to the lawsuit, it was related to 
the constitutionality of the Affordable Care Act generally, 
saying, ``Following a thorough legal analysis I determined that 
there were no constitutional defects with the new health care 
law'', which is different than just saying there's no standing 
problem.
    So in light of that, I want to delve into some of those 
issues for a minute if we could, dealing with the individual 
mandate. Would you agree, first of all, that James Madison got 
it right when he said in Federalist #45 that the powers of the 
Federal Government are few and defined, while those reserved to 
the States are numerous and indefinite. Do you agree with that 
general principle?
    Mr. Six. I would agree with that. I believe the Tenth 
Amendment supports that.
    Senator Lee. OK. And in light of that, if in fact the 
powers of the Federal Government are few and defined, then 
there does have to be some limit on Federal power.
    Now, if Congress can wield the power necessary to tell 
individual Americans, individual Americans living within some 
State, whether it's Utah, or Kansas, or some other State, if 
Congress has the power to say to such a person, you must go out 
and you must buy a specific product, not just any product, but 
health insurance, the kind of health insurance that we in our 
infinite wisdom tell you that you must buy.
    Isn't there a real slippery slope there in the sense that 
if we can do that and if we can then tell people they've got to 
buy that or else pay a penalty because it's good for their own 
health, what would then stop us from telling people that they 
need to go out and buy two servings of green, leafy vegetables 
every single day and eat those so that they will be healthy? 
Couldn't we do that?
    Mr. Six. Well, I understand the principle you're talking 
about and I think the Supreme Court, in the United States v. 
Lopez and United States v. Morrison cases, talked about the 
limits that you've just articulated. And I certainly would 
follow those precedents and that guidance. I think it's 
difficult of course to decide cases in the hypothetical. I 
think requiring somebody, just thinking about it as you 
presented it, to ingest something probably raising some 
substantive due process arguments that may not exist to having 
to buy something.
    But I certainly understand the concept you're talking 
about, and if presented with that I would try to apply 
certainly the guidance that the Supreme Court has, and 
hopefully very soon maybe some analogous guidance that may come 
out of the Fourth Circuit, or certainly from the Supreme Court 
when they get this issue.
    Senator Lee. Well, and in fairness if the hypothetical 
statute we were addressing were one just requiring you to 
ingest it, in addition to any substantive due process problems 
that might present, that also would be something regulating 
non-economic activity, eating, as opposed to actually 
purchasing health insurance.
    But couldn't we change that simply by saying you must 
purchase? In other words, you must take the first $200 a month 
out of your paycheck and buy two servings of green, leafy 
vegetables. We're not going to enforce it to make sure you 
actually eat it, but you have to buy it. How do you distinguish 
that from the individual mandate in the Affordable Care Act?
    Mr. Six. Well, I think it is not something that I have 
analyzed approaching for today and the hypothetical you have 
referenced. It certainly is, I think, a similar analysis.
    Senator Lee. And if there are in fact limits on Federal 
authority, they would certainly have been breached by the time 
we get to the point of telling people they have to buy $200 of 
green, leafy vegetables every month.
    Mr. Six. That seems like an example that perhaps, if you 
just polled the room here, most people would agree with, I'd 
say.
    Senator Lee. OK. And would they be right?
    Mr. Six. Again, it's hard to decide things in advance in a 
specific way or commit to what I would rule if that case would 
appear before the court. But I certainly hear what you're 
saying and it has a very solid sound to it.
    Senator Lee. OK. Thank you.
    Thank you very much.
    Senator Klobuchar. Anything else?
    [No response].
    Senator Klobuchar. Well, thank you very much, Mr. Six.
    Mr. Six. Thank you.
    Senator Klobuchar. I see one of your sons is yawning. I 
won't say which one.
    [Laughter.]
    Senator Klobuchar. But I thank you for appearing before us 
today. We look forward to hearing from you again. The record 
will stay open for any additional questions for 1 week. Thank 
you very much.
    Mr. Six. I appreciate the Committee's time. Thank you.
    [The biographical information follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Klobuchar. Very good.
    Now, does our next panel want to come up? I already 
introduced all of you. If you could raise your right hand, will 
you please stand to be sworn.
    [Whereupon, the witnesses were duly sworn.]
    Senator Klobuchar. Very good. Thank you, everyone.
    You all have interesting and good backgrounds. I think 
we'll start. We'd love to have you introduce the people who are 
here with you today. Now that the Six's have cleared out, there 
are some empty seats behind you. Everyone that doesn't have a 
seat is welcome to move up. Here we go. Let's get Ms. 
Marmolejo's family. I just love saying your name, as you can 
tell. There we go. OK. Very good.
    Ms. Marmolejo, do you want to begin? Let's get everyone 
seated here. There we go. Do you want to begin and introduce 
your family?

   STATEMENT OF MARINA GARCIA MARMOLEJO, NOMINEE TO BE U.S. 
       DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS

    Ms. Marmolejo. Yes. Thank you, Senator. First of all, I 
would like to say thank you for the opportunity and the 
privilege of being here today and for your consideration of my 
nomination.
    I would like to begin by thanking our President, Barack 
Obama, for this nomination and this incredible honor. I would 
like to thank Congressman Henry Cuellar and his staff for their 
unconditional and unwavering support. Clearly, I would not be 
here today if it wasn't for their support and that of the Texas 
Democratic delegation.
    I would like to convey a similar sentiment of gratitude to 
both of my Texas Senators who are here today. They, too, have 
given me their bipartisan support from the very beginning of 
this process and I am very grateful for them. I also thank them 
for such a kind and generous introduction today.
    And now if I may, I'm pleased and honored to introduced all 
of my family members. I've got my husband here today, Wesley 
Boyd, and our two children, Natalia, who is 10 years old, and 
Nicolas, who is 8 years old. I am blessed to have both of my 
parents here, Abraham and Marina Garcia, my aunts Drs. Martha 
and Gloria Marmolejo, my sister Sarah Santos, her husband 
Frank, and my two-year-old nephew Frankie, my sister Maria 
Aurora Garcia, her husband Mark McPherson, and their two 
children, Ava and Levi. And I believe Levi's out in the crying 
room because he's only 6 months old. My brother Abraham and his 
wife Melissa could not join us today, but I know that they're 
watching the webcast and so I salute them today.
    I also have my cousin Anna Garcia with me here today, and 
two dear friends, Brigadier General Dixie Morrow, who was 
confirmed during the 111th Congress, and my friend Janice 
Ayala.
    And finally, I would be remiss if I didn't thank some of my 
friends at home who are watching this webcast who have been 
incredibly supportive throughout this entire process: Michael 
McCromm, Ron Adder, Marylou Castillo, Don DeGabriel, Doris 
Morrow; and my friends at Thompson & Knight: Debbie Alsip, Jim 
Kowser, John Martin, Richard Roper, and others. Thank you so 
much.
    Senator Klobuchar. Well, thank you. And we welcome your 
extended family here.
    Ms. Marmolejo. Thank you, Senator.
    Senator Klobuchar. So we're very glad that you're all here.
    Mr. Green.
    [The biographical information follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
  STATEMENT OF MICHAEL C. GREEN, NOMINEE TO BE U.S. DISTRICT 
           JUDGE FOR THE WESTERN DISTRICT OF NEW YORK

    Mr. Green. Thank you. I would also like to start by 
thanking the President for the honor of this nomination. I'd 
like to thank Senator Schumer for recommending me and for his 
support, and I'd like to thank his staff for all the work that 
they've done on my behalf. I would like to thank you, Senator, 
and all of the members of this Committee and Senator Grassley 
for providing me the opportunity to have this hearing. I would 
like to also thank Senator Gillebrand for her support 
throughout this process.
    Just briefly, if I can introduce my family and some friends 
here with me. I have my wife Karen here with me, my daughter 
Victoria, who's a junior at Pittsford-Menden High School. My 
older daughter Megan could not be with us; she's studying 
abroad in Spain right now and I believe watching on the 
webcast.
    I also have my parents, George and Carol Green with us 
today. I have a good friend, Mike Donoghue, who's here, and 
another good friend, Sarah Clark, who's also on Senator 
Gillebrand's staff, and a long-time assistant, my long-time 
assistant and friend, Karen Farsace, who's here.
    I would also like to acknowledge many special friends at 
home who I believe are watching. I'd like to acknowledge many 
family members who couldn't be here who are watching. And 
finally, I would like to acknowledge my staff at the Monroe 
County District Attorney's Office. It's just an outstanding 
group of public servants. I want to thank them and acknowledge 
them as well.
    Senator Klobuchar. Well, thank you very much, Mr. Green. We 
welcome your friends and family, and everyone watching via 
webcast.
    Ms. Lewis, thank you for being here. You had a nice 
introduction from Congresswoman Christensen.
    [The biographical information follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
 STATEMENT OF WILMA ANTIONETTE LEWIS, NOMINEE TO BE JUDGE FOR 
            THE DISTRICT COURT OF THE VIRGIN ISLANDS

    Ms. Lewis. Yes, indeed I did. And I would like to thank 
Congresswoman Christensen for that wonderful introduction.
    First, though, I will start by thanking President Obama for 
the honor of this nomination. If I'm confirmed by the Senate, 
it would be a great privilege for me to have the opportunity to 
serve in the Virgin Islands, the place that I am always proud 
to call home. I would also like to thank this Committee for 
conducting the hearing and for considering my nomination, thank 
you; Madam Chair, for presiding today; and Senator Grassley, 
for your presence here as well.
    I also would like to thank my current boss, Ken Salazar, 
for his support throughout the process. He's been a great 
leader, a wonderful boss, and he has given me his complete 
support during the course of this process and I would like to 
thank him for that.
    I do have some family members and friends here whom I'd 
like to introduce. I will start with my immediate family, and 
first among those is my mother, Juta Lewis, who's sitting 
behind me, as Congresswoman Christensen mentioned, a former 
Customs Official, the Assistant District Director of Customs to 
the Virgin Islands, retiring after 30 years of service.
    I would like to acknowledge as well and recognize my late 
father who's not here with us physically, but I know is here 
with us in spirit and I'm sure is smiling and is very proud 
today. It is my mom and my dad to whom I will be eternally 
grateful for the person whom I have become, because it is their 
example, it is their love, their support that has made me the 
person who I am today and I'm very pleased that my mother is 
here in person and my dad is here in spirit.
    I will continue with my brother, Warren Lewis, who is also 
a public servant with some 37 years under his belt. He's 
currently the executive officer at Interpol, and previously 
served with the former Immigration and Naturalization Service 
in a number of capacities, including as Assistant Regional 
Commissioner and as District Director of two different 
jurisdictions.
    He's here as well with his wife and my sister-in-law, Jean 
Lewis, recently retired from the Internal Revenue Service after 
some 34 years of government service, and my nephew, Aaron 
Lewis, who will be a senior this year at St. Mary's College of 
Maryland. He's a scholar/athlete, I'm proud to say, on the 
honor roll, on the dean's list there, and also quite the soccer 
player, having returned last night from Puerto Rico after 
helping the U.S. Virgin Islands National Soccer team secure a 
victory in Puerto Rico. So I'm pleased that he is back today.
    We have some close friends of the family: Leslie Turner, 
who is the chief legal officer at Coca-Cola, a former colleague 
and personal friend; Reed Raymond, who is the vice president 
and administrative officer for the Federal Reserve Bank of 
Philadelphia. Reed Raymond, another close personal family 
friend. And also Hon. Thomas Motley, a former colleague of mine 
and current Superior Court judge here in the District of 
Columbia.
    There are a number of other people in the audience who are 
supporters. I would like to thank some members of my church who 
are here today, Faith Moravian Church of the Nation's Capital, 
who always surround me with a blanket of love and support, and 
they continue to do so today by their presence here, as well as 
on the webcast where I know some are watching.
    I have some other personal friends here as well, and also 
some colleagues from the Department of Interior, in particular 
the corridor, the Assistant Secretary's corridor. They are here 
as well. They are tremendous colleagues, hardworking public 
servants, and I thank them for their support. Thank you very 
much.
    Senator Klobuchar. Very good. Thank you.
    And then, General Quagliotti.
    [The biographical information follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
 STATEMENT OF MAJOR GENERAL MARILYN A. QUAGLIOTTI, USA (Ret.], 
 NOMINEE TO BE DEPUTY DIRECTOR FOR SUPPLY REDUCTION, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Major Quagliotti. Thank you, Senator and Ranking Member 
Grassley. It's an honor to be here today as President Obama's 
nominee for Deputy Director for supply reduction at the Office 
of National Drug Control Policy.
    I have only one person to introduce, my husband of 30 
years, Greg Quagliotti. He's the guy sitting back there with 
the 82nd Airborne Division pin on today.
    And I would like to acknowledge the many friends around the 
world who sent notes and well wishes and who wanted to be here 
today, but could not because they remain on active duty.
    Thank you.
    Senator Klobuchar. Very good. Thank you very much. Thank 
you, all of you.
    I'm going to turn it over to Senator Grassley to first ask 
some questions.
    Senator Grassley. Mr. Green, have you ever tried a case in 
Federal court? Have you ever appeared in Federal court?
    Mr. Green. No, I've not tried a case in Federal court.
    Senator Grassley. Your Senate questionnaire also states 
that less than 1 percent of your practice has been in civil 
proceedings. How are you prepared to handle civil matters in 
Federal court?
    Mr. Green. The civil work that I did, Senator, was with 
Morris & Morris prior to joining the District Attorney's 
Office. For the last 24 years I have done extensively--or 
exclusively criminal work in the District Attorney's Office. I 
think that certainly it will be a transition that I will have 
to make, but I've proven throughout the course of my career 
that I can make transitions and I've transitioned into 
different areas of law.
    For example, when New York State enacted the capital 
statute in 1995, I had to make the transition. I was the person 
designated to get up to speed on capital prosecutions, lead the 
office, and in fact wound up teaching attorneys around the 
State how to prosecute capital cases. So this will clearly be a 
transition, but I think my record shows that given my work 
ethic and given my ability, I'll be able to make that 
transition.
    Senator Grassley. A minority of the ABA Standing Committee 
found you Not Qualified for the position. Tell the Committee, 
please, about your background and experience that make you 
qualified to sit as a Federal District Court Judge.
    Mr. Green. Certainly. I started my career working at Morris 
& Morris, doing mainly plaintiffs' personal injury work and 
real estate work. It was a very short period of time that I was 
there. I joined the District Attorney's Office, and for the 
last 24 years have been doing almost exclusively criminal 
litigation. I've tried about 110 felony cases. In addition to 
that, I've tried hundreds of misdemeanor cases. I continue to 
try cases. I've been the District Attorney for the last 8 years 
and have continued to try the major high-profile cases in our 
office during that time.
    I've spent the bulk of my 24 years as an attorney in court, 
trying major cases, litigating. I think that that experience--
through that experience I know what it takes to be a good judge 
in a case. I know the difference a good judge can make. I've 
had the opportunity to see the qualities that judges exhibit 
that help make sure that justice is done in particular cases. I 
think that litigation experience will clearly help me make the 
transition.
    I think the other thing that will help me make the 
transition is, as a prosecutor, I'm not just an advocate. 
Clearly I am an advocate and that's different than the role of 
a judge, but I'm also tasked with the responsibility of seeking 
justice. And for the last 24 years, I've done that. While the 
work that I do seeking convictions may get more publicity, 
there are many occasions when doing justice requires me or my 
assistants to dismiss cases or make decisions not to bring 
charges because that's just. And I think that that experience 
will also help me make the transition.
    Senator Grassley. You served as a member of the New York 
Commission on Sentencing Reform. In a New York Law Journal 
article you were cited as supporting the proposition that non-
violent, drug-addicted offenders should be sent into treatment 
instead of prison, so long as it does not jeopardize humans' 
public safety. Would you please explain this idea to the 
Committee?
    Mr. Green. Certainly. I did serve as a member of the 
Sentencing Reform Commission. I was one of 11 members. There 
was some very vigorous debate on the commission with regard to 
where New York should go with their sentences and with their 
legislation, particularly in the area of the drug legislation.
    I tried to advocate for positions that I felt struck an 
appropriate balance between providing treatment for people in 
the criminal justice system that needed treatment, but also 
making sure that it was done in a way that did not jeopardize 
public safety. There were some parts of the Sentencing 
Commission's recommendations that I agreed with and I felt 
struck that balance appropriately. There were other parts that 
I disagreed with and felt that they did not strike that balance 
and that they did not adequately provide for public safety.
    Senator Grassley. As a prosecutor, what has been your 
record on prosecuting non-violent drug offenders, particularly 
focusing on those charged with use or possession as opposed to 
distribution?
    Mr. Green. I think the first thing I would say is that 
sometimes I think it's a misnomer to say ``non-violent'' drug 
crimes because I think if you just look at the crime itself and 
the label that you put on it, it doesn't tell the whole story. 
I think that as a prosecutor, you have to look behind each case 
and look at the person you're dealing with, look at the record, 
and try and figure out if this is someone who is a user who's 
never engaged in violence before, is not posing a risk to the 
community as opposed to, is this someone who is involved in, 
for example, gang activity, drug sales.
    Even if the charge they're arrested for is a possession 
charge, you know, are they someone who poses a significant 
danger to the community? That's what I've tried to do as a 
prosecutor, and on occasions where I feel with drug possession 
cases, that we have someone who can safely be put into drug 
treatment without jeopardizing the community, I've certainly 
supported that position at times. In other cases where I felt 
that we had an individual with charges pending who posed a 
significant danger to the community, I've advocated that that 
person be incarcerated to protect the community.
    Senator Grassley. My last question. The previous New York 
Journal that I referred to quoted you as stating that ``both 
prosecutors and judges should play a meaningful role in who 
gets placed into treatment''. You're a board member of Huther-
Doyle Memorial Institute, a not-for-profit agency that provides 
addiction treatment and recovery services to drug and alcohol 
addicts.
    Do you see any conflict of interest with your current role 
as District Attorney where you'll recommend treatment in your 
position as a board member for the institute, an institution 
providing treatment services, and presumably receiving payment 
for those services?
    Mr. Green. I do not see any conflict. If there's a 
particular issue that came up that I felt posed a conflict I 
would recuse myself.
    In terms of the article that you referenced, maybe you can 
rephrase that part of the question. I'm sorry, I got focused on 
the Huther & Doyle part.
    Senator Grassley. I will state the whole question again. Do 
you see any conflict of interest with your current role as 
District Attorney where you recommend treatment in your 
position as board member for the institute, an institution 
which provides treatment service and presumably receiving 
payments for those services?
    Mr. Green. First of all, our office is not involved in 
terms of making payments. We certainly have a role in 
recommending or opposing someone being put into treatment. As 
to the first part of your question where you pointed out that 
in some instances I felt that prosecutors and judges should 
have a meaningful role, one of the things that I advocated for 
throughout the Sentencing Commission proceedings was on what I 
felt were serious drug felony cases, people who in my community 
were involved in drug sales, many times were gang members, 
people that posed a risk to the community.
    I felt that on those types of cases, prosecutors shouldn't 
be cut out of the equation. I felt prosecutors had some 
information, sometimes information that judges don't have, and 
sometimes information that's very difficult to share on the 
record. And in certain instances I felt members of the 
Sentencing Commission were trying to push legislation that 
would cut prosecutors out of that decisionmaking process and I 
was opposed to that.
    As to the Huther-Doyle part of the question, no, I don't 
see any conflict. I see my role on the board, and my role on 
the board has been where I can, to help make sure that Huther-
Doyle, and frankly other treatment agencies, are aware of the 
needs of the criminal justice system and are in a position to 
respond to the needs of the criminal justice system when judges 
see fit to refer people.
    Senator Grassley. Thank you, Mr. Green.
    Thank you, Madam Chairman.
    Senator Klobuchar. Thank you very much, Senator Grassley. 
And just to confirm, Mr. Green, the majority of the ABA found 
you qualified for this position. Is that right?
    Mr. Green. That's correct. Thank you, Senator.
    Senator Klobuchar. OK. Very good.
    And I just thought I'd ask a general experience--a general 
question of all of you. I just was noting that you all have 
decades of experience under your belt. That's why I said the 
word ``experience''. And I thought if you could just each go, 
the first three of you, go through your--what you describe as 
your judicial temperament and what you think would make you a 
good judge.
    Ms. Marmolejo.
    Ms. Marmolejo. Thank you, Senator, for the question. Thank 
you for the question, Senator. I have been fortunate in that I 
have grown up in the Federal system. My first job out of law 
school was working as an assistant Federal public defender for 
a couple of years, and then I worked as a Federal prosecutor 
for over 8 years. And I believe that during this time my 
colleagues would describe me as a person who is not only fair, 
but who possesses a calm and even-tempered demeanor.
    And I believe the judges should, in fact, possess a calm 
and even-tempered demeanor, and that's what I would hope to 
bring to the bench, along with a strong commitment to follow 
the law in every case and a commitment to approach each case 
with an open mind, without pre-judging any situation, and to 
truly give litigants their day in court.
    Senator Klobuchar. Very good.
    Mr. Green.
    Mr. Green. Thank you, Senator. As District Attorney, I 
think I find myself every day in many pressure-packed 
situations and I always pride myself on the fact that I am calm 
as I do my job, I reason through decisions, and I think people 
respect the work that I do. As a judge, I think that those 
qualities would serve me well. I think it's important that a 
judge sets the tone for his or her courtroom, and I would do 
that through my work ethic, through the quality of my work, and 
through the dignity and the respect that I show for all parties 
that appear in my courtroom.
    In terms of the work itself, I would be the type of judge 
who, in finding the facts, would make sure to convey to all of 
the litigants that I understand their position. Once I found 
the facts, I would apply the law as it is, whether it's from 
the Constitution, or statutes, or Supreme Court, or Second 
Circuit cases that I would be bound to follow, and I would try 
and render decisions promptly as possible because I believe all 
parties, particularly parties in Federal court, are entitled to 
justice that's not only appropriate, but also prompt.
    Senator Klobuchar. Very good. Thank you.
    And Ms. Lewis.
    Ms. Lewis. Thank you, Senator. I believe during the course 
of my professional career I've had the opportunity to perform 
in a number of different roles, as advocate, as impartial 
decisionmaker, and in particular as the Inspector General of 
the Department of the Interior, and as the U.S. Attorney, as 
counselor, in an in-house capacity of the Department of the 
Interior, indeed, as teacher as I served as an adjunct faculty 
member of the George Washington University Law School in terms 
of--with respect to trial advocacy matters.
    Throughout the course of that career I believe I have 
developed the kinds of skills, and indeed the temperament, that 
would hold me in good stead as a Federal District Judge. I 
believe I have a very strong commitment to public service, I 
think as demonstrated by my record. I believe I would be fair, 
but firm. I listen carefully to all different perspectives 
before making decisions, and indeed like to hear the opposite 
perspective to the direction that I am inclined to go.
    So I believe I would have that as an attribute as well as a 
judge. I believe I would set a tone for the courtroom. I would 
strive to do that, in which everyone has the opportunity, all 
the litigants have their day in court, and to have a full and 
fair opportunity to be heard. I would be strictly adhering to 
the rule of law and the precedent, and I think throughout my 
career I have demonstrated that as well. So I think those 
skills, those qualities would be the ones that I would seek to 
bring to the bench.
    Senator Klobuchar. Thank you very much.
    General Quagliotti, just a few questions of you. Could you 
describe what your job is for everyone that you are being 
nominated for, the Director for Supply Reduction? I can guess, 
but can you describe it for all of us?
    General Quagliotti. Yes, Senator. I'll be happy to. In the 
Office of National Drug Control Policy there are three 
deputies: one is for supply reduction, which would be the one 
that I am being nominated for; one is for demand reduction; and 
one is for State, local and tribal collaboration and 
coordination. So I would be nominated for Supply Reduction.
    Senator Klobuchar. OK. Very good.
    And what's the major focus then? It's on making sure that 
we reduce our supply of illegal drugs? Is that right?
    General Quagliotti. Correct. And really the portfolio for 
this office is mainly an international portfolio, so dealing 
with countries that are outside the United States which are 
trying to reduce drug trafficking organizations within their 
own country.
    Senator Klobuchar. Very good.
    And in Panama you spent 2 years as a Brigade Commander, 
working to stop the flow of illegal drugs into the U.S. And you 
also advised the Colombia army on command and control issues 
related to illegal drugs. Can you tell us about this experience 
and how that will help you in this job?
    General Quagliotti. Yes, Senator. You know, I've traveled 
across the world throughout my 32 years as an active duty 
soldier, spent a lot of time, 9 years, overseas. The 2 years 
that really impressed me the most was the time that I spent in 
Panama as Brigade Commander.
    And during that period of time my organization deployed 
over 50 times into Central and South America, and during those 
deployments we were actually supporting projects that were 
sponsored by the State Department and really the responsibility 
of SouthCom, which is the military command in that region. We 
were supporting emerging democracies because at that time, 
which was 1995 to 1997, we still had insurgency movements in 
Central and South America.
    So I really became familiar with the effect that drugs can 
have on a democracy, on the corrupting effects that it can have 
with the judicial system, the military, law enforcement, and 
even in the daily lives of the people who live in the 
countries. So I believe that I have the international 
experience, the interagency experience to negotiate, 
collaborate, and work with Central and South America, as well 
as other countries, to reduce the flow of drugs into the United 
States.
    Senator Klobuchar. Very good.
    And I also wanted to congratulate you on becoming the first 
female signal soldier to obtain the rank of Major General.
    General Quagliotti. Thank you, Senator.
    [The biographical information follows.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Senator Klobuchar. Very good. I note that three of our four 
nominees are women. You broke the glass ceiling, Mr. Green, to 
be included in this group.
    [Laughter.]
    Senator Klobuchar. In any case, I want to congratulate all 
of you on a job well done. I don't think we have any remaining 
questions, although Senators are welcome to submit questions 
for the record. The record will remain open for 1 week.
    I wish you all well. Thank you and all of your extended 
families for being here, and those of them watching on webcast. 
So, have a very good day.
    With that, this hearing is adjourned.
    [Whereupon, at 3:43 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
